<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, MARCH 12, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Boozman, Capito, Lankford, 
Mikulski, Feinstein, Shaheen, Coons, Baldwin, and Murphy.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. JAMES B. COMEY, DIRECTOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order. We 
welcome all of you to today's open session of the Commerce, 
Justice, Science Subcommittee hearing on the Department of 
Justice fiscal year 2016 budget request for Federal law 
enforcement agencies.
    I want to welcome first our four witnesses, Federal Bureau 
of Investigation (FBI) Director James Comey, U.S. Marshals 
Service Director (USMS) Stacia Hylton, Drug Enforcement 
Administration (DEA) Administrator Michele Leonhart, and the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) 
Director Todd Jones. They will later each testify about their 
agency's 2016 budget request.
    This morning, I want to begin by thanking the men and women 
of the FBI, the Marshals Service, the DEA, and the ATF, who 
work every day to protect this Nation. We are indebted to them 
and grateful for their service and their sacrifice.
    In particular, I want to express my condolences to the 
family of Deputy U.S. Marshal Josie Wells, who was killed in 
the line of duty on Tuesday while participating in a fugitive 
task force in Baton Rouge, Louisiana. Deputy Marshal Wells was 
attached to the Marshals' Southern District Office in 
Mississippi and had dutifully volunteered for this recent task 
force.
    Our thoughts and prayers are with his family, friends, and 
the entire Marshals Service community for their loss here.
    The constantly changing landscape of criminal activity at 
home and abroad has challenged the Justice Department's ability 
to deal with emerging threats. We expect our Federal law 
enforcement agencies to be more nimble and sophisticated than 
the criminals and terrorists they pursue.
    The goal of this joint law enforcement hearing is to 
determine how the 2016 budget would give each law enforcement 
agency the tools and the capabilities needed to tackle those 
changing threats, whether they are cyberattacks, drug 
trafficking, financial fraud, or terrorism.
    I believe our Federal law enforcement agencies must work 
together, particularly in tough budget environments, to target 
limited resources in a manner that safeguards taxpayers' 
dollars while preserving public safety.
    The FBI's mission includes protecting and defending the 
United States against terrorism and foreign intelligence 
threats, fighting cybercrime, as well as tending to traditional 
criminal activities, such as violent crime, public corruption, 
and white-collar crime. In order to carry out these priorities, 
the FBI's 2016 budget request is $8.5 billion, which is an 
increase of $47 million above the 2015 enacted amount.
    In the past year, we have seen terrorist threats and 
increased cyberattacks. I believe it is imperative that the FBI 
appropriately balances the bureau's diverse responsibilities 
while targeting the highest needs and criminal threats facing 
our Nation.
    The Marshals Service has the honor of being America's 
oldest Federal law enforcement agency. The Marshals provide 
judicial security, apprehend fugitives, protect witnesses, and 
transport prisoners, among other important duties. The 2016 
budget request of $2.7 billion for the Marshals Service is $100 
million less than the 2015 enacted level of $2.8 billion. The 
funding reductions are largely isolated to the Federal Prisoner 
Detention account.
    I want to hear how the 2016 budget request will allow the 
Marshals Service to continue its critical missions for the 
pursuit and arrest of fugitive sex offenders who are targeting 
our children.
    The Drug Enforcement Administration's 2016 budget request 
totals $2.5 billion. The agency serves a central role in our 
society, working with domestic and international partners in 
enforcement of controlled substance laws and regulations of the 
United States.
    In addition, the DEA's Diversion Control Program prevents, 
detects, and investigates the diversion of controlled 
pharmaceuticals and listed chemicals. This mission is critical 
with prescription drug abuse arguably being the country's 
fastest growing drug problem.
    The Bureau of Alcohol, Tobacco, Firearms and Explosives is 
tasked with combating the illegal use and trafficking of 
firearms, the illegal use and storage of explosives, and acts 
of arson and bombings, among other crime-fighting roles. ATF's 
2016 budget request is $1.3 billion, which is $60 million above 
the 2015 level.
    I am interested in how the agency would use this increased 
funding, particularly in light of recent complaints from 
hunters and sportsmen who believe that ATF overstepped its 
authority by attempting to ban certain ammunition for 
recreational use.
    I look forward to hearing the views and explanations of our 
four witnesses regarding the details of their 2016 funding 
request totals, and working with our subcommittee members to 
prioritize the necessary funding for our Federal law 
enforcement agencies.
    Now at this point, I would like to recognize my friend and 
colleague, Senator Mikulski, the former chairwoman of the 
subcommittee.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman, for 
this hearing today and really bringing the full complement of 
Federal law enforcement before the subcommittee, not only to 
review their budget, but so that we could first of all truly 
express our appreciation. And we do appreciate every single man 
and woman who works for the agencies represented here today, 
who are so much valued and so much appreciated. And they should 
know that.
    I think we need to be able to do that in three ways. Number 
one, give them respect. Make sure we respect them and respect 
the sacrifices they do and their families do every single day 
while they are often away protecting us.
    Number two, let's have the right resources, and let's make 
sure we don't do another sequester where FBI agents were 
digging into their pocket to pay for gasoline, and DEA agents 
were wondering what they could do to do their job, and while we 
were looking at sequester, how we go after the sexual predators 
while we were protecting the judges.
    And, of course, for the Bureau of Alcohol, Tobacco, and 
Firearms (ATF), that wonderful lab in Ammendale that does this 
incredible forensics, not only what you are enforcing, but 
enabled us to identify that the terrible sniper situation we 
had here a few years ago came from a single gun, through the 
forensics that you did.
    And it's that: some carry a gun, some work with a 
microscope, but all are on their job, and I wanted to say that.
    Tomorrow, I will be at a Maryland, Montgomery County 
Chamber of Commerce event, in which they honor those who 
provide public safety, firefighters and also police officers.
    The Baltimore field office, Mr. Comey, will be receiving an 
award for being the best public safety partner. So it is not 
only what you do, it is how you do it, actually engaged in the 
community, leveraging the assets of both the Federal Government 
and then State and local, where everybody is best at what they 
are best at and best at what they are most needed for. So we 
appreciate that.
    Of course, we want to express our condolences over the 
death of Deputy Marshal Josie Wells killed in the line of fire.
    And, of course, we wish our police officers in Ferguson a 
good recovery.
    So we have a big job to do, and the way we start, with 
respect, I believe, with the right resources. While we are 
looking at the law enforcement agencies, the FBI, DEA, and ATF 
make up almost half of the Justice Department's budget, close 
to $15 billion. I think that is a bargain. I think that is a 
tremendous bargain for what we get in the way you are out there 
protecting America.
    There is only a modest increase in here of $98 million, and 
I am concerned whether that enables you to keep on hiring the 
people that you need to do the job, to be able to sustain the 
effort with the people that you hire, and also will we be able 
to do the cost-of-living adjustments for the people who work 
with you, whether they are agents or intelligence analysts or 
computer analysts.
    These needed increases come in the context of the 
President's request. Yes, we do know it is above the caps, and 
we will be having a robust discussion. But while there are many 
who are calling and pounding the table for let's lift the caps 
on defense, a needed debate, there is another way we need to 
defend America.
    We need to defend America in the streets and neighborhoods 
of our communities, and we need to defend them from sexual 
predators. We need to defend them from murderers and killers. 
We need to defend them against the lone wolf, who could be 
roaming around one of our big cities or small towns.
    So if you want to protect America, you not only want to 
lift the defense caps, you want to lift the domestic caps and 
have parity with that.
    I want you to know, I feel very strongly about it. And when 
I say I didn't want to run again because I didn't want to raise 
money, but raise hell, this is one of the areas that I am going 
to raise hell about. And we are going to do it here today.
    So we look forward to hearing what it is you need for those 
resources. We count on you to be able to do this job.
    I could go through the data, which I will when we get to 
the questions. Two areas I hope we could also focus on, in 
addition to your specific mission, of course, is the heroin 
crisis that we hear from every Governor, including my own in 
Maryland.
    And we look to work with our Governor. Yes, he is a 
Republican and, yes, I am a Democrat. But we are 100 percent 
Marylanders, and we are 100 percent involved in dealing with 
heroin.
    Of course, the women of the Senate, joining with very good 
men, are now focusing on the issue of human trafficking, and we 
look forward to hearing it.
    But I need to know what are the right resources for you to 
be best at what you are best at, and be best at what you are 
needed for. And we best better get our act together and make 
sure we support you.
    I look forward to the dialogue.
    Senator Shelby. Thank you.
    We will start the hearing testimony with FBI Director Comey 
and then go right to left. We welcome all of you. Your written 
testimony will be made part of the record, if you will sum up 
your remarks.
    Director Comey, welcome again.

                SUMMARY STATEMENT OF HON. JAMES B. COMEY

    Mr. Comey. Thank you, Mr. Chairman, it is good to be here. 
Vice Chairwoman Mikulski, Senators, thank you for this 
opportunity. Thank you for the opportunity to sit with three--I 
was going to say old friends but I don't want to criticize 
anyone--people who I have worked with for many years, maybe 
more than we would like to admit.
    We all very much appreciate your expression of condolence 
for the Marshals Services' terrible loss. It is a reminder of 
the quality of the people we have, and the risk they take to 
protect this country. We are very grateful for that.
    The FBI's 2016 budget request is about maintaining the 
capabilities that you have given us. It is about being good 
stewards of the taxpayers' money and ensuring that we recover 
from the effects of sequester by filling the ranks that were so 
depleted over the last couple of years.
    There are two enhancements requested in our budget, each 
for about $10 million--one relates to our cyber-capabilities, 
trying to build those, and the second relates to our efforts to 
try to integrate better in a technological way with the rest of 
the intelligence community.
    As the members of this subcommittee know, the FBI, like my 
colleagues here would agree, it's all about the people. Sixty 
percent of our budget goes to our good folks. We have 
remarkable men and women who are working 24 hours a day all 
around this world to protect this country and its citizens.
    The members of this subcommittee are very well-aware of the 
threats the FBI is responsible for addressing. Counterterrorism 
remains at the top of our list, for reasons that make good 
sense.
    The world of terrorism has shifted just in my 18 months on 
this job, particularly in the growth and flourishing in 
ungoverned or lightly governed spaces of the progeny of al 
Qaeda, most prominently with ISIL, and with the use in groups 
like ISIL and Al-Qaeda in the Arabian Peninsula (AQAP). They 
use sophisticated technology and social media to spread their 
poison, to attract recruits to their so-called caliphate, and 
to try to motivate people who don't travel to do harm to 
innocent people in the United States.
    This poses an enormous challenge to us to find the people 
who are responding to that siren song, to track those who are 
traveling, and to find those who might be motivated to 
radicalize and stay in place but engage in murderous behavior 
in the name of some misguided effort to find meaning in their 
lives.
    So counterterrorism remains at the top of our list, for 
reasons that I know the American people appreciate.
    As Chairman Shelby mentioned, we also have responsibility 
for counterintelligence. The spy game is not a thing of the 
1950s or 1960s. It is alive and well, and increasingly, as with 
all the threats we are responsible for, manifesting on the 
Internet.
    Cyber dominates the FBI's life. You have to be digitally 
literate to protect kids, to fight fraud, to fight terrorism, 
to protect critical infrastructure, to protect our secrets. And 
so we are working very hard to make sure we have the workforce, 
the technology, and that we are deployed in a smart way to be 
able to deal with the threats that come at us through the 
Internet, which are all the threats we are responsible for.
    And we spend a tremendous amount of time working with our 
partners here at this table to address a variety of criminal 
threats: Vice Chairwoman Mikulski mentioned our efforts to 
protect children, we work very hard on that; to fight public 
corruption, as Chairman Shelby said; and a host of other 
efforts we do around the country.
    We do them almost entirely in partnerships with Federal, 
State and local partners. There is literally nothing that the 
FBI does alone. We accomplish great good, but we do it in 
partnership with lots of other folks.
    I wanted to close by just mentioning a couple of our 
capabilities that this subcommittee has supported that don't 
get the attention, in my view, that they deserve.
    The first is our Terrorist Explosive Device Analytical 
Center (TEDAC) that we, together with ATF and other partners, 
run. It is the analysis center for improvised explosive devices 
used by terrorists around the world. It is a tremendous 
resource for this country and its allies.
    In Huntsville, Alabama, we are putting together a world-
class facility so that we can do with explosive devices what we 
have done with fingerprints, which is allow us to connect dots 
and save lives. I had the chance to visit the new facility 
there very recently. I am extremely excited about the 
opportunities that offers for this country and our allies to be 
safer.
    And we are very grateful to the subcommittee for its 
support.
    We also run the Hazardous Devices School down there, where 
we with partners are training the bomb techs of today and 
tomorrow, who are working around this country to defuse devices 
and to protect the American people.
    Two tremendous resources that don't get much attention. I 
will mention one other.
    In the great State of West Virginia, we have thousands of 
people working at our Criminal Justice Information Services 
Division, which is literally the frame on which hangs the law 
enforcement of this country. They facilitate the information-
sharing. They run the fingerprint database. They run the DNA 
database. They run the sharing of vital information that 
protects law enforcement officers.
    I told them when I visited them that your work to a lot of 
people sounds boring. It is only boring because it works so 
well. We take it for granted that this work will be there, so 
when a cop pulls somebody over and runs their name or their 
fingerprints, they know immediately whether that is a 
terrorist, a rapist, an escaped fugitive, and people are 
protected by virtue of that.
    They are underappreciated but they are the frame on which 
hangs law enforcement in this country. We are hugely grateful 
for the support of this subcommittee of our West Virginia 
colleagues.
    With that, I will stop and just thank you again. This 
subcommittee has been tremendously supportive of the FBI. We 
recognize it and our great folks are extraordinarily grateful 
for the support they've gotten from the subcommittee, and I 
look forward to taking your questions.
    [The statement follows:]
               Prepared Statement of Hon. James B. Comey
    Good morning Chairman Shelby, Vice Chairwoman Mikulski, and members 
of the subcommittee.
    As you know, the FBI is asked to deal with a wide range of threats, 
crime problems, and operational challenges across the national security 
and law enforcement spectrum. Today, I appear before you on behalf of 
the men and women of the FBI who step up to these threats and 
challenges. I am here to express my appreciation for the support you 
have given them in the past and to ask your continued support in the 
future.
    I would like to begin by providing a brief overview of the FBI's 
fiscal year 2016 budget request, and then follow with a short 
discussion of key threats and challenges that we face, both as a Nation 
and an organization.
                fiscal year 2016 budget request overview
    The fiscal year 2016 budget request proposes a total of $8.48 
billion in direct budget authority to address the FBI's highest 
priorities. The request includes a total of $8.4 billion for Salaries 
and Expenses, supporting 35,037 permanent positions (13,074 Special 
Agents, 3,083 Intelligence Analysts, and 18,880 professional staff), 
and $68.9 million for Construction. Two program enhancements totaling 
$20 million are proposed: $10.3 million to increase cyber investigative 
capabilities and $9.7 million to leverage Intelligence Community 
Information Technology Enterprise (IC ITE) components and services 
within the FBI.
    The fiscal year 2016 request includes the cancellation of $120 
million from Criminal Justice Information Services (CJIS) excess 
surcharge balances and $91.4 million in non-recurred spending ($50.4 
million in the Salaries and Expenses account and $41 million in the 
Construction account).
    Overall, the fiscal year 2016 request represents a net increase of 
$47 million over the fiscal year 2015 enacted levels, representing an 
increase of $88 million for Salaries and Expenses and a decrease of $41 
million for Construction.
                       key threats and challenges
    As a Nation and as an organization, we face a multitude of ever 
evolving threats from homegrown violent extremists to hostile foreign 
intelligence services and agents; from sophisticated cyber-based 
attacks to Internet facilitated sexual exploitation of children; from 
violent gangs and criminal organizations to public corruption and 
corporate fraud. Within these threats, we face growing challenges, from 
keeping pace with constantly changing and new technologies that make 
our jobs both easier and harder; to the use of the Internet and social 
media to facilitate illegal activities, recruit followers and encourage 
terrorist attacks, and to disperse information on building improvised 
explosive devices (IEDs) and other means to attack the United States. 
The breadth of these threats and challenges are as complex as any time 
in our history. And the consequences of not responding to and 
countering threats and challenges have never been greater.
    The support of this subcommittee in helping the FBI to do its part 
in facing these threats and challenges is greatly appreciated. That 
support has allowed us to establish strong capabilities and capacities 
for assessing threats, sharing intelligence, leveraging key 
technologies, and--in some respects, most importantly--to hiring some 
of the best to serve as Special Agents, Intelligence Analysts, and 
professional staff. We are building a workforce that possesses the 
skills and knowledge to deal with the complex threats and challenges we 
face today--and tomorrow. We are building a leadership cadre that views 
change and transformation as a positive tool for keeping the FBI 
focused on the key threats facing our Nation.
    We remain focused on defending the United States against terrorism, 
foreign intelligence, and cyber threats; upholding and enforcing the 
criminal laws of the United States; protecting civil rights and civil 
liberties; and providing leadership and criminal justice services to 
Federal, State, municipal, and international agencies and partners. Our 
ability to carry out this demanding mission reflects the continued 
support and oversight provided by this subcommittee.
Countering Terrorism
    Preventing terrorist attacks remains the FBI's top priority. The 
terrorist threat against the United States remains persistent and 
acute.
    The threats posed by foreign fighters, including those recruited 
from the U.S., traveling to join the Islamic State of Iraq and the 
Levant (ISIL) and from homegrown violent extremists are extremely 
dynamic. These threats remain the biggest priorities and challenges for 
the FBI, the U.S. Intelligence Community, and our foreign, State, and 
local partners. ISIL is relentless and ruthless in its pursuits to 
terrorize individuals in Syria and Iraq, including Westerners. We are 
concerned about the possibility of individuals in the U.S. being 
radicalized and recruited via the Internet and social media to join 
ISIL in Syria and Iraq and then return to the U.S. to commit terrorist 
acts. ISIL's widespread reach through the Internet and social media is 
most concerning as the group has proven dangerously competent at 
employing such tools for its nefarious strategy. ISIL uses high-
quality, traditional media platforms, as well as widespread social 
media campaigns to propagate its extremist ideology. Recently released 
propaganda has included various English language publications 
circulated via social media. We are equally concerned over the 
execution of U.S. citizens taken as hostages by ISIL.
    As a communications tool, the Internet remains a critical node for 
terror groups to exploit. Recently, a group of five individuals was 
arrested for knowingly and willingly conspiring and attempting to 
provide material support and resources to designated foreign terrorist 
organizations active in Syria and Iraq. Much of their conspiracy was 
played out via the Internet. We remain concerned about recent calls to 
action by ISIL and its supporters on violent extremist Web forums that 
could potentially motivate homegrown extremists to conduct attacks here 
at home. Online supporters of ISIL have used various social media 
platforms to call for retaliation against the U.S. In one case, an 
Ohio-based man was arrested in January after he stated his intent to 
conduct an attack on the U.S. Capitol building. The individual is 
alleged to have used a Twitter account to post statements, videos, and 
other content indicating support for ISIL.
    Echoing other terrorist groups, ISIL has advocated for lone wolf 
attacks in Western countries. A recent ISIL video specifically 
advocated for attacks against soldiers, law enforcement, and 
intelligence community personnel. Several incidents have occurred in 
the United States, Canada, and Europe over the last few months that 
indicate this ``call to arms'' has resonated among ISIL supporters and 
sympathizers.
    Al Qaeda and its affiliates--especially al Qaeda in the Arabian 
Peninsula (AQAP)--continue to represent a top terrorist threat to the 
Nation and our interests overseas. AQAP's online English magazine 
advocates for lone wolves to conduct attacks against the U.S. homeland 
and Western targets. The magazine regularly encourages homegrown 
violent extremists to carry out small arms attacks and provides 
detailed ``how to'' instructions for constructing and deploying a 
successful improvised explosive device.
    With our domestic and foreign partners, we are rigorously 
collecting and analyzing intelligence information as it pertains to the 
ongoing threat posed by ISIL, AQAP, and other foreign terrorist 
organizations. Given the global impact of the Syria and Iraq conflicts, 
regular engagement with our domestic and foreign partners concerning 
foreign fighters is critical. These partnerships are critical to 
performing our counterterrorism mission and ensuring a coordinated 
approach towards national security threats.
    The FBI, along with our local, State, tribal, and Federal partners, 
is utilizing all investigative techniques and methods to combat the 
threat these terrorists may pose to the United States. We must maintain 
robust information sharing and close collaboration with our State, 
local, tribal, and Federal partners. Individuals who are affiliated 
with a foreign terrorist organization, inspired by a foreign terrorist 
organization, or who are self-radicalized are living in their 
communities. We recognize it is our responsibility to share information 
pertaining to ongoing or emerging threats immediately. Our local and 
State partners rely on this intelligence to conduct their 
investigations and maintain the safety of their communities. It is our 
responsibility to provide them with the information and resources to 
keep their communities out of harm's way. In each of the FBI's 56 field 
offices, Joint Terrorism Task Forces serve as a vital mechanism for 
information sharing among our partners. These task forces consist of 
more than 4,100 members--including more than 1,500 interagency 
personnel from more than 600 Federal, State, territorial, and tribal 
partner agencies. Together with our local, State, tribal, and Federal 
partners, we are committed to combating the threat from homegrown 
violent extremists and ensuring the safety of the American public.
    Among the FBI's counter-terrorism capabilities is the Terrorist 
Explosive Device Analytical Center (TEDAC). TEDAC is a whole of 
government resource for the exploitation of IEDs and combating the 
terrorist use of explosives. TEDAC is proving to be a valuable tool 
supporting the military, homeland security, international partners, 
intelligence, and law enforcement communities by developing and sharing 
intelligence about terrorist explosive devices. Prior to TEDAC, no 
single part of our Government was responsible for analyzing and 
exploiting intelligence related to terrorist IEDs. TEDAC will begin 
occupying the first phase of its new facilities this Spring. The second 
phase of construction, which will include a joint partnership with the 
Department of Homeland Security, is expected to be completed in fiscal 
year 2016. The third phase of construction will provide a collaboration 
center that is expected to be completed in fiscal year 2017. Also, 
consistent with funding provided by the subcommittee this fiscal year, 
the FBI is expanding facilities and training at the Hazardous Devices 
School (HDS). This effort is just getting underway.
Countering Foreign Intelligence and Espionage
    The Nation faces a continuing threat, both traditional and 
asymmetric, from hostile foreign intelligence agencies. Traditional 
espionage, career foreign agents acting as diplomats or ordinary 
citizens and asymmetric espionage, typically carried out by students, 
researchers, or businesspeople operating front companies, is prevalent. 
And they seek not only State and military secrets, but also commercial 
trade secrets, research and development, and intellectual property, as 
well as insider information from the Federal Government, U.S. 
corporations, and American universities. Foreign intelligence services 
continue to employ more creative and more sophisticated methods to 
steal innovative technology, critical research and development data, 
and intellectual property, in an effort to erode America's economic 
leading edge. These illicit activities pose a significant threat to 
national security.
    We also remain focused on the growing scope of the insider threat--
that is, when trusted employees and contractors use their legitimate 
access to steal secrets for personal benefit or to benefit another 
company or country. This threat has been exacerbated in recent years as 
businesses have become more global and increasingly exposed to foreign 
intelligence organizations.
    To combat this threat, we are working with academic and business 
partners to protect against economic espionage. We also work with the 
defense industry, academic institutions, and the general public to 
address the increased targeting of unclassified trade secrets across 
all American industries and sectors.
Cyber-based Threats
    An element of virtually every national security threat and crime 
problem the FBI faces is cyber-based or facilitated. We face 
sophisticated cyber threats from state-sponsored hackers, hackers for 
hire, organized cyber syndicates, and terrorists. On a daily basis, 
cyber-based actors seek our state secrets, our trade secrets, our 
technology, and our ideas--things of incredible value to all of us and 
of great importance to the conduct of our Government business and our 
national security. They seek to strike our critical infrastructure and 
to harm our economy.
    Given the scope of the cyber threat, the FBI and other 
intelligence, military, homeland security, and law enforcement agencies 
across the Government view cyber security and cyber-attacks as a top 
priority. Within the FBI, we are targeting high-level intrusions--the 
biggest and most dangerous botnets, state-sponsored hackers, and global 
cyber syndicates. We want to predict and prevent attacks, rather than 
reacting after the fact.
    As the subcommittee is well aware, the frequency and impact of 
cyber-attacks on our Nation's private sector and government networks 
have increased dramatically in the past decade and are expected to 
continue to grow. Since fiscal year 2002, the FBI has seen an 80 
percent increase in its number of computer intrusion investigations.
    FBI agents, analysts, and computer scientists are using technical 
capabilities and traditional investigative techniques--such as sources, 
court-authorized electronic surveillance, physical surveillance, and 
forensics--to fight cyber threats. We are working side-by-side with our 
Federal, State, and local partners on Cyber Task Forces in each of our 
56 field offices and through the National Cyber Investigative Joint 
Task Force (NCIJTF), which serves as a coordination, integration, and 
information sharing center for 19 U.S. agencies and several key 
international allies for cyber threat investigations. Through CyWatch, 
our 24-hour cyber command center, we combine the resources of the FBI 
and NCIJTF, allowing us to provide connectivity to Federal cyber 
centers, Government agencies, FBI field offices and legal attaches, and 
the private sector in the event of a cyber-intrusion. We have recently 
co-located our cyber efforts into a new FBI facility.
    The FBI is engaged in a myriad of efforts to combat cyber threats, 
from efforts focused on threat identification and sharing inside and 
outside of Government, to our internal emphasis on developing and 
retaining new talent and changing the way we operate to evolve with the 
cyber threat. The fiscal year 2016 budget request includes an 
enhancement of $10.3 million to support these efforts.
    In addition to key national security threats, the FBI and the 
Nation faces significant criminal threats ranging from complex white-
collar fraud in the financial, healthcare, and housing sectors to 
transnational and regional organized criminal enterprises to violent 
crime and public corruption. Criminal organizations--domestic and 
international--and individual criminal activity represent a significant 
threat to our security and safety in communities across the Nation.
Public Corruption
    Public corruption is the FBI's top criminal priority. The threat--
which involves the corruption of local, State, and federally elected, 
appointed, or contracted officials--strikes at the heart of government, 
eroding public confidence and undermining the strength of our 
democracy. It impacts how well U.S. borders are secured and 
neighborhoods are protected, how verdicts are handed down in court, and 
how well public infrastructure such as schools and roads are built. The 
FBI is uniquely situated to address this threat, with our ability to 
conduct undercover operations, perform court-authorized electronic 
surveillance, and run complex, long-term investigations and operations. 
However, partnerships are critical, and we work closely with Federal, 
State, local, and tribal, authorities in pursuing these cases.
    One key focus for us is border corruption. The U.S. Government 
oversees 7,000 miles of U.S. land border and 95,000 miles of shoreline. 
Every day, more than a million visitors enter the country through one 
of 327 official ports of entry along the Mexican and Canadian borders, 
as well as through seaports and international airports. Any corruption 
at the border enables a wide range of illegal activities, potentially 
placing the entire Nation at risk by letting drugs, arms, money, and 
weapons of mass destruction slip into the country, along with 
criminals, terrorists, and spies. Another focus concerns election 
crime. Although individual States have primary responsibility for 
conducting fair and impartial elections, the FBI becomes involved when 
paramount Federal interests are affected or electoral abuse occurs.
Gangs/Violent Crime
    Violent crimes and gang activities exact a high toll on individuals 
and communities. Today's gangs are sophisticated and well organized; 
many use violence to control neighborhoods and boost their illegal 
money-making activities, which include robbery, drug and gun 
trafficking, fraud, extortion, and prostitution rings. Gangs do not 
limit their illegal activities to single jurisdictions or communities. 
The FBI's ability to work across jurisdictional boundaries is vital to 
the fight against violent crime in big cities and small towns across 
the Nation. Every day, FBI special agents work in partnership with 
State, local, and tribal officers and deputies on joint task forces and 
individual investigations.
    FBI joint task forces--Violent Crime Safe Streets, Violent Gang 
Safe Streets, and Safe Trails Task Forces--focus on identifying and 
targeting major groups operating as criminal enterprises. Much of the 
Bureau's criminal intelligence is derived from partnerships with our 
State, local, and tribal law enforcement partners, who know their 
communities inside and out. Joint task forces benefit from FBI 
surveillance assets and our sources track these gangs to identify 
emerging trends. Through these multi-subject and multi-jurisdictional 
investigations, the FBI concentrates its efforts on high-level groups 
engaged in patterns of racketeering. This investigative model enables 
us to target senior gang leadership and to develop enterprise-based 
prosecutions.
Transnational Organized Crime
    More than a decade ago, the image of organized crime was of 
hierarchical organizations, or families, that exerted influence over 
criminal activities in neighborhoods, cities, or States. But organized 
crime has changed dramatically. Today, international criminal 
enterprises run multinational, multi-billion-dollar schemes from start 
to finish. These criminal enterprises are flat, fluid networks with 
global reach. While still engaged in many of the ``traditional'' 
organized crime activities of loan-sharking, extortion, and murder, new 
criminal enterprises are targeting stock market fraud and manipulation, 
cyber-facilitated bank fraud and embezzlement, identity theft, 
trafficking of women and children, and other illegal activities. 
Preventing and combating transnational organized crime demands a 
concentrated effort by the FBI and Federal, State, local, tribal, and 
international partners. The FBI continues to share intelligence about 
criminal groups with our partners and to combine resources and 
expertise to gain a full understanding of each group.
Crimes Against Children
    The FBI remains vigilant in its efforts to eradicate predators from 
our communities and to keep our children safe. Ready response teams are 
stationed across the country to quickly respond to abductions. 
Investigators bring to this issue the full array of forensic tools such 
as DNA, trace evidence, impression evidence, and digital forensics. 
Through improved communications, law enforcement also has the ability 
to quickly share information with partners throughout the world, and 
our outreach programs play an integral role in prevention.
    The FBI also has several programs in place to educate both parents 
and children about the dangers posed by violent predators. Through our 
Child Abduction Rapid Deployment teams, Innocence Lost National 
Initiative, Innocent Images National Initiative, Office for Victim 
Assistance, and numerous community outreach programs, the FBI and its 
partners are working to keep our children safe from harm.
    The FBI established the Child Sex Tourism Initiative to employ 
proactive strategies to identify U.S. citizens who travel overseas to 
engage in illicit sexual conduct with children. These strategies also 
include a multi-disciplinary approach through partnerships with foreign 
law enforcement and non-governmental organizations to provide child 
victims with available support services. Similarly, the FBI's Innocence 
Lost National Initiative serves as the model for the partnership 
between Federal, State, and local law enforcement in addressing child 
prostitution. Since its inception in fiscal year 2003, the FBI has 
partnered with nearly 400 law enforcement agencies from 71 child 
exploitation task forces throughout the country. This initiative has 
been responsible for the location and recovery of more than 4,350 
children. The investigations and subsequent 1,950 convictions have 
resulted in lengthy sentences, including 15 life terms.
             key cross-cutting capabilities and capacities
    I would like to briefly highlight two key cross-cutting 
capabilities and capacities that are critical to our efforts in each of 
the threat and crime problems described.
Intelligence
    The FBI is a national security and law enforcement organization 
that collects, uses, and shares intelligence in everything we do. The 
FBI's efforts to advance intelligence capabilities have focused on 
streamlining and optimizing our intelligence components while 
simultaneously positioning the Bureau to carry out its responsibilities 
as the lead domestic intelligence agency. Since 9/11, the FBI has 
transformed itself to become a threat-based, intelligence-informed 
national security and law enforcement agency. Such a transformation is 
a continuous journey and, while we have made substantial progress, we 
recognize we still have a journey ahead of us.
    This past year, I asked and received the subcommittee's approval to 
restructure the FBI's Intelligence Program to reflect the progress we 
have made. I would like to extend my appreciation for your support of 
my request. I am confident that restructuring will allow us to take the 
next step towards the seamless integration of intelligence and 
operations. I also anticipate the restructuring will facilitate 
smoother and more efficient exchange of intelligence with the 
Intelligence Community and international partners.
    The FBI cannot be content to just work what is directly in front of 
us. We must also be able to look beyond the horizon and understand the 
threats we face at home and abroad and how those threats may be 
connected. Towards that end, intelligence is gathered, consistent with 
our authorities, to help us understand and rank identified threats and 
to determine where there are gaps in what we know about these threats. 
We then try to fill those gaps and continue to learn as much as we can 
about the threats we are addressing and those we may need to address. 
We do this for national security and criminal threats, on both a 
national and local field office level. We then compare the national and 
local perspectives to develop a threat prioritization ranking for each 
of the FBI's 56 field offices. By creating this ranking, we strive to 
actively pursue our highest threats. This gives us a better assessment 
of what the dangers are, what's being done about them, and what we 
should spend time and resources on.
Operational and Information Technology
    As criminal and terrorist threats become more diverse and 
dangerous, the role of technology becomes increasingly important to our 
efforts. We are using technology to improve the way we collect, 
analyze, and share information. We have seen significant improvement in 
capabilities and capacities over the past decade; but technology 
remains a key concern for the future.
    For example, we recently deployed new technology for the FBI's Next 
Generation Identification System. This technology enables us to process 
fingerprint transactions much faster and with more accuracy. This year, 
the Biometrics Technology Center will come online. This shared facility 
will enhance collaboration between the FBI's Biometrics Center of 
Excellence and the Department of Defense's (DOD) Biometrics Fusion 
Center. Together, these centers will advance centralized biometric 
storage, analysis, and sharing with State and local law enforcement, 
DOD, and others. In addition, we are also integrating isolated stand-
alone investigative data sets so that we can search multiple databases 
more efficiently, and, in turn, pass along relevant information to our 
partners.
    The rapid pace of advances in mobile and other communication 
technologies continue to present a significant challenge to conducting 
court-ordered electronic surveillance of criminals and terrorists. 
These court-ordered surveillances are often critical in cyber cases 
where we are trying to identify those individuals responsible for 
attacks on networks, denial of services, and attempts to compromise 
protected information. However, there is a growing and dangerous gap 
between law enforcement's legal authority to conduct electronic 
surveillance, and its actual ability to conduct such surveillance. 
Because of this gap, law enforcement is increasingly unable to gain 
timely access to the information it needs to protect public safety and 
bring these criminals to justice. We are grateful for this 
subcommittee's support in funding the National Domestic Communications 
Assistance Center. The center enables law enforcement to share tools, 
train one another in modern intercept solutions, and reach out to the 
communications industry with one voice. It is only by working 
together--within the law enforcement and intelligence communities, and 
with our private sector partners--that we will develop effective 
strategies enabling long-term solution to address this growing problem.
    The fiscal year 2016 budget request includes $9.7 million for the 
initial installment of a multi-year information technology strategy to 
enhance the FBI's ability to share information with partners in the 
Intelligence Community using cloud computing and common desktop 
environments.
                               conclusion
    Being asked to respond to complex and ever-changing threats and 
crime problems is not new to the FBI. Our success in meeting these 
challenges is directly tied to the resources provided to the FBI. The 
resources this subcommittee provides each year are critical for the 
FBI's ability to address existing and emerging national security and 
criminal threats.
    Chairman Shelby, Vice Chairwoman Mikulski, and members of the 
subcommittee, I would like to close by thanking you for this 
opportunity to discuss the FBI's budget request for fiscal year 2016 
and the key threats and challenges that we are facing, both as a Nation 
and as an organization. We are grateful for the leadership that you and 
this subcommittee have provided to the FBI. We would not possess the 
capabilities and capacities to deal with these threats and challenges 
today without your support. Your willingness to invest in and support 
our workforce and our physical and technical infrastructure allow the 
men and women of the FBI to make a difference every day in communities 
large and small throughout our Nation and in locations around the 
world. We thank you for that support.
    I look forward to answering any questions you may have.

    Senator Shelby. Thank you.
    Ms. Hylton.

                     UNITED STATES MARSHALS SERVICE

STATEMENT OF HON. STACIA A. HYLTON, DIRECTOR
    Ms. Hylton. Thank you, Mr. Chairman. Good morning, 
everyone.
    I want to start by thanking for your recognition of Deputy 
Josie Wells, who we lost this past Tuesday. He was, without a 
doubt, one of our finest. He was a young man committed to our 
fugitive investigation operations. He was a young man who 
worked to make our community safer. His loss is really 
unbearable to all of us, but, more importantly, as you can 
imagine, to his family.
    Deputy Wells came from a long line of law enforcement. His 
father is a law enforcement retired officer from the State of 
Mississippi, and his two brothers currently serve within local 
communities as police officers.
    We will stand with them and we will support them as we bid 
farewell to Josie this weekend, as we recognize yet another 
fallen U.S. Marshals Service hero.
    Our total request for nearly $2.7 billion includes $1.2 
billion for Salaries and Expenses, and $1.5 billion for 
Detention, and $15 million for Construction in Federal 
courthouses nationwide.
    The agency's many accomplishments over the years, as we 
celebrate our 225th anniversary this year, would not have been 
possible without your support, from this subcommittee, in 
particular. In recent years, you have acknowledged and provided 
resources for us to safely guard the Nation's Federal prison 
inmates and detention populations, and you recognized the 
importance of those resources.
    Over the past year, we had worked carefully to assess the 
agency's spending and, where necessary, made improvements and 
reduced costs.
    The U.S. Marshals Service has also benefited from this 
subcommittee's decision to restore our resources in 2014 on 
Salaries and Expenses. This allowed us to fill 200 vacancies of 
Deputy U.S. Marshals, and I thank you for that support.
    I can assure you that we take our fiduciary 
responsibilities very seriously. We have worked diligently 
within the Department of Justice, Office of Management and 
Budget, and, certainly with your staffs, so we could submit a 
reasonable and modest budget that is mindful of our country's 
financial situation.
    In doing so, we have worked proactively to creatively 
address our shortfalls using existing resources to ensure 
officer safety.
    Aside from retaining a small carryover from the detention 
balance, the U.S. Marshals Service worked to ensure a 
significant amount of those detention resources are made 
available to the administration and Congress for other 
purposes. It is my ongoing focus to ensure that we are as 
efficient and effective as we can within the dollars that are 
given to us.
    Our priority is to take transformational steps into making 
the Marshals Service a data-driven agency that uses data to 
drive strategic and tactical business decisions. Ultimately, 
this is helping us present a performance-based budget to 
showcase how we are managing our resources appropriated from 
Congress.
    The 2016 budget that you have in front of you provides 
necessary resources to maintain and enhance the critical USMS 
functions that you have spoken about today: arresting the 
violent fugitives, protecting our children, and reducing crime 
in our communities.
    Ensuring safeguards for protective operations for the 
Federal Judiciary is still a paramount concern for the Marshals 
Service, as we see more violence on our Federal courthouses and 
our Federal Judiciary.
    We saw it in Wheeling, West Virginia. We saw it most 
recently on a judge's home in Florida who was shot in the 
middle of the night, the judge just barely escaping injury to 
himself and his family.
    The violence is happening in the courthouses, the shooting 
in Utah. You have seen them play across the media, and you can 
see the violent criminals that are introduced into the Federal 
court system nowadays pose a great risk to our judiciary.
    The 2016 budget maintains these missions as well as 
increases our enforcement efforts for law enforcement, as we 
provide safety to our officers, as we try to work and ensure 
that we can meet the requirements under the Adam Walsh Child 
Protection and Safety Act.
    The National Center for Missing and Exploited Children 
estimates over 769,000 sex offenders live in the United States, 
of which I am proud to say that we apprehended close to 12,000 
annually, brought them into compliance, because over 100,000 of 
those 769,000 are not in compliance with the registry 
requirements.
    Officer safety will always remain as my top priority in 
this agency, as we have lost too many. And every effort is made 
to ensure that personnel are adequately trained and equipped.
    Annually, our deputies along with our partners here at the 
table, my colleagues, as Director Comey stated earlier, work 
collectively together. We, the Marshals Service, apprehend and 
clear warrants of more than 105,000 violent fugitives a year. 
Deputy Marshals risk their lives everyday investigating, 
apprehending, and pursuing those who flee from justice, that 
are wanted.
    Accordingly, therefore, we are requesting $1.5 million for 
law enforcement safety training, so we may keep that effort.
    The subcommittee has recognized the urgent need to contain 
proliferation of gangs across our country. Criminal gang 
activity has a severe impact across law enforcement because of 
the rising prevalence and high level of violence. Gangs are no 
longer isolated to motorcycle gangs and violent urban street 
gangs. They now exist across the country, in urban, suburban, 
and rural communities--socially and economically depressed 
communities. Nearly 1 million members are criminally active in 
the United States. This is something that we all want to 
address.
    Our 2016 budget request has an increase of $5.2 million for 
a total of $15 million for Federal courthouses, as I spoke 
earlier of the situations that we face, to ensure that we can 
mitigate security risks to the public that attend those 
courthouses and the judiciary.
    Mr. Chairman, Ranking Member Mikulski, and members of the 
subcommittee, I do request your support to fully fund the 2016 
budget request in order to support the men and women of the 
United States Marshals Service, that you recognized earlier, to 
carry out the protection and enforcement efforts of our 
judicial process. We have proven ourselves as a valuable asset 
to our communities, ensuring public safety and protecting our 
children.
    Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Stacia A. Hylton
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee:

    Good morning and thank you for the opportunity to testify on behalf 
of the President's fiscal year 2016 budget request for the United 
States Marshals Service (USMS or Agency). Our total request for nearly 
$2.7 billion includes $1.2 billion for Salaries and Expenses; $1.5 
billion for Detention; and $15 million for Construction.
    This year the USMS is proud to celebrate its 225th anniversary. For 
over two centuries, the USMS has succeeded in protecting America's 
citizens, upholding the Nation's Constitution, and anticipating the 
challenges that lie ahead. The Agency's many accomplishments over the 
years would not have been possible without the support from this 
subcommittee, so thank you. Likewise, the Agency's continued success 
will depend on our ability to provide the appropriate resources to 
support the judicial process. Incidents such as the shooting outside 
the Wheeling, West Virginia Federal courthouse on October 9, 2013, 
remind us that the USMS must always be vigilant in protecting members 
of the Federal judiciary. Thomas Piccard was armed with an assault 
rifle and a Glock 9mm handgun when he fired 23 rounds at the Federal 
courthouse. Deputy Marshals, USMS court security officers (CSO) and 
local police responded and returned fire. Piccard was later pronounced 
dead at a local hospital. In the exchange, two of the CSOs suffered 
non-life threatening wounds. No one inside the building was injured 
during the incident.
    In recent years, this subcommittee has also acknowledged the need 
for additional resources to safely guard the Nation's Federal prison 
inmate and detention populations. While detention falls under 
``discretionary'' resources, you recognized that there is nothing 
discretionary in a judicial order to detain an individual before trial. 
Over the past year we have worked to carefully assess agency spending 
and, where necessary, make improvements to reduce costs.
    The USMS has also benefited from this subcommittee's decision to 
restore resources to the Agency's Salaries and Expenses appropriation. 
As a result, we were able to re-ignite our hiring process starting in 
fiscal year 2014 and will add nearly 200 new Deputies by the end of 
fiscal year 2015. This will allow us to keep pace with retirements and 
attrition. Lifting the hiring freeze has also enabled us to hire 
additional business professionals, including much needed administrative 
officers, financial analysts, and contract specialists.
    The USMS remains committed to its many diverse mission areas, 
including work with Federal, State, and local law enforcement partners 
to reduce violent crime in our neighborhoods. This includes arresting 
gang members and sexual predators who perpetrate some of the most 
egregious crimes against society. Thank you for acknowledging our work 
alongside our Department of Justice (DOJ) colleagues at the Federal 
Bureau of Investigation; Drug Enforcement Administration; Bureau of 
Alcohol, Tobacco, Firearms and Explosives; Bureau of Prisons; and U.S. 
Attorneys' Offices.
    I can assure you that as a DOJ component, the USMS takes its 
fiduciary responsibilities very seriously. We have worked diligently 
with DOJ and the Office of Management and Budget (OMB) to present a 
reasonable budget that is mindful of the country's financial situation. 
We also work proactively and creatively to address shortfalls using 
existing resources. For example, with the subcommittee's support, we 
reprogrammed $52 million from the Detention account over the last two 
fiscal years to avoid furloughing employees in several DOJ components, 
including the USMS. Aside from a small carryover balance equivalent to 
one week's worth of prisoner housing, the USMS has worked to ensure 
that Detention resources were made available to the administration and 
Congress for other purposes.
    It is my ongoing focus and priority to take transformational steps 
that are making the USMS a data-driven Agency that uses data to drive 
strategic and tactical business decisions. Ultimately, this is helping 
us present a performance-based budget to showcase how we are managing 
the resources appropriated by this subcommittee.
                   fiscal year 2016 program increases
    The fiscal year 2016 budget request provides the necessary 
resources to maintain and enhance core USMS functions. The USMS 
safeguards the Federal judicial process by: protecting Federal judges, 
prosecutors, and court personnel; providing physical security in 
courthouses; protecting witnesses; transporting and producing prisoners 
for trial; executing court orders and arrest warrants; apprehending 
fugitives; and managing and disposing seized property. The fiscal year 
2016 request supports these missions by maintaining funding for core 
activities, as well as increasing funding to enforce the Adam Walsh 
Child Protection and Safety Act, establish annual Law Enforcement 
Safety Training, and renovate courthouses to remediate security 
deficiencies.
         adam walsh child protection and safety act enforcement
    The USMS requests $4.7 million for non-personnel costs associated 
with training, operations, and licensing fees to enhance the Agency's 
current level of sex offender enforcement. The National Center for 
Missing and Exploited Children estimates that there are approximately 
769,000 sex offenders living in the United States. Approximately 
100,000 of those offenders are non-compliant with their requirement to 
register. In fiscal year 2014, the USMS arrested 4,470 failure-to-
register/noncompliant sex offender fugitives.
    One case in particular highlights the depravity associated with 
this type of criminal element. In September 2013, the USMS arrested 
Clyde Hall, Jr., a career sex offender who was on the USMS' list of 
``15 Most Wanted'' fugitives. Wanted for violating conditions of 
release and failure to register as a sex offender, Mr. Hall had been on 
the run since March 2012 and was the first person added to the USMS 
``15 Most Wanted'' list for violating the Adam Walsh Child Protection 
and Safety Act. He had a violent and abusive criminal history dating 
back to 1985, with prior convictions for assault and multiple sex 
offenses. He admitted to sexually abusing two 10-year-old girls and 
raping two adult women. Mr. Hall was also diagnosed as a sociopathic 
career sex offender, prompting the State of New York to label him a 
Tier III sex offender--New York's most dangerous sex offender 
classification. By coordinating investigative efforts through the USMS 
Sex Offender Investigations Branch and the National Sex Offender 
Targeting Center, the USMS apprehended Mr. Hall on the street in 
Portland, Maine without incident. His arrest is a prime example of USMS 
efforts to ensure the safety of innocent children, and law-abiding 
citizens.
                    law enforcement safety training
    Officer safety training is one of the highest priorities for the 
USMS and every effort is made to ensure that personnel are adequately 
trained and equipped. In fiscal year 2014, Deputy Marshals, working 
alongside Federal, State, and local partners apprehended or cleared 
warrants on more than 105,000 Federal and State fugitives. Deputy 
Marshals risk their lives every day investigating and apprehending the 
most violent fugitives in the Nation and around the world. Accordingly, 
we are requesting $1.5 million for Law Enforcement Safety Training.
    Following the deaths of two Deputy Marshals and seven task force 
officers in fiscal year 2011, the USMS established the Law Enforcement 
Safety Training program to specifically address high-risk fugitive 
apprehension. The Agency developed an intensive and comprehensive 
curriculum in advanced tactics, operational planning, communications, 
and trauma medicine. To date, the USMS has trained over 1,000 Deputy 
Marshals across the country under this program.
    While we have trained many, we need to train all. We are seeking to 
hold a minimum of 12 regional courses a year, which would allow us to 
train all 4,500 Deputy Marshals on staff. I cannot tell you how many 
times Deputy Marshals have expressed their gratitude for the high 
quality training that has been provided.
    It is important to continue the momentum and provide safety 
training to all Deputy Marshals. One case highlights the dangers faced 
by law enforcement every day and reminds us that we must consistently 
train our personnel to increase our tactical advantage. On September 
12, 2014, a sniper opened fire at a Pennsylvania State Police barracks, 
murdering Trooper Bryon Dickson II and critically injuring Trooper Alex 
Douglass. The ensuing police manhunt for the suspect, Eric Frein, 
included 400 Federal, State, and local law enforcement officers from 
Pennsylvania, New York, and New Jersey. This case had the potential for 
extreme violence given that Frein was an accomplished survivalist, 
outdoorsman, and marksman. Forty-eight days later, on October 30, 2014, 
the USMS captured Mr. Frein in an open field without incident.
                            gang enforcement
    This subcommittee has recognized the urgent need to contain the 
proliferation of gangs. Criminal gang activity has a severe impact 
across law enforcement because of its rising prevalence and high level 
of violence. Gangs are no longer isolated to motorcycle groups and 
violent urban street gangs. They now exist across the country in urban, 
suburban, and rural communities, with nearly one million members who 
are criminally active in the United States.
    As the leader in apprehending the worst of the worst criminals, the 
USMS arrests approximately 300 fugitives per day. Between August 2010 
and September 2014, the USMS conducted Operation Triple Beam, a 
nationwide gang enforcement initiative in 22 cities, which resulted in 
more than 4,200 arrests, the seizure of more than $3 million in 
narcotics, $1 million in U.S. currency, and over 900 illegal firearms.
    Another example of USMS' efforts to combat gangs occurred last 
October 2014, when the USMS Gulf Coast Regional Fugitive Task Force 
arrested Christopher Green, a violent Crips street gang member in 
Greenville, Mississippi. He had outstanding violent felony arrest 
warrants for homicides in both the Greenville Police Department and the 
Las Vegas Metro Police Department. Although Green was a member of the 
Crips street gang in Pomona, California, he traveled around the country 
as their hit man. Cultivating critical information from confidential 
sources and using surveillance techniques, Deputy Marshals executed the 
arrest warrants and captured Green outside his residence without 
incident. The USMS will continue to vigorously pursue and arrest all 
violent felony fugitives, including gang members who threaten our 
communities.
                         courthouse renovation
    The fiscal year 2016 budget requests an increase of $5.2 million 
for a total of $15 million to renovate courthouses and court facilities 
with the most severe security deficiencies. The USMS occupies space in 
over 400 courthouse facilities. This space includes vehicle sally 
ports, cellblocks, prisoner interview rooms, secure corridors, prisoner 
elevators, and holding cells adjacent to the courtrooms. Construction 
projects are prioritized to address immediate life and safety issues 
first. The USMS supports the requested funding level and appreciates 
the incremental approach to this funding need.
                               detention
    The fiscal year 2016 budget requests a total of $1.5 billion to 
support the Federal Prisoner Detention (FPD) Program. This request 
includes base restoration of $1.1 billion. As part of the fiscal year 
2015 appropriated budget, FPD's base was reduced by $1.1 billion and 
the same amount was reprogrammed from the Asset Forfeiture Fund. 
Additionally, as part of the fiscal year 2016 request, $69.5 million of 
the carryover projected to be earned during fiscal year 2015 is 
targeted for rescission.
    The requested funding will support an average daily detention 
population (ADP) of 56,823 given a projected average per diem rate of 
$80.60. The projected population reflects an 8 percent decrease from 
the peak average annual detention population of 61,721 attained during 
fiscal year 2011. The reduction in the number of prisoners received by 
the USMS during fiscal year 2014 was unprecedented after an increase 
the previous 20 years. The decrease in the ADP is attributable to 
several factors, including systemic efficiencies that have reduced the 
amount of time prisoners are housed by the USMS. Reductions in 
detention time are the result of continued fast-tracking of 
prosecutions--primarily for immigration offenses along the southwest 
border--and expedited transfers of sentenced prisoners to the Bureau of 
Prisons.
    At this time, the USMS expects that the number of prisoners 
received into our custody will increase in fiscal year 2015 and fiscal 
year 2016 resulting in a modest increase in the ADP. The USMS will 
continue to keep the subcommittee apprised of any changes.
                          adjustments to base
    The base adjustments reflect an increase for pay and benefits, the 
relocation of USMS Headquarters, operations and maintenance for legacy 
radio equipment, and Department of State charges for overseas staff. I 
would like to thank the Senate Committee on Environment and Public 
Works for its support in allowing us to move to a new Headquarters 
facility just two blocks from our current location. The move will 
reduce USMS' footprint by 41,000 square feet, or 10 percent, and save 
$9 million in rent annually for a total of $145 million in savings over 
the 15-year lease.
                               conclusion
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, on behalf of the men and women of the United States 
Marshals Service, thank you for your ongoing support of the Agency's 
programs. I am committed to ensuring that we are efficient stewards of 
the resources you have entrusted to us. I look forward to working with 
you to ensure we meet critical safety and security needs protecting the 
judicial family and process, securing Federal courthouses, protecting 
witnesses, transporting and producing prisoners, executing court 
orders, apprehending fugitives, and managing seized property.

    Senator Shelby. Ms. Leonhart.

                    DRUG ENFORCEMENT ADMINISTRATION

STATEMENT OF HON. MICHELE M. LEONHART, ADMINISTRATOR
    Ms. Leonhart. Good morning, Chairman Shelby, Ranking Member 
Mikulski, and members of the subcommittee.
    I want to start by thanking Ranking Member Mikulski for her 
many years of leadership and dedicated service to our country. 
You have been a trailblazer for women in the Senate, and I am 
especially thankful for your support of the DEA museum 
traveling exhibit that went to the Maryland Science Center in 
Baltimore last year.
    Over 350,000 people visited the exhibit during the 7-month 
run, and they learned not just about law enforcement but also 
the science behind drugs, addiction, and recovery.
    DEA is in mourning this morning after hearing the news of 
Deputy Josie Wells, and we offer all our assistance to Director 
Hylton.
    The support of this subcommittee has led to the arrest of 
many violent drug traffickers. This is exemplified by the 
recent arrests of Servando Gomez-Martinez, also known as ``La 
Tuta,'' and Omar Trevino Morales. These arrests are another win 
for Mexico in the fight against brutal criminal cartels like 
the Knights Templar and Los Zetas, and these arrests, along 
with last year's capture of Joaquin ``El Chapo'' Guzman, signal 
major steps forward in our shared fight against drug 
trafficking and violence.
    Since the Department of Justice began coordinated efforts 
targeting the most wanted drug traffickers, known as 
Consolidated Priority Organization Targets (CPOTs), back in 
2003, there have been 183 identified around the world. 
Cumulatively, over three-quarters have been indicted in the 
United States, over half have been arrested here or abroad, and 
one-third have been extradited to the United States to face 
justice.
    In fiscal year 2014 alone, we saw several successes against 
CPOTs, including seven who were extradited to the United 
States, one surrendered to the United States authorities, and 
six more who were arrested and are in custody outside of the 
United States.
    Historically, the image of organized crime in the United 
States was of hierarchal organizations, exerting influence over 
criminal activities at the local levels with cells of loosely 
affiliated groups. That still remains true today. However, 
these organizations now have direct connections to Mexican drug 
trafficking organizations to distribute heroin, 
methamphetamine, cocaine, marijuana, and other drugs throughout 
the country.
    This is the new face of organized crime. The violence 
perpetrated by these groups harms communities across the United 
States. And DEA is uniquely positioned to target and dismantle 
the local distribution cells and the international drug 
trafficking organizations with whom they conspire.
    Of notable concern is the alarming level of heroin use and 
abuse in this country and increases in heroin-related deaths. 
After years of declining use, the availability and abuse of 
heroin is now increasing, especially among younger Americans. 
This is due in part to the increased production of heroin in 
Mexico, even as Colombian production has declined.
    In 2013, 8,257 people died of a heroin overdose, nearly 
tripling since 2010.
    A contributing factor to increasing demand for heroin is 
prescription opioid abuse. Prescription drug abuse is a 
nationwide epidemic. Overall, 43,982 people have died of a drug 
overdose in the United States since 2003, more than half of 
which involved prescription drugs.
    These deaths represent not just a statistic, but they are 
our family members, our friends, our neighbors, and our 
colleagues.
    If we look at the operational successes we are having 
today, coupled with the decline in overall drug use, there is 
reason for optimism. Since its high point in 1979, the overall 
rate of illicit drug use in America has dropped by over 30 
percent.
    By taking harmful drugs off the street, dismantling major 
drug organizations, and seizing their profits, we are making 
our Nation a safer place to live and to do business, and the 
support of this subcommittee is critical to our success.
    So I look forward to working with you, and will be happy to 
answer any of your questions. Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Michele M. Leonhart
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee:

    Good morning, and thank you for inviting me to testify on behalf of 
the Drug Enforcement Administration (DEA) regarding the President's 
fiscal year 2016 budget request. DEA is an organization of more than 
9,000 employees dedicated to the vital mission of disrupting and 
dismantling those drug trafficking organizations posing the greatest 
threat to the United States. I would like to express our collective 
appreciation for the support that this subcommittee has shown to us 
over the years. Furthermore, I welcome the opportunity to continue our 
partnership and to share with you DEA's recent accomplishments and our 
future plans to help secure our Nation and protect our citizens.
    DEA is the Federal law enforcement leader in combating complex and 
sophisticated drug trafficking and transnational criminal organizations 
worldwide. As an example, DEA investigations conducted in partnership 
with Federal, State, local, and international counterparts have 
contributed to the arrest of major international criminals. The recent 
arrests of Servando Gomez-Martinez, a.k.a. ``La Tuta'' and Omar Trevino 
Morales are another win for Mexico in the fight against brutal criminal 
cartels. The arrests strike at the heart of the leadership structure of 
the Knights Templar and the Zetas and serve as yet another warning that 
no criminal is immune from arrest and prosecution. Their capture, along 
with last year's capture of Joaquin ``El Chapo'' Guzman Loera, the 
leader of the violent Sinaloa Cartel, signal major steps forward in our 
shared fight against drug trafficking and violence.
    Whether countering the threat posed by drug cartels in Mexico; drug 
financiers and facilitators in Europe; transshipment and distribution 
coordinators based in west Africa; insurgency groups operating in 
southwest Asia; or domestic distribution cells operating in cities 
across the United States; DEA works to build relationships with our law 
enforcement partners to develop strategies, analyze intelligence, and 
execute successful counternarcotics programs to bring violators to 
justice and protect the American people.
    We also appreciate Congress' efforts to protect the public from the 
dangers of designer synthetic drugs. These drugs are one of the most 
rapidly evolving challenges we face. In response to this growing 
threat, DEA has coordinated a series of law enforcement actions 
designed to disrupt the international production and domestic 
distribution of synthetic designer drugs. This past May, the second 
phase of Project Synergy, which involved more than 45 DEA offices, 
resulted in the serving of nearly 200 search warrants, arrest of more 
than 150 individuals, and seizure of hundreds of thousands of 
individually packaged, ready-to-sell synthetic drugs by Federal, State, 
and local law enforcement authorities, as well as hundreds of kilograms 
of raw synthetic products to make thousands more, along with more than 
$20 million in cash and assets. In addition to targeting retailers, 
wholesalers, and manufacturers, many of these investigations continued 
to uncover the massive flow of drug-related proceeds to countries in 
the Middle East, including Yemen, Jordan, Syria, Lebanon, and others.
    DEA targets the world's biggest, most powerful and ``Most Wanted'' 
drug traffickers, designated as Consolidated Priority Organization 
Targets (CPOTs), as well as other Priority Target Organizations (PTOs). 
These designations are given to drug trafficking organizations with an 
identified hierarchy engaged in the highest levels of drug trafficking 
and drug money laundering with significant international, national, 
regional, or local impact. There have been 183 CPOTs identified since 
the Department of Justice started tracking them in fiscal year 2003. 
Cumulatively, 140 (77 percent) have been indicted in the United States, 
107 (58 percent) have been arrested here and abroad, and 61 (33 
percent) have been extradited to the United States to face justice. 
fiscal year 2014 saw several successes against CPOTs--including seven 
who were extradited to the United States; one who surrendered to United 
States authorities; and six more who were arrested and are in custody 
outside of the United States.
    The most significant drug trafficking organizations today are the 
dangerous and highly sophisticated Mexican Transnational Criminal 
Organizations (TCOs) that perpetrate violence along the Southwest 
Border. Mexican TCOs continue to be the principal suppliers of heroin, 
methamphetamine, cocaine, and marijuana to the United States. 
Domestically, distribution cells have become an increasing threat to 
the safety and security of our communities by forging alliances with 
Mexican TCOs.
    Historically, the image of organized crime in the United States has 
been hierarchical organizations exerting influence over criminal 
activities at the local level with gangs of loosely affiliated groups 
exerting influence over criminal activities in neighborhoods, cities, 
or States. This remains true today; however, many of these 
organizations now have direct connections to Mexican TCOs to distribute 
heroin and other drugs throughout the country. In particular, the 
majority of the methamphetamine in the United States is produced in 
Mexico and much of it is distributed as a result of these affiliations. 
It is a symbiotic criminal relationship--the Mexican TCOs have the 
transportation infrastructure in place to deliver the drugs to domestic 
distribution cells which have established and tested distribution 
networks. This is the new face of organized crime.
    The threat of these organizations is magnified by the high level of 
violence associated with their attempts to control and expand drug 
distribution operations. They often engage in armed home invasions of 
rival drug storage locations to steal drugs or money with innocent and 
hardworking citizens caught in the crossfire. The crime and violence 
perpetrated by these groups harm communities across the United States. 
DEA is uniquely positioned to target and dismantle the local 
distribution cells and the international drug trafficking organizations 
with whom they conspire.
    In addition, the distribution cells and the Mexican and South 
American traffickers who supply them are the main sources of heroin in 
the United States today. Heroin use in this country has reached 
alarming levels and many localities are reporting increases in heroin 
related deaths. A contributing factor to increasing demand for heroin 
is prescription opioid abuse. Prescription drug abuse is the Nation's 
fastest-growing drug problem. Recently, the Centers for Disease Control 
and Prevention reported that 43,982 people died of a drug overdose in 
the United States in 2013, the most recent year for which information 
is available. Nearly 52 percent of those drug overdose deaths (22,767) 
involved prescription drugs. Of those deaths, 71 percent (16,235) 
involved an opioid analgesic, also known as prescription painkillers. 
The report also reflected significant increases in heroin related 
deaths--8,257 people died of a heroin overdose in 2013, nearly tripling 
since 2010. These deaths represent not just a statistic, but our family 
members, friends, neighbors, and colleagues.
    The annual economic cost of nonmedical use of prescription opioids 
in the United States was estimated at more than $55 billion in 2007. 
The number of drug overdose deaths, particularly from controlled 
prescription drugs, has grown significantly in the past decade and in 
2012 surpassed motor vehicle crashes as the leading cause of injury 
death in the United States. The Drug Enforcement Administration remains 
committed to preventing, detecting, and deterring the diversion of 
pharmaceutical controlled substances that supply drug addiction and 
abuse.
    DEA's Diversion Control Program is using all criminal and 
regulatory tools possible to identify, target, disrupt, and dismantle 
individuals and organizations responsible for the illicit manufacture 
and distribution of pharmaceutical controlled substances in violation 
of the CSA. The deployment of Tactical Diversion Squads (TDS) is DEA's 
primary method of criminal law enforcement in the Diversion Control 
Program. The recent expansion of the TDS program has resulted in 66 
operational TDSs throughout the United States, covering 41 States, 
Puerto Rico, and the District of Columbia. These TDSs incorporate the 
enforcement, investigative, and regulatory skill sets of DEA Special 
Agents, Diversion Investigators, other Federal law enforcement, and 
State and local Task Force Officers. The expansion of the TDS groups 
has enabled the Diversion Groups to concentrate on the regulatory 
aspects of the Diversion Control Program.
                    fiscal year 2016 budget request
    The fiscal year 2016 President's Budget request will provide DEA 
with the resources needed to build upon our successes and to continue 
to address these emerging threats. The budget requests $2.092 billion 
for the DEA's Salaries and Expenses Account, an increase of 2.9 percent 
over fiscal year 2015. In fiscal year 2016, DEA expects to face an 
estimated $49.8 million in increased costs to maintain current 
operations. In addition, the budget requests $371.5 million for the 
Diversion Control Fee Account (DCFA), which is necessary to cover the 
cost of operating DEA's Diversion Control Program. The amount requested 
represents a $31.7 million increase over DEA's fiscal year 2015 funded 
operations, primarily due to the restoration of fiscal year 2015 
sequestration in fiscal year 2016. These resources will allow DEA to 
continue targeting significant drug trafficking organizations, 
consistent with the Department of Justice's Smart on Crime Initiative.
    In addition, DEA is requesting enhancements in the areas of 
International Drug Enforcement Priorities ($12.0M); De-confliction and 
Information Sharing ($7.4M); and National Security ($4.5M). The 
requested enhancements provide DEA with the tools necessary to lead and 
assist our Federal, State, local and international partners in 
targeting the most significant drug trafficking organizations.
    Let me summarize the DEA efforts that will be supported with this 
enhanced funding.
                     international drug enforcement
    Transnational Criminal Organizations are a growing threat to U.S. 
national security. Their operations fuel corruption, destabilize 
governments, and undermine the rule of law, and are overwhelmingly 
funded by profits from drug trafficking. Over the last 40 years, DEA 
has developed effective programs for combating these organizations and 
has seen significant results.
    While we continue to target Mexican and South American TCOs in the 
traditional drug trafficking corridors, we are increasingly seeing them 
expand their footprint in Africa, which affects the U.S. both directly 
and indirectly. Africa is a key storage and transshipment location for 
South American cocaine destined for distribution in Europe and 
elsewhere. These organizations are partnering with local criminal 
groups for logistical support and using drug-related profits to further 
their illegal activities in the U.S., Africa and Europe. DEA's 
experience shows that in order to address the threat posed to the U.S. 
by these TCOs, long-term success will depend upon the successful 
implementation and continued development of programs that bolster the 
law enforcement capacities and capabilities of our host nation 
counterparts worldwide. The fiscal year 2016 President's budget 
supports two of these critical international programs: Sensitive 
Investigative Units and Bilateral Investigations Units.
Sensitive Investigative Units
    Funds requested for International Drug Enforcement Priorities will 
be used to support and expand a key element of DEA's international 
efforts: the Sensitive Investigative Unit (SIU) program. DEA's SIU 
program helps build effective and vetted host nation units capable of 
conducting complex investigations targeting major drug trafficking 
organizations. DEA currently mentors and supports 13 SIUs, which are 
staffed by over 800 foreign counterparts. The success of this program 
has unquestionably enhanced DEA's ability to fight drug trafficking on 
a global scale. To maintain this operational momentum, $8.1 million is 
needed to sustain and further develop the capacity and capabilities of 
existing SIUs. This funding will support training, vetting, program 
coordination, judicial wire intercept systems and other IT-related 
requirements.
Bilateral Investigations Units
    Bilateral Investigations Units (BIUs) are one of DEA's most 
important tools for targeting, disrupting, and dismantling significant 
TCOs. The BIUs use extraterritorial authorities to infiltrate, indict, 
arrest, and convict previously ``untouchable'' TCO leaders involved in 
drug trafficking. The fiscal year 2016 President's budget proposes 
enhancing the operational funding for BIUs by $3.9 million and 
expanding their capabilities by establishing a BIU Financial 
Investigative Team (FIT). The BIU-FIT will focus on the investigating 
the financial aspects of these organizations. The proposed increase 
will allow DEA to continue to build on the success we have had in 
targeting, disrupting, and dismantling TCOs as well as denying TCOs 
revenue from illicit drug proceeds before they can be used to fund 
other criminal activities.
                 de-confliction and information sharing
De-Confliction Systems
    The President's fiscal year 2016 budget requests $1.5 million which 
will allow DEA to better leverage our expertise in de-confliction and 
information sharing to promote increased cooperation between our 
Federal, State, and local law enforcement partners. Enhancements will 
allow DEA to increase its capability to coordinate many of the 
Department's violent crime and international organized crime 
investigations. These systems are such an integral component of the 
Department of Justice's (DOJ) de-confliction efforts that in May 2014, 
the Deputy Attorney General specifically directed all DOJ law 
enforcement components to use DEA's systems to de-conflict ongoing 
investigations.
El Paso Intelligence Center
    The El Paso Intelligence Center (EPIC) offers tactical, 
operational, and strategic intelligence support to Federal, State, 
local, tribal, and international law enforcement agencies and provides 
de-confliction services, leveraging databases from both internal and 
external stakeholders. EPIC has relationships with law enforcement 
agencies in all 50 States and partner organizations in the 
international law enforcement community. Included in the President's 
budget request is an additional $5.9 million to increase the 
capabilities of EPIC's information systems, including funds to upgrade 
the existing IT system to a more robust system portal; enhance 
analytical capabilities; and support updates to vital technology 
equipment and compliance with security requirements.
                           national security
    DEA ensures that national security information obtained during the 
execution of our worldwide drug law enforcement mission is 
expeditiously shared with both the national security and intelligence 
communities. DEA's Office of National Security Intelligence (ONSI) 
shares more than 5,000 reports a year that contain information on 
topics of national security interest. The fiscal year 2016 President's 
budget requests funding to support the Defensive Counterintelligence 
Program (DCI-P), which serves as a central coordination point for all 
DEA DCI-P matters, including personnel reliability; physical security; 
safeguarding of both intelligence and law enforcement sensitive sources 
and methods; and general security and counterintelligence threat 
awareness and threat detection. In addition, the fiscal year 2016 
President's budget requests resources for additional reports writers, 
ensuring that DEA will continue to meet its statutory responsibility to 
share national security-related information, and for other national 
security activities.
                               conclusion
    DEA's enforcement efforts have contributed significantly to the 
overall strategy to reduce the availability of drugs in the United 
States. According to an analysis by the Substance Abuse and Mental 
Health Services Administration, illicit drug use rates are lower by 
approximately one-third compared to 30 years ago. Since 2006, we have 
seen important decreases in the number of past month users, aged 12 and 
older of cocaine (from 1.0 percent to 0.6 percent, or roughly a million 
fewer persons). Statistics like these demonstrate that through a 
balanced drug control strategy, one that includes strong enforcement, 
education, prevention, and treatment components, we can make 
significant progress in protecting our Nation from drug abuse and its 
consequences.
    DEA's unique, single mission focus gives us the ability to focus 
resources on disrupting and dismantling the world's ``Most Wanted'' 
drug traffickers that have the most significant impact on the U.S. drug 
market. With your support and the backing of the American people we 
will continue our efforts to address these challenges. I would be 
pleased to answer any questions you may have.

    Senator Shelby. Mr. Jones.

          BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES

STATEMENT OF HON. B. TODD JONES, DIRECTOR
    Mr. Jones. Good morning, Chairman Shelby, Ranking Member 
Mikulski, and members of the subcommittee.
    Thank you for the opportunity to appear before you today 
with my colleagues. This is a great team that I am privileged 
to work with within the Department of Justice. And I think, 
together, we are moving forward to enhance public safety around 
the country on behalf of the citizens that we serve.
    I am also pleased to be here to discuss the President's 
fiscal year 2016 budget request for ATF.
    ATF's principal mission is to protect our communities from 
violent criminals who illegally possess and use firearms, use 
explosives for illicit purposes, and engage in deadly acts of 
arson. We accomplish our mission through partnerships and 
through the enforcement of the criminal law and regulations of 
the firearms and explosives industry.
    This makes us somewhat unique among U.S. law enforcement, 
and we have a long history of maintaining working 
relationships, not only with our Federal partners, but with our 
State and local partners. And we put a premium on those 
partnerships.
    The public safety agencies, the industry groups, and the 
community organizations that we work with are vital to us being 
able to accomplish our mission. When serious violent crime 
happens at communities across the country, ATF is there working 
side by side with our partners.
    In the past 3 years alone, ATF has been at the frontline 
against crime, helping our partners investigate the Boston 
Marathon bombing, the horrific mass shootings in Aurora, 
Colorado, and Newtown, Connecticut, and the Washington Navy 
Yard, as well as assisting in thousands of other investigations 
that have simply not made the national news.
    ATF's work with its partners is producing tangible results 
in communities across the country. But our discussion today, I 
hope, leads to some help for you all in sustaining the results 
that we have accomplished in various places around the country.
    For example, we recently completed an enhanced enforcement 
operation and initiative in New Haven and Bridgeport, 
Connecticut, and in Chicago, Illinois. And in both 
circumstances, we have made an impact working with our State 
and local colleagues on diminishing and lowering violent crime 
in those communities.
    We accomplished this not only through manpower and strong 
partnerships, but by also leveraging our technology resources, 
such as NIBIN, the National Integrated Ballistics Information 
Network. This technology compares high-resolution images of 
cartridge cases, and the Senator alluded to it earlier, 
recovered from multiple crime scenes, and compares and 
contrasts in our follow-the-gun strategy to identify the worst 
of the worst offenders in communities.
    This technology has been integrated with eTrace, and we 
are, in certain communities around the country, test-driving 
crime gun intelligence centers. That is showing very promising 
results.
    ATF's contributions to public safety extend beyond these 
operational successes, though. As Director Comey mentioned, 
TEDAC is in Huntsville. We also have our National Center for 
Explosives Training and Research there, established through the 
support of the chairman and members of this subcommittee, and 
it's performing important work.
    By the end of fiscal year 2016, the National Center For 
Explosives Training And Research (NCETR) will significantly 
increase its staffing by 30 percent and work on increasing fire 
and arson investigations, in addition to explosives research.
    Because we have gotten healthier as an organization over 
the last several years, we will offer several courses that 
haven't been offered, because training is usually the first 
thing to go when you have tough budget times, unfortunately.
    In addition, we will be bringing our U.S. Bomb Data Center 
from ATF here in Washington, DC, and putting it in the NCETR 
facility in an effort to make sure that we are not only fully 
integrating our capacity, but collaborating at the highest 
possible levels with the FBI's Terrorist Explosive Device 
Analytical Center that is down there in NCETR.
    Another important ATF asset, our Fire Research Lab in 
Ammendale, Maryland, is currently involved in the research of 
several high-profile fire incidents. I want to thank this 
subcommittee for the support that our lab has. Surprisingly to 
me, I have learned that across the country our arson research 
capacity is something that is a great treasure to Federal law 
enforcement. We have worked on several significant arson 
investigations with State and local law enforcement trying to 
figure out what happened.
    We are performing tests recently on the West Texas 
fertilizer plant that killed 15 first responders and injured 
160. We are currently looking at the horrific fire that 
happened several months ago in Annapolis that killed a 
grandmother, a grandfather, and their grandchildren, trying to 
determine some of the issues with Christmas trees.
    This kind of research is taken care of very quietly, but 
will be very helpful to public safety across-the-board.
    To support this important work, and I look forward to 
discussing it further, ATF's 2016 budget request totals $1.26 
billion, including 5,100 permanent positions, nearly half of 
which are special agents.
    This request includes a $52 million increase in base 
resources that really is focused, as Director Comey mentioned, 
on our human capital. ATF has a very experienced special agent 
workforce. Within the next 3 years, we will have nearly 35 
percent of that workforce be either mandatory or eligible for 
retirement. We need to do all we can over the next several 
years, including in this budget cycle, to refresh and get new 
agents out there before the senior agents leave.
    I look forward to answering your questions.
    And I do want to maybe set the table here as a preemptive. 
The chairman mentioned in our regulatory effort, a proposal 
that we requested comments on for the last 30 days. That 
comment period will close.
    It involved an exemption for a particular type of 5.56 
round. We have nearly 90,000 comments. We will assess those 
comments. Working with you, and with others, we will see how we 
can really address what was at the genesis of that posting, 
which was an effort to address nearly 30 exemption requests and 
finding a framework for dealing with that.
    With that said, I see the time is over, and I will be happy 
to answer any questions that you have.
    [The statement follows:]
                Prepared Statement of Hon. B. Todd Jones
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for the opportunity to appear before you today. 
I am pleased to be here to discuss the President's fiscal year 2016 
budget request for the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF).
    ATF's principal mission is to protect our communities from serious 
and violent criminals who illegally possess and use firearms, use 
explosives for criminal purposes, and engage in deadly acts of arson. 
We accomplish our mission through both the enforcement of criminal law 
and the regulation of the firearms and explosives industries. ATF has a 
long history of delivering our expertise and capabilities to our 
Federal, State, and local partners. We provide critical resources and 
support to them in the fight against violent crime. We highly value our 
partnerships and strong working relationships with law enforcement, 
public safety agencies, industry groups, and community organizations. 
When violent crime strikes our Nation, ATF is there working side-by-
side with our partners, supporting them with our specialized skills, 
tools, and experience. In the past 3 years alone, ATF has been at the 
frontline fighting against crime and helping our partners investigate 
tragedies such as: the Boston Marathon Bombing; the horrific mass 
shootings in Aurora, Colorado; Newtown, Connecticut; and the Washington 
Navy Yard, as well as assisting in thousands of other less publicized 
investigations.
    Across the country, ATF and our partners pursue the most violent 
criminals, particularly those who engage in organized gang violence or 
illegally supply those gangs with firearms. Recently, ATF completed 
enhanced enforcement initiatives in New Haven/Bridgeport, Connecticut 
and Chicago, Illinois. In total, 350 defendants were accepted for 
prosecution and ATF seized or purchased more than 350 crime guns during 
these operations. In Chicago alone, the approximately 200 charged 
defendants had almost 3,000 prior felony arrests. We accomplished this 
with additional ATF manpower, our partners, and technology such as 
ATF's National Integrated Ballistic Information Network (NIBIN), which 
compares high resolution images of cartridge cases recovered from 
multiple crime scenes to link firearms to multiple shootings. I'm proud 
of what we are able to achieve for the citizens of those communities.
    For ATF to more effectively combat violent crime and better serve 
our partners and our communities, we developed ``Frontline'', a 
business model that prioritizes our resources to those areas and 
programs that will have the greatest impact on fighting violent crime, 
whether that is firearms trafficking, gang, arson/explosive or tobacco 
investigations. We accomplish this, in part, by assessing each ATF 
field division for efficiency and effectiveness and making any 
necessary changes to improve mission performance.
    We partner more closely and effectively than ever with State and 
local law enforcement in fighting violent crime. In many instances 
local law enforcement has experienced significant budget cuts, and the 
violent crime enforcement expertise and training we provide is often 
reported as a key component of their success. In fact, during the last 
year we trained thousands of local law enforcement across ATF's 
jurisdiction of firearms, explosives and arson. Some specific courses 
included Advanced Firearms Trafficking Techniques, Advanced Explosives 
Disposal Techniques, Basic Fire Origin and Cause Determination, 
Accelerant Detection Canine Course, Arson for Prosecutors, and two 
NIBIN-related courses. Programs such as eTrace (a paperless firearms 
trace request submission system and interactive trace analysis module 
that facilitates firearms tracing) and NIBIN provide tools extensively 
used by State and local law enforcement to combat violent firearm 
crimes. Using these programs, ATF traced more than 364,000 crime guns 
last year.
    ATF's Fire Research Lab in Ammendale, Maryland is in the midst of 
several significant research projects on high profile arson/explosive 
incidents with our State and local partners. In February 2015, lab 
personnel performed testing related to the April 17, 2013, explosion 
and fire at the West, Texas, fertilizer plant that killed 15 and 
injured 160. ATF is working with the Texas State Fire Marshal's Office 
to study various hypotheses in an effort to determine the origin and 
cause of the fire and explosion. Further, based on ATF's expertise in 
arson/explosive incidents, ATF supported the investigation of the fire 
that claimed six lives 2 months ago in Annapolis, Maryland. 
Investigators concluded an electrical failure ignited the skirt of the 
family's Christmas tree. We will perform tests in early April to better 
understand the fire dynamics related to Christmas tree fires. This 
information can then be released to our State and local fire 
investigator partners to help them prevent any further loss of life and 
property through similar occurrences.
    ATF's National Center for Explosives Training and Research (NCETR), 
in Huntsville, Alabama--established through the support of the Chairman 
and members of this subcommittee--is also performing important research 
and development to fulfill our explosives enforcement and training 
missions. This year, NCETR will increase their staffing by more than 20 
percent. This will allow ATF to immediately increase fire and arson 
investigation training. We will offer several training classes to 
State, local and Federal investigators and prosecutors that have not 
been offered in a number of years. NCETR is redeveloping these classes 
and once complete we will enroll students in this state-of-the-art 
training.
    Additionally, the NCETR Explosives Research and Development 
Division will hire engineers and support positions to provide much 
needed research and development capabilities for ATF and our partners, 
such as the National Ground Intelligence Center and the National 
Counter Terrorism Center. Lastly, ATF is relocating the U.S. Bomb Data 
Center (USBDC) from ATF Headquarters to the NCETR facility. These 
expansions in ATF's capacity at NCTER will enhance and complement our 
collaboration with our partners at the FBI, which also maintains a 
facility near NCETR. We are gratified by the opportunity to 
reinvigorate our explosives and arson investigation training in 
coordination with our research and development mission at NCETR. We are 
equally gratified by the opportunity to expand collaboration with the 
FBI's Terrorist Explosive Device Analytical Center (TEDAC) on counter 
terrorism matters, advisories, bulletins, and reports about testing and 
research. Enhancing our ability to develop and report best practices to 
the explosives and arson investigation communities are great steps 
forward for NCETR.
                    fiscal year 2016 budget request
    ATF's fiscal year 2016 budget request totals $1.26 billion in 
direct budget authority, including 5,111 permanent positions, nearly 
half of which are ATF Special Agents. This request includes a $52 
million increase for base resources required to support ATF's workforce 
and infrastructure at a critical juncture--between now and fiscal year 
2019 nearly 1,000 of our current 2,500 ATF Special Agents will become 
eligible for retirement. That represents more than one-third of our 
special agents. ATF is taking significant steps in hiring to address 
this attrition bubble, but we require the continued funding level 
support requested in this budget to maintain this effort.
    In addition, ATF's fiscal year 2016 budget includes one program 
enhancement--$8.1 million to continue increasing capacity and reducing 
backlogs at ATF's Martinsburg, West Virginia, facility. This increase 
will allow ATF to add 10 Legal Instrument Examiners as well as 
additional contract support to continue to reduce the backlog in 
processing National Firearms Act (NFA) registrations. The additional 
funding will also improve ATF's firearms tracing operations, a unique 
and vital violent crime fighting asset that is heavily relied upon by 
our State, local and Federal law enforcement partners.
    In this era of tighter budgets, ATF is doing more than ever to 
ensure that taxpayer resources are directed to areas that generate the 
greatest public safety value and return on investment. We do this by 
prioritizing our resources, partnering with our Federal, State and 
local colleagues, and using existing technologies in new and innovative 
ways to fight violent crime.
    Let me give you some additional examples of how ATF has become more 
strategic:
  --The deployment of the Mobile Bomb/Arson Tracking System (BATS) will 
        enable over 10,000 Federal, State and local law enforcement and 
        public safety interagency users to report arson and explosives 
        incidents from the scene of the incident, reducing the average 
        reporting time from 35 days to one day.
  --The National Firearms Act Branch performed many innovative staffing 
        enhancements, including the cross training of existing 
        personnel, with the net effect of a 58 percent reduction in the 
        Branch backlog.
  --The National Tracing Center saved $50-$70 million on the digital 
        conversion of microfilm and microfiche.
  --NIBIN will downsize its server population resulting in cost 
        reductions, improved performance capabilities, and improved 
        efficiencies in communication lines.
  --ATF performed an agency-wide technology refresh, replacing all 
        personal computers and updating operating systems.
  --ATF will reallocate any realized savings to enforcement and 
        industry support operations. If you or your staff would like 
        details on these cost savings that I have highlighted, we will 
        be glad to brief you on them in more detail.
    Mr. Chairman and members of the subcommittee, I want to conclude by 
saying that ATF is proud of its contributions at the frontline fighting 
against violent crime. We are recognized by Federal, State, and local 
law enforcement agencies across the country for our expertise and take 
great pride in our successes that reduce gun violence and remove 
violent offenders from the streets. I am humbled by the exceptional 
work done every day by ATF Special Agents, Investigators, and 
professional support staff combating violent crime. Even in times of 
adversity--which can come often when you are in our line of work--I am 
proud to tell you that the dedicated men and women of ATF have 
continued, day in and day out, working tirelessly to enhance the safety 
of all Americans. They and their families have my deepest gratitude for 
the sacrifices this often difficult work requires and I am honored to 
be here today to represent ATF.

    Senator Shelby. Thank you very much.
    I will direct my first question to you, Mr. Jones.
    On February 13, the ATF released a proposed framework that 
would have eliminated the M855 ``green tip'' ammunition from 
the sporting purposes exemption. This week, ATF abandoned this 
proposal.
    A lot of us are troubled at the ATF's process and intent 
regarding this proposed ban. I have heard from numerous 
constituents who use this ammunition for shooting sports and 
hunting, and they are strongly opposed to the ban, as you know.
    Additionally, it is concerning to a lot of us that the new 
Federal Firearms Regulation Reference Guide published in 
January inexplicably removed M855 ammunition from the exemption 
list for sporting purposes.
    Why did the ATF propose this M855 ban when such ammunition 
has been allowed under the sporting purposes exemption for 
many, many years?

           THE EXEMPT FRAMEWORK FOR ARMOR PIERCING AMMUNITION

    Mr. Jones. Senator, thank you for the question. I think 
it's important for everyone to understand again that the 
genesis of us putting that framework proposal up for public 
comment was our good faith effort to try and construct a 
framework to deal with nearly 30 exemptions that we have had in 
the queue for many, many years at ATF.
    We do have a responsibility to regulate. We can't stick our 
head in the sand with respect to additional exemption requests.
    The M855 exemption has been in place for nearly 30 years. 
It was a classification that ATF made on that particular round.
    I want to make sure everybody understands that this was 
not, contrary to some in the blogosphere, an effort to 
completely ban that certain type of cartridge. It is this one 
particular ``green tip'' that is, in essence, military surplus 
that, under the Law Enforcement Officers Protection Act 
(LEOPA), does qualify as armor-piercing, but has had an 
exemption for 30 years and been in the market and used for 
sporting purposes for the last 30 years.
    Our request for input on a framework was our effort to try 
and get a transparent process where we could act on the nearly 
30 other exemptions that were there, and not look at the 
exemption that was out there on M855.
    I think the reality of this is, we need to deal with the 
pending exemptions. There aren't going to be any new exemptions 
granted until we work our way out through this. The exemption 
for M855 has been there for 30 years and will remain.
    Senator Shelby. And you abandoned it this week, did you 
not?
    Mr. Jones. We are going to take the input in. We are not 
going to move forward without analyzing the nearly 90,000 
comments from all spectrums, with a sense of figuring out how 
we do this rationally, in a common-sense way that, first and 
foremost, for us, protects our law enforcement officers in 
compliance with LEOPA.

              TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER

    Senator Shelby. I will direct this question to the FBI 
Director. You talked about earlier the Terrorist Explosive 
Device Analytical Center we call TEDAC, and so forth, and how 
important it is.
    What is TEDAC's operational and construction status at this 
point? And when will the facility be fully operational? Do you 
know?
    Mr. Comey. I think we are on track, Senator, to open 
sometime late this spring or in summer. I went down there to 
check on its progress, because I am keenly interested in it. 
The building is up. It looks good to me, but there are other 
things that still have to be done for it to be ready.
    We had some delays because our contractor has struggled 
with some of the unique technical requirements we need to deal 
with explosives in that building. But my understanding is we 
are on track for a no later than summer opening.
    Senator Shelby. How is the ATF working cooperatively with 
you, with the FBI, on this? Have they put their good officers 
forward to work with you and cooperate with the FBI, regarding 
TEDAC?
    Mr. Comey. Yes, as they always do. As Director Jones said, 
one of the hallmarks of ATF is they are a great partner in a 
whole host of ways, and they are with TEDAC.

          NATIONAL CENTER FOR EXPLOSIVES TRAINING AND RESEARCH

    Senator Shelby. Director Jones, you referenced NCETR a few 
minutes ago. Where are we exactly on that, as far as staffing 
the program? We call it the National Center for Explosives 
Training and Research. You mentioned this earlier in your 
testimony.
    Mr. Jones. I have had an opportunity on a number of the 
occasions to go to NCETR. It is a wonderful facility for our 
organization, and it's a wonderful asset.
    I think when TEDAC is up and running, and with what we have 
already done at NCETR, and what we plan to do at NCETR, we will 
expand beyond the explosive training and research, focusing 
primarily on homemade IEDs and some of the research there, is 
expand into the fire and arson realm. We have a great lab in 
Ammendale, but we are doing some work down at NCETR and that 
necessitates us moving additional personnel there.
    I think the main thing is that we are finally going to move 
the U.S. Bomb Data Center personnel from Washington down there 
to NCETR, as originally envisioned, and that is going to happen 
this year.
    Senator Shelby. One last question to the FBI director, how 
is the FBI responding to the Army's separation from the 
Hazardous Devices School? They had sent word, as I understand 
it, where they have had a partnership there, and the Army has 
indicated they no longer will provide personnel to the school. 
But I think that is an important operation there.
    Mr. Comey. I agree completely, Mr. Chairman.
    We are working with them to see if there are folks who they 
are no longer going to have there as part of their complement 
that can come work for us, so we don't lose the expertise. Our 
overall commitment is not to lose any capability there.
    In fact, as you know, with the support of this 
subcommittee, we are expanding that training facility, because 
there is such a hunger for advanced bomb tech training.
    Senator Shelby. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, thank you, and I also want 
to compliment you on the fact that we are going to continue the 
tradition of the subcommittee of a classified hearing after 
this, because so much of what we want to do about 
counterterrorism and organized crime are questions better said 
in that. Thank you very much for being able to provide us with 
that opportunity.
    I have, essentially, two questions.

                                 HEROIN

    One, though, I want to raise is about heroin. And I have a 
significant issue in Maryland, and it has been raised by our 
local DEA people, as well as Governor Hogan. And we have heard 
a place like Vermont has declared it the ``state of the State'' 
issue.
    In fiscal year 2015, this subcommittee requested that the 
Department of Justice (DOJ) convene a task force to come up 
with a comprehensive Federal solution of law enforcement health 
care treatment and prevention, not only law enforcement.
    Director Comey, you told me that it had been handed to the 
DEA. Is that right?
    So could you tell me what DEA is doing? And are you the 
task force that I asked for, because we have gotten very little 
feedback about it?
    Ms. Leonhart. Sure, I would be glad to address that.
    The task force you called for was not tasked to DEA, but I 
do know that the department has been looking at it and actually 
has convened some meetings that we have attended to put 
together----
    Senator Mikulski. Is there a Department of Justice task 
force, and I will ask the Attorney General, that you know of 
that has the task force that we asked for?
    Ms. Leonhart. I know that they have had meetings with 
people outside the department and within the department, and 
have gathered----
    Senator Mikulski. Okay, so they didn't do it. And we will 
come back to that.
    Could you tell us, though, what you are doing, Ms. 
Leonhart?
    Ms. Leonhart. Sure. Maryland is a perfect example, when we 
are talking about what it's going to take for our country to 
actually stem the flow of the rising heroin problem.
    As you know, in Maryland, heroin deaths nearly doubled. 
And, in fact, when you look at all overdose deaths in Maryland 
last year, the majority of them were actually heroin overdoses.
    Over the past year, we put together a local task force. We 
have one in Baltimore. We have a similar task force arrangement 
here locally that we are working with our partners.
    But in Baltimore, we became very concerned about why this 
rise in heroin overdoses. We understand why there is more 
heroin coming into our country, and that is because more and 
more of it is coming--it's almost all Western hemisphere, but 
more and more of it is coming from Mexico and is being 
controlled by the same Mexican organizations and trafficking 
groups that we see all across the country who have brought 
cocaine, meth, marijuana to our communities.
    So we started looking at it, and we started to be 
concerned----
    Senator Mikulski. Remember, I have 5 minutes, so could we 
get----
    Ms. Leonhart. Sure. We started to be concerned because 
there was an epidemic of fentanyl-laced heroin that caused 
overdoses, especially in Chicago and Detroit a few years back. 
So we started working with the medical examiner offices, 
coroners, working with county police departments. And we are 
looking at those deaths, and we are finding that a number of 
them are actually fentanyl-laced heroin overdoses.
    So we have efforts going enforcement-wise, public service 
announcements, warning local law enforcement----
    Senator Mikulski. How many of these task forces do you 
have, along with this great work you are doing in the Baltimore 
community?
    [The information follows:]
                               background
    Heroin abuse and availability are increasing, particularly in the 
Eastern United States. As reported in the National Survey on Drug Use 
and Health (NSDUH), between 2008 and 2012, there was a 37 percent 
increase in new heroin users. This demand is driven in part by 
controlled prescription drug (CPD) abusers switching to heroin as it is 
more available and less expensive. As a result, many cities and 
counties across the United States, particularly in the Northeast and 
Midwest, are reporting increased heroin overdose deaths. In addition, a 
rapidly growing amount of heroin is being smuggled into the United 
States on a daily basis.
                            dea task forces
    DEA leads 192 task forces, which are made up of multiple Federal, 
State, and local law enforcement agencies within a specific region. 
They facilitate investigations by enhancing interagency coordination 
and intelligence sharing, leveraging Federal resources, and combining 
DEA expertise with local officers' investigative talents and knowledge 
of their respective jurisdictions. Their mission is to identify, 
disrupt, and dismantle the most serious domestic and international drug 
trafficking and money laundering organizations responsible for the 
Nation's drug supply. Most drug trafficking organizations are multi-
drug in nature; therefore, in general, DEA task forces do not target 
specific drugs.
    The Northeast United States, particularly New England, continues to 
see a steady increase in heroin and opioid abuse and associated 
overdoses. In April 2015, the Department of Justice's Organized Crime 
Drug Enforcement Task Forces (OCDETF) allocated additional funding to 
be used to address the surge of heroin overdoses in the New England 
Region. The funding will be provided to the DEA-led Boston OCDETF 
Strike Force as part of Operation HEAT (Heroin Enforcement Action 
Team). The task force will focus on heroin investigations and respond 
to overdoses in eastern Massachusetts, gathering pertinent information 
to develop a clearer understanding of major heroin traffickers in the 
region. The DEA-led OCDETF Fusion Center will play a key role in 
Operation HEAT by conducting target profiles on intelligence developed 
by investigators. In addition, DEA's Special Operations Division 
GangTECC will support Operation HEAT by providing case coordination, 
telecommunication exploitation, and funding for the interception of 
communication devices.
                       task force success stories
    Maryland.--In February 2014, the Baltimore District Office (BDO) 
created a Task Force to deal with the significant increase in the 
fentanyl-laced heroin overdoses occurring in Maryland. Recently, the 
Chief Medical Examiner and the Maryland Department of Health and Mental 
Hygiene reported 141 fentanyl-related intoxication deaths within the 
State between January and September 2014. For the preceding 7 years, 
the State averaged just 22 fentanyl-related intoxication deaths in the 
same 9-month period. Further, the BDO recently instituted Operation 
Trojan Horse--an operational collaboration between DEA, the High 
Intensity Drug Trafficking Areas (HIDTA) program, and various Maryland 
State and local law enforcement partners, including seven of the most 
afflicted areas of the State. The Task Force is designed to work as a 
data collection clearinghouse that will solicit, process, and analyze 
information from all fatal and non-fatal overdoses occurring in the 
State of Maryland. The data will be shared with HIDTA and the 
respective State and local law enforcement agencies to ensure proper 
deconfliction, coordination, and cooperation.
    Additionally, the BDO will engage with all participants to bolster 
the development of educational and drug awareness programs, viable 
tactics, and all applicable enforcement avenues to mitigate the further 
spread of heroin/fentanyl and other abused opiates.
    Pennsylvania.--In August 2013, the DEA Philadelphia Division 
Intelligence Program was an integral part of the establishment of a 
Pennsylvania statewide Overdose Rapid Response Task Force, in 
conjunction with the Pennsylvania Office of Drug & Alcohol Program, the 
Pennsylvania State Police, the Philadelphia/Camden HIDTA, and the 
Pennsylvania Office of the Attorney General. This information sharing 
task force continues to function as a clearinghouse for drug overdose 
data collection and information sharing with law enforcement, public 
health, treatment, and policymakers throughout Pennsylvania.
    The Philadelphia Division has prioritized heroin investigations 
leading to bulk heroin seizures in Pennsylvania with an estimated value 
of $6.2 million in 2014. Priority Target investigations conducted 
within and outside the Philadelphia Division have resulted in these 
seizures of Mexican drug trafficking organization (DTO)-sourced white 
heroin.
    Florida.--Since July 2013, the West Palm Beach District Office 
(WPBDO) Task Force and the Delray Beach Police Department have 
conducted an investigation into a heroin DTO operated by Gary Moore. 
During the onset of the investigation, 5 heroin/fentanyl mixture 
overdose deaths were reported out of 24 total heroin overdoses in the 
area. Eight of these overdoses have been traced to the Moore DTO. Over 
the last year and a half, DEA and law enforcement partners infiltrated 
the Moore DTO using judicially authorized Federal Title III Intercepts. 
On January 14, 2015, the WPBDO Task Force executed 7 search warrants 
and 17 Federal arrest warrants, resulting in the seizure of 
approximately 3 kilograms of heroin, 7 vehicles, 5 firearms, 
approximately $40,000, and the arrest of 17 members of the Moore DTO.
                     interagency heroin task force
    Additionally, the administration's interagency Heroin Task Force 
held its first meeting in April 2015. This task force is co-chaired by 
U.S. Attorney for the Western District of Pennsylvania David Hickton 
and Office of National Drug Control Policy Deputy Director for State, 
Local and Tribal Affairs Mary Lou Leary, and includes Federal agency 
experts from law enforcement, medicine, public health, and education. 
The task force will take an evidence-based approach to reducing the 
public safety and public health consequences caused by heroin and 
prescription opioids.
                                summary
    Heroin is a growing problem in the United States and is being 
driven by many factors, including an increase in the misuse and abuse 
of prescription psychotherapeutic drugs, increases in heroin purity and 
availability, the decreasing street cost of heroin, expanded Mexican 
DTOs' involvement in the distribution of heroin, and the lack of public 
awareness of the risks of heroin use. In response, DEA has increased 
enforcement and prevention efforts and expanded its coordination with 
government and private sector partners. DEA is well underway in its 
efforts to fully understand the threat and ultimately reduce the abuse 
and availability of heroin and opioids in illicit drug markets in the 
United States.

    Ms. Leonhart. Well, I know the Washington High Intensity 
Drug Trafficking Areas (HIDTA) program is working----
    Senator Mikulski. No, no, no. I am asking DEA, the 
Baltimore efforts, I compliment you on. Okay?
    I am frustrated that DOJ did not do the comprehensive 
thing. Law enforcement is a tool. We have to look at 
prevention, enforcement and interdiction, and then recovery, 
okay?
    Ms. Leonhart. Yes.
    Senator Mikulski. So that is not going on.
    You are doing a great effort. Do you have seven of these? 
Do you have 17 of these efforts? How many do you have?
    Ms. Leonhart. We have the main effort in Baltimore, but we 
also have a couple of different task forces operating and 
coordinating together here in Washington, DC, and then we have 
communities throughout the country where we have replicated 
what Baltimore did.
    The results of what we have done, when we have been able to 
get health folks together, law enforcement----
    Senator Mikulski. Okay.
    I am going to ask you. What are you doing on drugs, 
Director Comey.
    Mr. Comey. In every field office, we are engaged in 
focusing on the complex trafficking organizations, almost all 
the time in partnership with DEA. Our contribution to the 
heroin epidemic has been to work with DEA to try and disrupt 
the traffickers who are bringing it in.
    Now we have not touched the other pieces you talked about.
    Senator Mikulski. And does the Marshals Service have a 
role?
    Ms. Hylton. Our role is primarily dedicated to the regional 
task forces and district task forces on the apprehension of the 
fugitives involved. And so we work collectively with our 
colleagues here, and the States and locals, in apprehending 
drug fugitives.
    Senator Mikulski. Mr. Jones.
    Mr. Jones. Our role really is to look for the worst of 
worst, those that are employing firearms to commit violent 
crime that protect either their organization, or their 
business. The guns are always the driver for us, but that 
obviously leads us to some collaboration with DEA and FBI, and 
State and locals across-the-board.
    Senator Mikulski. Well, my time is up, but I think it says 
we really need a different kind of coordination here.
    First, I want to compliment everybody on what they are 
doing. So it's not a criticism of you.
    And the fact also, working with the State and local 
governments, we had the methodology of task forces, but there 
needs to be, I think, a more organized effort.
    If we have a second round, I will follow up with other 
questions. I appreciate what you are doing. I gained a great 
deal of insight here. Thank you.
    Senator Shelby. Senator Lankford.
    Senator Lankford. Thank you.
    I would like to follow up on what Senator Mikulski was just 
talking about, because that is my same line of questions, as 
well.
    Does it exist currently that this subcommittee can have a 
clear layout of the lanes of responsibility for dealing with 
drug issues? Because in two areas that I can see clearly, 
dealing with gangs and dealing with drugs, which obviously 
there is a tremendous amount of overlap, all four of you have 
lanes of responsibility in those areas.
    Does it exist that there is a clear layout of who has what 
lane?
    Ms. Leonhart. I believe that there are very clear lines. 
For instance, ATF and FBI have their violent crime task forces, 
and our role at DEA is really to identify those trafficking 
organizations, especially Mexican cartels and major Mexican 
organizations that are supplying the gangs, and that is what is 
fueling violence on our streets.
    So we work together in a collaborative way, all knowing 
what our lanes are. And I have been very proud to say, in the 
12 years that I have been in Washington, we have not once run 
into a problem that I had to go to the FBI Director and say we 
were overlapping here. I have not had to go to the director of 
the ATF. We work very well together, and we all know what our 
lanes are.
    Senator Lankford. So with that, I would like to have that 
document just to be able to see, so we get some clarity of who 
has what lane, if that is in there, if that is a task force or 
whatever that may be. I would like to have that so that we can 
get that clear differentiation.
    [The information follows:]
          bureau of alcohol, tobacco, firearms and explosives
    The primary law enforcement mission of the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) is to combat violent crimes 
related to firearms, explosives and arson. These types of violent crime 
investigations, especially those involving firearms, are frequently 
intertwined with drug trafficking, particularly drug dealing by gangs 
and other criminal organizations. Absent a nexus to firearms, 
explosives or arson, however, ATF does not independently investigate 
drug trafficking. ATF's Frontline business model mandates that criminal 
investigations should be strategically focused on the most violent 
crimes and criminals, and specifies that drug trafficking alone is an 
insufficient basis to conduct an ATF investigation. ATF instead focuses 
its resources on individuals and organizations agents who engage in 
armed drug trafficking and engage in violent offenses as a tool of the 
trade. ATF's core statutory jurisdiction is well suited to addressing 
these armed traffickers, particularly title 18 section 924(c) of the 
Gun Control Act, which prohibits the use of firearms and explosives in 
furtherance of drug trafficking crimes.
    The Frontline business model also mandates that ATF coordinate its 
investigations with Federal, State and local law enforcement partners, 
and that mandate is particularly applicable when drug trafficking is 
involved in an investigation. ATF recognizes that the Drug Enforcement 
Administration (DEA) has primary jurisdiction and responsibility for 
enforcement of Federal drug laws, and closely coordinates 
investigations of drug trafficking organizations with DEA, on all 
levels, national, regional and by field division. On a national, 
strategic level, ATF also closely coordinates the investigation of drug 
traffickers and organizations through the Department of Justice's 
Organized Crime Drug Enforcement Task Forces (OCDETF) Program. The 
OCDETF Program, which includes, among other participants, the Drug 
Enforcement Administration, Federal Bureau of Investigation, Bureau of 
Alcohol, Tobacco, Firearms and Explosives, United States Marshals 
Service, Department of Homeland Security and Internal Revenue Service, 
is the Federal Government's primary vehicle for coordinating Federal, 
State and local resources to efficiently combat drug trafficking 
crimes. On both the national and the field division level, ATF also 
works closely with the High Intensity Drug Trafficking Areas (HIDTA) 
Program. Regional HIDTAs provide both resource coordination and 
essential deconfliction services for drug trafficking and related 
violent crime investigations. Finally, ATF works closely with U.S. 
Attorneys and local prosecutors through existing coordinating councils 
to ensure clear lanes of action and responsibility for local drug 
investigations. Moreover, where such coordinating bodies do not already 
exist, ATF's Frontline business model requires ATF Special Agents in 
Charge to work with the U.S. Attorney and other partners to form 
Violent Crime Reduction Partnerships (VCRP), to coordinate all efforts 
to combat violent crime, including drug trafficking.
                    drug enforcement administration
    The Drug Enforcement Administration's (DEA) mission is to enforce 
the controlled substances laws and regulations of the United States and 
bring to the criminal and civil justice system of the United States, or 
any other competent jurisdiction, those organizations and principal 
members of organizations involved in the growing, manufacture, or 
distribution of controlled substances appearing in or destined for 
illicit traffic in the United States; and to recommend and support non-
enforcement programs aimed at reducing the availability of illicit 
controlled substances on the domestic and international markets.
    DEA continues to prioritize its resources to disrupt and dismantle 
the ``most wanted'' drug trafficking and money laundering organizations 
primarily responsible for the Nation's illicit drug supply. This 
includes the Consolidated Organizational Priority Targets (CPTOs) 
identified by the Department of Justice (DOJ), plus other Priority 
Target Organizations (PTOs) identified by DEA. DEA also places a high 
priority on its efforts to prevent drug proceeds from ending up in the 
hands of terrorist organizations.
    To effectively accomplish its drug law enforcement mission, DEA 
works cooperatively with various law enforcement agencies worldwide. 
DEA participates in and contributes to the investigative efforts of 
Federal, State, and local law enforcement through direct partnerships, 
including task forces and information sharing initiatives. These 
collaborative efforts improve the effective coordination of 
investigative activity and deconfliction across agencies. DEA also 
supplies intelligence and information that supports the disruption or 
dismantlement of drug trafficking organizations and leads to numerous 
drug seizures and arrests worldwide. DEA participates in a number of 
Federal interagency efforts, including the Federal Bureau of 
Investigation's Safe Streets and Safe Trails Task Forces, ATF's Violent 
Crime Impact Teams and Project Safe Neighborhoods, the DOJ's Weed and 
Seed Program, and Attorney General's Anti-Gang Coordination Committee. 
The sharing of DEA intelligence and resources has led to many 
successful operations and highly effective drug law enforcement.
    Because of the international nature of drug trafficking, experience 
has shown that strong partnerships with foreign counterparts are vital 
in the drug law enforcement arena. Furthermore, DEA is not authorized 
to operate unilaterally overseas, so cooperation with the U.S. State 
Department, as well as foreign law enforcement agencies is essential to 
the DEA mission. To build and nurture these relationships, DEA has 86 
offices in 67 foreign countries and more than 700 onboard employees 
stationed overseas. DEA's cooperative partnerships with foreign nations 
help them to develop more self-sufficient, effective drug law 
enforcement programs. As part of this effort, DEA conducts training for 
host country police agencies at the DEA training facilities in 
Quantico, Virginia and on-site in the host countries. DEA also works 
with host nation counterparts to stand up and train vetted units of 
foreign law enforcement officers with whom DEA works and shares 
information. In addition, the United States has extradition 
relationships with many nations and DEA makes use of these arrangements 
whenever possible. The agency's worldwide partnerships have led to 
multiple arrests and extraditions of the highest-level drug traffickers 
and money launderers, narcoterrorists, and international arms dealers.
    In addition to Federal and international partnerships, DEA also 
recognizes the need for continued coordination of drug enforcement 
efforts with State and local counterparts across the country. DEA has 
221 domestic offices organized in 21 divisions throughout the United 
States and works closely with State and local partners. Cooperation 
provides advantages to all participating agencies and provides a 
Federal presence in sparsely populated areas where DEA would not 
otherwise be represented. Through the end of the fourth quarter fiscal 
year 2014, DEA led 192 State and local task forces. Moreover, these 
task forces consisted of an on-board strength of 2,235 DEA Special 
Agents and 2,668 State and local task force officers, all of whom are 
deputized with title 21 authority and dedicated full-time to 
investigate major DTOs and address trafficking problems in their local 
communities. Through the end of fiscal year 2014, DEA has trained 
39,932 State and local law enforcement officers. In fiscal year 2013, 
DEA trained 41,004 State and local officers (totals include Clandestine 
Laboratory Certification Training). The number of State and local 
officers trained fluctuates from year-to-year due to the number of 
training sessions conducted in the field. DEA-led task forces act as 
force multipliers by drawing on the expertise of State and local law 
enforcement.
    DEA also provides direct assistance to other law enforcement 
agencies through its State and local law enforcement clandestine 
laboratory training program. At the clandestine lab training facility, 
DEA trains Federal, State, local and foreign law enforcement officials 
on the latest techniques in clandestine laboratory detection, 
enforcement, and safety. In fiscal year 2014, the Clandestine 
Laboratory Training Unit conducted training for a total of 1,484 State 
and local law enforcement officers. This includes State and local 
Clandestine Laboratory Certification Training, Site Safety Training, 
Tactical Training, as well as training conducted for the National Guard 
and the Federal Bureau of Investigation's (FBI) National Improvised 
Explosive Familiarization Training.
                    federal bureau of investigation
    The Federal Bureau of Investigation's (FBI) role in dealing with 
the drug issue revolves around its investigative strategy to target 
criminal organizations rather than specific underlying offenses. 
Transnational Criminal Organizations (TCOs) conduct various criminal 
activities such as drug trafficking, human trafficking, violent crime 
(to include gangs), money laundering, and public corruption. In order 
to meet this threat, the FBI investigates TCOs holistically by 
gathering intelligence on the criminal activities, structure, and 
hierarchy of the organization, and subsequently using a cross-
programmatic investigation to target the TCO.
    The FBI participates in various HIDTAs and OCDETF Strike Forces to 
accomplish this mission. Additionally, the FBI has Hybrid Task Forces 
(HTFs) which are designed to utilize the force multiplier of Federal, 
local and State Task Force Officers (TFOs) in an effort to target TCOs 
cross-programmatically.
                     united states marshals service
    The United States Marshals Service (USMS) is the Federal 
Government's primary agency for conducting fugitive investigations. 
While the USMS is responsible for investigating and apprehending 
individuals wanted for escaping from Federal prison, and for Federal 
parole and probation violations, it has a long and distinguished 
history of providing assistance and expertise to other Federal, State, 
and local law enforcement agencies in support of fugitive 
investigations. In 1988, the USMS signed a Memorandum of Understanding 
(MOU) with the Drug Enforcement Administration (DEA) delegating 
apprehension authority to the USMS if DEA does not apprehend the 
fugitive within 7 days of issuing an arrest warrant. Drug-related 
offenses represent the highest percentages of USMS fugitive arrests. 
From fiscal year 2012-2014, 30 percent of the fugitives arrested were 
for drug warrants.
    The Marshals Service uses its district and regional fugitive task 
force network to combine the efforts of Federal, State and local law 
enforcement agencies to locate and arrest the most dangerous fugitives. 
These task forces are designed and managed to ensure the highest levels 
of cooperation, coordination, and deconfliction among participating 
agencies to organize investigations and protect officer safety not only 
in high density regions and core cities but also in surrounding cities 
and small rural areas that face difficulties dealing with violent 
offenders' criminal activity.
    In addition to the network of USMS-led fugitive task forces and its 
targeted initiatives, the USMS has partnered with the Organized Crime 
Drug Enforcement Task Forces (OCDETF) for over 30 years. Since the 
inception of OCDETF, the USMS has played an integral part in the war on 
drugs and has been able to dramatically reduce the number of 
outstanding OCDETF fugitives.
    It is important to note that the USMS fugitive task forces locate 
and apprehend Federal, State, and local fugitives both within and 
outside the United States. Since 2003, the USMS has worked with other 
U.S. Government agencies in its three foreign field offices (Mexico, 
Dominican Republic, and Jamaica) and Colombia to apprehend high-profile 
fugitives. Targeted fugitives range from major Transnational Criminal 
Organizations (TCO) to Consolidated Priority Organization Target (CPOT) 
cartel leaders, murderers, kidnappers, sex offenders and violent 
criminals.
    In addition to high-profile fugitive investigations, the USMS 
counter-narcotics efforts are worked, coordinated, exploited and 
deconflicted with the DEA's Special Operations Division inter-agency 
efforts, foreign field offices and appropriate leads in conjunction 
with the intelligence community. Though the USMS only has permanent 
presence in three countries, the USMS has an extensive network of 
foreign police contacts developed through outreach efforts and 
international fugitive training programs. Designated by the Department 
of Justice, the USMS is the Federal Government's primary agency for 
apprehending fugitives and has statutory responsibility for all 
international extraditions. The USMS routinely coordinates and conducts 
more than 400 extraditions annually with 40 percent of the 
international removals relating to narcotics.

    Senator Lankford. But part of the issue for us, as well, as 
we deal with the budget issues, we appreciate very much what 
you do and the folks that are on the street and individuals 
that literally lay down their life for our country and do that 
every day, and their family members deal with the grief, and 
our Nation grieves.
    We want to have the maximum number of people that are 
actually engaged on the street, both protecting each other and 
protecting our Nation, as possible, and the least amount in 
administrative work. So where there are areas of overlap, and 
one entity is really near-related to another entity, we would 
rather have one entity have more folks on the street and have 
half the administrative costs, as much as possible.
    So that would help us to be able to get that perspective.
    Another one is, I know there is a lot of focus right now on 
international terrorism, rightfully so by the way. But we can't 
lose the focus on drug and gang violence that is happening in 
the United States, because we lose more folks to drug and gang 
violence every week in the United States than we do 
international terrorism.
    Now, we can't put one priority over another one. We just 
can't lose that priority. And I would continue to reinforce 
that again with the funds and with the focus that we have. That 
is a continued major emphasis that we have to keep up that 
obviously DEA is trying to lead the way on so much, but all 
four of your entities are very, very involved in that as well.
    Let me do a specific question to Mr. Jones here, as well. 
The Attorney General Eric Holder and I had a conversation 
several years ago, coming out of the backside of ``Fast and 
Furious.'' It was a conversation about some of the procedures 
and process in trying to align the FBI processes for how to do 
undercover operations and the permissions and the access points 
going all the way to DC with ATF, because there are two 
different sets of processes.
    That was about 3 years ago that we had that conversation 
that was ongoing.

           ATF INTEGRATION OF DEPARTMENT OF JUSTICE POLICIES

    Do you know where that is, in status right now, in trying 
to align ATF processes with more of an FBI-like process for 
investigations?
    Mr. Jones. Senator, thank you for the question, and I think 
we are in a very better place than we were 3 years ago. I had 
three priorities when I came onboard.
    One was to get the organization healthy, and that is not 
just in resources. It is the infamous morale question.
    Number two was to fully integrate ATF into the Department 
of Justice policies. Coming from a U.S. attorney background, 
having served on the Attorney General's Advisory Committee 
(AGAC), being intimately familiar with Undercover Review 
Committee, Confidential Informant (CI) Committee, all of the 
processes that are there at the Department of Justice, we are 
on target with integrating and making sure that we are in sync 
with all of the DOJ law enforcement components on how we do 
some of those fundamentals, in terms of processes for higher or 
high-risk law enforcement operations.
    Now, the challenge for all of us, and the thing that gets 
attention oftentimes, is when the policy is not put into 
practice completely and uniformly across the country. That is 
sometimes a challenge, because putting it into practice 
involves your people and communication and training.
    Senator Lankford. But where do you think that is, in 
implementation of the policy, though, first?
    Mr. Jones. For us?
    Senator Lankford. Yes.
    Mr. Jones. For ATF?
    Senator Lankford. Yes.
    Mr. Jones. We are in sync with DOJ policy across-the-board, 
and we will continue to refine all of our orders and policies 
and practices on paper and in practice.

                     PRISONER DETENTION POPULATION

    Senator Lankford. Okay, thank you. One final question as 
well. There is a decrease in budget on the prisoner detention 
budget line item on that, and the reason that was done was a 
decline in population, which, by the way, is often good news on 
that. But can you tell me the reason that you see there is a 
decline in Federal prisoner population?
    Ms. Hylton. You are accurate, Senator. The major 
contributor is the decline in the population. It is also a lot 
of efficiency and time in detention that has been reduced in 
business practices. So those two combined.
    Senator Lankford. For any certain population that there is 
a decline in length of detention?
    Ms. Hylton. The decline in population--it will stay strong 
in immigration. It stays at a steady pace. There is a slight 
decline in drugs and a slight decline in supervised release, 
but those fluctuate primarily because of the length of time it 
takes to prosecute the cases. So it's time in detention that 
really impacts the dollar at times.
    Immigration has a faster processing of those cases compared 
to drugs. So it's really detention time that reduces it.
    Senator Lankford. Okay, thank you.
    I yield back.
    Ms. Hylton. Thank you.
    Senator Shelby. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Director Comey, I want to thank you for the work your 
people do in counterterrorism. I was there when Bob Mueller 
announced the development of an intelligence branch in the FBI. 
At that time, I had some concerns about it.
    I have watched its evolution, and I just want to say that 
whether it was Najibullah Zazi, which is well-known, or plots 
that are not well-known, the FBI has been able to disrupt plots 
in the United States. I think that is a very important and 
significant thing. And I want very much to thank you for it.
    I want to ask you, yes or no. One of my disappointments was 
to learn that the 6-year report of the Senate Intelligence 
Committee on the detention and interrogation program sat in a 
locker and no one looked at it. Let me tell you why I am 
disappointed.
    The report, the 6,000 pages and the 38,000 footnotes, which 
has been compiled, contains numerous examples of a learning 
experience of cases, of interrogation, of where the Department 
could learn perhaps some new things from past mistakes. The 
fact that it hasn't been opened, at least that is what has been 
reported to me, is really a great disservice. It is classified. 
It is meant for the appropriate department. You are, certainly, 
one of them.
    I would like to ask if you'll open that report and 
designate certain people to read it, and maybe even have a 
discussion how things might be improved by suggestions in the 
report.
    Mr. Comey. I will do that, Senator. As you know, I have 
read the executive summary. You asked me to do it during my 
confirmation hearing. I kept that promise and read it.
    There are a small number of people at the FBI who have 
read, as I understand it, the entire thing. But what we have 
not done, and I think it's a very good question, is have we 
thought about whether there are lessons learned for us, because 
it's a tendency for me to think we don't engage in 
interrogation like that, so what is there to learn?
    I don't think I have thought about----
    Senator Feinstein. Well, you did. And Bob Mueller pulled 
your people out, which is a great tribute to him.
    Mr. Comey. So the answer is yes, I will think about it 
better and I will figure out where we are in terms of looking 
at the entire thing. I don't know enough about where the 
document sits at this point in time, and you mentioned a lock 
box. I don't know that well enough to comment on it at this 
point.

                           HUMAN TRAFFICKING

    Senator Feinstein. Thank you very much.
    Let me talk to you about another problem. Human trafficking 
is now the second largest criminal enterprise in the world. It 
is behind only the drug trade. In this country too, children 
12, 13, and 14 are being trafficked. They are being transported 
across State lines to cities all over the United States.
    In some areas like Los Angeles, even street gangs are 
running these trafficking rings. So traffickers, now to 
distance themselves, have come upon a method of using the 
Internet. There are some 20 Internet sites where a purveyor, a 
trafficker, for as little as a dollar can buy an ad. So the 
Internet effectively becomes complicit.
    Now these are children. These are underage girls, sometimes 
underage boys. They are held against their will.
    I have become very concerned about this and will be doing 
more on it. But my question to you is, what can the FBI do to 
really make this a major priority and crack down on it? It is 
international, but it's also big-time national.
    Mr. Comey. Well, I think your characterization of it is 
correct, Senator. It is a huge feature of our work in all of 
our field offices. We work in 70-some task forces to try and 
address it. We work internationally in our 64 legal attache 
offices (legats) to try and address it. So it's a big feature 
in our life.
    We are trying to make sure we send a message that there are 
huge costs to doing this in the United States. We are focused 
on the individuals. You allude to the challenge with Internet 
sites; that is a challenge for us. Obviously, we have a 
wonderful country with a First Amendment that protects people's 
ability to create sites.
    We are trying to focus on the individuals who may be 
operating a site for purposes of trafficking and lock them up 
for a long period of time, and we are doing that all over the 
country.
    Senator Feinstein. Have you had any success?
    Mr. Comey. Oh, yes. We sure have.
    Senator Feinstein. Could we learn more about that?
    Mr. Comey. Sure.
    Senator Feinstein. Okay. Not now, but I would appreciate 
sitting down with you.

                           BACKGROUND CHECKS

    According to the Government Accountability Office, the 
famous GAO, for the last 10 years, February 2004 to December 
2014, there were 2,233 cases in which a known or suspected 
terrorist, individuals who were on the Federal terrorist watch 
list at the time, attempted to buy a firearm or obtain an 
explosives permit.
    In 91 percent of the cases--this is not me, this is the 
GAO--2,043 separate occasions, those known or suspected 
terrorists were successful in passing a background check. What 
can be done about this?
    Mr. Comey. Well, Senator, what we do now is, if someone on 
the watch list purchases or attempts to purchase a firearm, an 
immediate alert is sent to the agents who are the source of the 
suspicion about that individual, so they can incorporate that 
information into their investigation.
    It is a little bit challenging for us because ``known or 
suspected'' means it hasn't been adjudicated in every case that 
somebody is a terrorist. It is somebody we're investigating. So 
we don't want to, obviously, blow our investigation.
    Senator Feinstein. Well, let me say this, in 2007, the Bush 
administration's Justice Department drafted legislation to 
close what is a gap and prevent a known or suspected terrorist 
from buying a gun or explosive in this country.
    In 2009, Attorney General Holder expressed the Obama 
administration's support for the legislation. And I introduced 
similar legislation in the Senate last year.
    The question comes for the law enforcement element of the 
administration to really come forward and be supportive of 
this, because the National Rifle Association even opposes this. 
Now, this is terrorists.
    You know, we can have people come into this country meaning 
to do us harm, and they can go in and buy a weapon to carry it 
out. That is simply unacceptable.
    So I want to bring it to your attention. We have to come 
together and prevent this from happening.
    Your biggest concern is the lone wolf. The lone wolf can 
come in unarmed. He can buy the explosives. He can buy the gun. 
This must be stopped.
    Mr. Comey. Thank you, Senator.
    Senator Feinstein. No comment?
    Mr. Comey. I don't know where the administration is on the 
legislation, so I have nothing intelligent to say about that. I 
am focused on the operational piece of it, to make sure that we 
are alerted. I will have to find out where the administration 
stands on the legislation.
    Senator Feinstein. If you will, and I would also like to 
know where you stand.
    Mr. Comey. Oh, I am the FBI, I don't----
    Senator Feinstein. You don't stand?
    Mr. Comey. I don't stand. I am too tall to stand.
    Senator Feinstein. Thank you.
    Mr. Comey. Thank you.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Shelby. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. And thank you all 
for being here. We appreciate all that you represent.
    Director Jones, first of all, I would like for you to be 
sure and send our condolences to Special Agent William 
Sheldon's wife and two young children. I understand that he has 
lost a battle with cancer, and we, certainly, are thinking of 
him.
    And Director Hylton, we want, also, to express our 
condolences to Josie Wells, who was killed in the line of duty 
on March 10th, again, to family and friends, and the U.S. 
Marshals Service.
    I think these things illustrate what you all are about, and 
we really do appreciate you.
    I really want to follow up on what Senator Mikulski was 
talking about, and Senator Lankford in a different way, and the 
tools that we have out there to try and fight the drug 
epidemic, and along with that, the violent crime that comes 
with that.

                       VIOLENCE REDUCTION NETWORK

    Director Jones, as a response to violent crime in Little 
Rock and West Memphis, Arkansas, I understand that both are 
potentially candidates to be named a Violence Reduction 
Network. Can you talk a little bit about that initiative, and 
how that is helpful?
    Mr. Jones. Thank you, Senator, for the question. The VRN, 
the Violence Reduction Network, is an initiative that ``the old 
becomes new,'' and it really is a collaborative effort with not 
only Federal law enforcement across-the-board, but also with 
State and locals, to address violent crime at a multitude of 
levels and make it sustainable.
    I know that Little Rock, in particular, has been discussed 
as a VRN potential site. It also is a site where we have done 
some work through our New Orleans field division to try and 
address the unacceptable levels, at times, of violent crime.
    But, the VRN really has a lot of potential. It is in its 
genesis. There are 10 cities now. There has been a conference 
here. We brought all the stakeholders, D.A.s, U.S. Attorneys, 
State and local police departments, and all of the Federal 
agencies represented here, to discuss, in a very focused way, 
the nature of the violent crime problem, the perpetrators of 
the violence in those communities, and sustainable strategies 
to lower it, eradicate it, and sustain it.

                 HIGH INTENSITY DRUG TRAFFICKING AREAS

    Senator Boozman. Very good.
    And related, Ms. Leonhart, High Intensity Drug Trafficking 
Areas (HIDTA), can you talk a little bit about that and how 
that fits in?
    Ms. Leonhart. Sure. The HIDTA program is run by the Office 
of National Drug Control Policy (ONDCP), not DEA. But all of 
the agencies at the table----
    Senator Mikulski. Tell Senator Boozman what those initials 
stand for. Not that he doesn't know, but we get lost in 
initials that you know every day.
    Senator Boozman. You are exactly right.
    Senator Mikulski. And they sound like cans of alphabet soup 
to us, or Scrabble games.
    Ms. Leonhart. Sure. It is the High Intensity Drug 
Trafficking Area program, and it is run by the Office of 
National Drug Control Policy (ONDCP). There are numerous 
HIDTAs. They are big task forces, with different initiatives 
that bring State, local, and Federal together.
    In these HIDTA task forces we are able to concentrate on, 
kind of in a regional concept, the threats, both drug and other 
violent-type crime, that are wreaking havoc on those 
communities.
    Senator Boozman. So, I guess my question is, is there a way 
to, and we could go down the line, we have all of these 
programs going on. Is there a way to integrate the programs, so 
that when you are doing your thing, Director Jones, and you are 
doing your thing, Ms. Leonhart, and Director Hylton, FBI, do we 
integrate those things when we go into a community?
    Ms. Leonhart. Absolutely. The beauty of, say, a HIDTA task 
force is that some of the groups are run by the FBI, 
concentrating on the violent gangs that the FBI brings 
expertise to the table on. Others are fugitive-related and run 
by the Marshals Service to make sure that we are going after 
the most significant, and most wanted violators in the area. 
Then the ones that are concentrating on firearms are often run 
by the ATF.
    They are integrated and, actually, all the different 
initiatives and task forces complement each other, and that is 
why our four departments, and our State and local partners can 
almost seamlessly work between these task forces to go after 
the threat.
    Senator Boozman. Thank you.
    Ms. Hylton, very quickly, because I am out of time, if we 
do make it such that we reduce the Federal prison population, 
how is that going to affect you guys?
    Ms. Hylton. Well, I think there are always criminals ready 
to come into the system, unfortunately, on our streets. So as 
the prison population decreases, our detention population is 
all contingent on what is arrested and brought in.
    As all of us fight for gangs and drugs to be reduced, I see 
that population as continuing to come into detention, as we all 
aggressively address those issues that Congress has explained.
    So I think we will still see them incoming. You will see 
the population go down in prisons, but you will see it come 
back up in detention. Thank you.
    Senator Boozman. Thank you, Mr. Chairman.
    Again, thank you all for being here, very much.
    Senator Shelby. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to follow up on some of the early questions 
regarding the work that ATF is doing, following on the Law 
Enforcement Officers Protection Act.
    This was, just for the subcommittee's recollection, a piece 
of legislation that was passed in 1986 by a 400-21 margin in 
the House of Representatives, passed by unanimous consent in 
the United States Senate. President Reagan said, upon signing 
it, that there are ``certain forms of ammunition that have no 
legitimate sporting, recreational or self-defense use and, 
thus, should be prohibited.''
    It has always been tricky work to try to stay true to the 
act's intention of stopping criminals from killing law 
enforcement officers with specifically dangerous types of 
weapons, while also preserving the right of sportsmen and 
hunters to enjoy their pastime.
    But I just want to first thank the ATF, you mentioned in 
your prepared testimony, for the amazing work that they did in 
and around the Sandy Hook shooting, but also just to relay a 
story.
    I was in that firehouse mere hours after the shooting took 
place, and I had a law enforcement officer who was standing 
next to me remark that, in a way, he was glad that Adam Lanza 
took his own life, because he feared for the life and the 
safety of his officers should a shootout have occurred, given 
the ammunition, given the power of the weapons that were found 
on Mr. Lanza's possession. That speaks to why we passed this 
act in the first place.
    So I wanted to just ask a follow-up question as to why we 
were considering this particular type of ammunition in the 
first place. It is my understanding that what has happened here 
over time, when we talk about these ``green tips,'' is that 
they were initially exempt, in part because they were only used 
in rifles. But they now are able to be used in handguns.
    And we look at handguns in a different way, given that they 
are much more likely to be used in an assault on an officer, 
and, in fact, the underlying legislation specifically 
references handguns as something that ATF should be looking at.
    So I just think it would be helpful for us to understand 
why you got to the point of proposing that we take a new look 
at a type of ammunition that had been exempted, as you said, 
for a period of time.
    It is used in a different way today. That is the reason for 
the relook, correct?

  COMMENT PERIOD ON THE EXEMPT FRAMEWORK FOR ARMOR PIERCING AMMUNITION

    Mr. Jones. Senator, I think it's important to remember that 
this 30-day period for public comment on a framework involves 
additional exemptions. The classification for that particular 
round, which is military surplus, which is 5.56 mm, 62-grain, 
steel core, following into the parameters of LEOPA as armor-
piercing, was given. And it's had an exemption for 30 years. It 
has been on the market for that long. It has been available to 
folks for 30 years or more.
    I think the challenge for us, separate and apart from how 
do we grant exemptions going forward, and given recent 
experience, it's probably not going to happen any time soon, is 
the evolution of firearms technology and some of the platforms, 
assault-rifle-based platforms, that have evolved over those 30 
years, and the capabilities of those, and concealability of 
those. And, in fact, some of them that would qualify as pistol 
platforms create some challenges for us.
    Now, I do believe that this is going to take work across-
the-board, that this is not going to be something that ATF 
alone is going to do through a regulatory process. LEOPA is 
absolutely critical to officers' safety. I think everybody has 
concerns, if you are paying attention to some of the challenges 
there, the handgun phenomena, the crime gun phenomena, and the 
pistol phenomena.
    But as we see more and more of the firearms that could be 
classified as pistols being able to use not just this M855 
round, but any 5.56 mm round, it's a challenge for officer 
safety, and for public safety.
    Bottom line, you all have an opportunity maybe to have a 
discussion that we would gladly help you with on LEOPA, because 
it was passed in 1986 and a lot has happened in the last 30 
years.
    Senator Murphy. I appreciate it. My time has expired. I 
appreciate the answer to the question.
    I'd just point out the genesis of the law to just remind 
folks, this was bipartisan at the outset. And as we perfect it, 
and, as you mentioned, this rule contemplates exempting far 
more types of ammunition than it involves prohibiting, that we 
should remember the bipartisan spirit in which we began this 
effort. Hopefully, we can regain that.
    Thank you very much, Mr. Chairman.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Senator Mikulski. Senator, could you withhold while I just 
say one word to Senator Boozman?
    Senator Capito. Sure.
    Senator Mikulski. This goes to heroin. I didn't know when 
you were leaving.
    I think there is a real bipartisan interest on this 
subcommittee around this issue. DOJ is supposed to give me--not 
me, excuse me, that was the old days--give the subcommittee--a 
report, an interim report, because we asked for a task force.
    When we get that, we will have a staff briefing so we can 
all be up-to-date and really have a concerted effort in it. I 
just wanted to say that.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you. Thank you, Mr. Chairman.
    I want to thank the witnesses. I apologize for missing your 
testimony. I was chairing my own subcommittee, and I wanted to 
make sure I got here.
    But I also want to thank you for your service to our 
country. I appreciate it very much.

                 CRIMINAL JUSTICE INFORMATION SERVICES

    Director Comey, we are extremely proud of the work being 
done by the Criminal Justice Information Services at the FBI 
facility in Clarksburg. Over the years, biometrics has been 
exceedingly useful to the FBI and its partners in the law 
enforcement and intelligence communities, not only to 
authenticate an individual's identity to confirm that you are 
who you say you are, but more importantly, to figure out who 
someone is by either a fingerprint left on a murder weapon or a 
bomb, for example, typically by scanning a database of records 
for a match.
    The FBI Criminal Justice Information Services Division 
(CJIS) division has been a leader in biometrics and 
information-sharing for decades, and since the 1990s, the FBI 
has been saving the American taxpayers hundreds of millions of 
dollars by defraying the cost of running, automating, and 
modernizing its fingerprint repository, formally known as 
IAFIS.
    But this budget seems to jeopardize those efforts. It 
includes an offset of $120 million for this important function.
    Director Comey, can you tell this subcommittee what the 
impact would be and how this reduction could affect the FBI's 
ability to invest in the latest biometric technology, including 
facial recognition, iris scans, and DNA, just to name a few?
    Mr. Comey. Thank you, Senator. During my opening statement, 
I was bragging a little bit about my CJIS folks, because they 
are a hidden gem in the FBI. I believe they are the frame upon 
which hangs all of law enforcement.
    The information we share, the identities we share, the DNA, 
all of it goes through that great facility there. And I am very 
excited we are going to open, very shortly, a biometrics 
facility with DOD that is going to make this country even 
safer.
    I told them when I visited them, I said people don't know 
how cool you are here in West Virginia, and that is part of a 
testament to the quality of your work. You do it so well that 
everybody takes it for granted.
    So I'm very excited about CJIS. They know how much I love 
and admire their work.
    The answer is, I don't think that it will have an impact. 
There is an offset in the budget that is about additional 
moneys in the CJIS account that came from fee-for-service. The 
statute, as I understand it, restricts my use of that fund in 
certain ways.
    I am looking for ways in which to use it consistent with 
the law. But my understanding is this $125 million, the loss of 
that will not affect next-generation identification, the DNA 
database, any of the great work we are doing out there. It is 
simply some extra dough that came in over time from fees being 
paid, that we can use to invest in additional information 
systems. But even if we are not able to, it's not going to 
affect the rest of the work.
    Senator Capito. Well, that is good, because I think the 
modernization is something that is ongoing, changing forever. 
And we are extremely pleased to have the CJIS folks and the FBI 
in Clarksburg.
    It has been a wonderful addition to our community, and we 
know how great it is out there, too, so I appreciate that.
    I would like to ask Director Jones a question, because you 
also have a facility in West Virginia.

               ATF'S MARTINSBURG, WEST VIRGINIA FACILITY

    Mr. Jones. A wonderful facility.
    Senator Capito. Yes. And there is an aspect of the budget, 
which I am pleased about and would like to ask you, regarding 
the investment of a proposed ATF tracing facility in 
Martinsburg. I think this would be an amplification of what was 
already existing there, but you are requesting an $8.1 million 
increase for the facility for a mixture of personnel and 
equipment software upgrades.
    Can you discuss the work that is being done at the tracing 
center there, and why this increase would be justified?
    Mr. Jones. Well, like Director Comey, I love our facility 
in West Virginia because it does such critical work to what we 
do. We have our National Firearms Act (NFA) branch there that 
processes the ever-increasing number of requests for NFA 
licenses. That has primarily been driven by silencers. We got 
almost a quarter of a million requests last year.
    So that $8.1 million would do two things. One, it will 
allow us to add, permanently, 10 more legal instrument 
examiners that are crucial to processing the NFA, and we are 
making progress on cutting down the time. And it will give us 
money for contractors, because about half of our workforce in 
Martinsburg is contractors that not only do NFA licensing, they 
also do our crime gun-tracing.
    And we have a Violent Crime Analysis branch, and our 
Firearms Technology branch is out there.
    So that is kind of the heart of our gun work at ATF. It is 
out there in that Martinsburg facility.
    Senator Capito. Okay, good. That is good news. I, 
certainly, would be supportive of that.
    Well, I think I am out of time, but if I could make a quick 
comment, because I missed the discussion on heroin, and the 
ranking member mentioned that.
    I am assuming that is in reflection of the rise of heroin, 
the rise in heroin overdoses, younger people being affected by 
this. Even in a small State like West Virginia, this is having 
some devastating effects. And I, certainly, would love to be a 
part of some preventive measures, either at the supply or 
demand side, to try to stop what we see happening and 
destroying lives all across this country.
    So I want to be supportive of those efforts. Thank you.
    Senator Shelby. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you very much for your service and for being here 
this morning.

                                 HEROIN

    I guess I want to start with Administrator Leonhart, 
because I want to follow up on Senator Capito's comments, 
Senator Mikulski's comments, so many of the other comments that 
we have heard about the heroin epidemic around this country.
    We are seeing it in New Hampshire and northern New England. 
In New Hampshire in the last 10 years, we have seen people 
admitted to State treatment programs increase 90 percent for 
heroin use, 500 percent prescription drug use. So it truly is 
an epidemic.
    One police chief described it to me this way, he said, when 
we have someone shooting up at 2 o'clock in the afternoon in 
the parking lot of Target in Bedford, which is a very upscale 
community, we know we have a problem.
    So we have a problem. What I am interested in is not which 
lanes people are in. I am interested in what coordination is 
going on between agencies.
    Specifically, I have done a series of roundtables, meeting 
with law enforcement, treatment officials, and the medical 
community in New Hampshire, because one of the things that we 
have heard there is that the heroin abuse is the result of 
prescription drug abuse, and that one place where there is a 
breakdown in how we address this issue has to do with 
prescribing, and the medical community needs to be very 
involved in that discussion.
    As far as I can tell at the national level, we are not 
doing as much as we should be doing. So can I ask you, or 
anyone on the panel, I suppose--Director Comey, you might have 
some thoughts about this.
    But what are you doing to coordinate the efforts that your 
agency is engaging in? And how are you getting out information 
about those activities to local communities, the availability 
of grant moneys, what resources are available in local 
communities?

                        PRESCRIPTION DRUG ABUSE

    Ms. Leonhart. I will start with that.
    Yes, the Northeast especially, with the exploding 
prescription drug problem, what follows is the heroin problem. 
So what we have done and have done very well with our State and 
local partners in the Northeast is we have tactical diversion 
squads of diversion investigators, DEA agents, intel analysts, 
and State and local officers. They become the teams that are 
responsible for not only the prescription drug problem but also 
the rise in heroin abuse in those communities.
    Senator Shaheen. And excuse me for interrupting, but are 
you working with the medical community, and with some of our 
medical colleges around the whole prescribing challenge? One of 
the issues is that doctors are not really given a lot of 
guidance on how to prescribe because it is a variable issue, 
depending on the disease, on the individual.
    Ms. Leonhart. That is correct. It is the one drug problem 
that isn't just about law enforcement.
    So there are a number of efforts. We have been at the table 
with medical professionals. We have gone out. We have had 
seminars. We have worked with our U.S. attorneys to bring the 
medical community, the law enforcement community, treatment and 
prevention people together. A number of those efforts have 
actually occurred in the Northeast.
    But overprescribing is one of the major problems. In our 
work with the Department of Health and Human Services (HHS), 
the lane for the doctor's education falls with them. However, 
we have all partnered together and have offered training and we 
have actually gone out to schools.
    Senator Shaheen. So how is that reflected in your budget? 
As you look at where your priorities are for addressing this 
issue, how would you rate the enforcement side versus the 
prevention and the outreach efforts that you are doing?
    Ms. Leonhart. Thank you, Senator, for bringing that up, 
because there is a piece of our budget that this subcommittee 
could be very helpful with, and that is our DCFA part of the 
budget that handles diversion control.
    With that budget, it will allow us to continue to do 
outreach. Part of that outreach is working with the medical 
associations and getting the word out. We put a number of 
things on our Web site. We give them training manuals, a number 
of things.
    The budget for 2016, if we were to get that money, it will 
allow us to continue that outreach, as well as bring 50 
additional diversion investigators and 50 additional special 
agents into the program.
    Enforcement is just one piece. We feel that the public 
outreach is very important. And with our 66 diversion squads 
around the country, it allows them additional resources to be 
able to go out and reach the medical community, and is one of 
our priorities.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman, and Ranking 
Member Mikulski.
    And thank you to our panel of witnesses for your service 
and commitment of the men and women you lead.
    I want to follow right on this line of questioning with 
Administrator Leonhart.

                        VETERANS ADMINISTRATION

    Reports indicate that the DEA is investigating drug 
diversion from a Veterans Affairs medical facility in Tomah, 
Wisconsin. This facility is also the subject of a broader 
Veterans Administration (VA) investigation into opioid and 
benzodiazepine prescribing practices and management issues at 
the medical facility.
    Of course, the VA is itself a Federal agency, and the 
possibility that illicit drug use and sale may be fueled in 
part by the Federal Government is just extremely troubling.
    I look forward to discussing your investigation into the 
Tomah facility during the closed session. But I have two 
related questions for this session.
    Has the DEA identified VA medical facilities as a potential 
source of illicit opioid drug distribution?
    Ms. Leonhart. In this setting, I am not going to be able to 
talk specifically about Tomah. But I will say, in general, that 
we are concerned with any medical facility that is contributing 
to diversion and contributing to prescription drug abuse.
    We have the authorities. We have regulatory authorities and 
administrative authorities that we have used, and we will use, 
whether it is a VA facility or not.
    So we share your concerns, especially when this is 
regarding our treatment for our veterans.

                               DRUG ABUSE

    Senator Baldwin. You noted in your testimony that 
prescription drug abuse, and particularly prescription of 
opioids, has become a national crisis. The Centers for Disease 
Control and Prevention (CDC) has reported that more than 16,000 
people died using prescription opioids. That is about 37 
percent of all drug overdose deaths in the United States during 
the calendar year 2013.
    Experts see a direct connection between this and the 
increase in heroin use and overdose deaths. We have heard some 
of my colleagues cite local numbers and tragedies in this 
regard. In Wisconsin, in Milwaukee County alone, we saw a 72 
percent increase in heroin-related deaths from 2013 to 2014, 
just 1 year.
    So I know you have been asked this in many different ways, 
but what is your overall strategy or overarching strategy that 
we need to know about for cracking down on prescription drug 
diversion and heroin abuse? And does your budget request 
include sufficient funding to meaningfully reduce drug 
diversion and heroin abuse?
    Ms. Leonhart. Thank you, Senator. Yes, if you support the 
budget request, it will allow us to continue at the DEA to 
prioritize heroin and prescription drug abuse.
    We can't separate the two. You are absolutely correct that 
the prescription drug abuse has led to a heroin epidemic.
    The funds that we are asking for in the 2016 budget allow 
us to do a number of things. One is continue expansion of our 
tactical diversion squads. Those are the squads that are going 
to be able to go into communities, not just our big cities, but 
we have actually started to move these out into smaller cities, 
and pockets of the country that have had severe prescription 
drug problems.
    We are working those problems, and we are also able to, 
both on our diversion side and our enforcement side, work on 
those organizations that are taking advantage of the addiction 
in these areas, moving drugs into those communities, and 
working with our State and local partners, our other Federal 
partners, and where to take off those distribution 
organizations.
    At the same time with our diversion control personnel, we 
are using every tool we have in the toolbox, including 
regulatory authority, and administrative authority. We have 
pumped up the regulatory side to make sure that they are out 
doing cyclical investigations. We are focusing on the entire 
string, so from the manufacturers to the distributors, 
pharmacies, doctors, you name it.
    A piece we are also concentrating on is educating the 
public. There are certain tools that doctors should be using, 
pharmacists. It's important for them, the Prescription Drug 
Monitoring Programs (PDMPs). We now have 49 States that have 
either passed laws for PDMPs or have them in use. We understand 
Missouri, the last State, has just passed or there is a bill 
being looked at.
    Using every tool to include disposal and getting the drugs 
out of the medicine cabinet, has been very important in this 
fight. So it's not just enforcement. It's not just the 
outreach. It's hitting at each and every level to be able to 
take care of the prescription drug problem. We have seen over 
the last year to year and a half, it began to level off. But 
that heroin problem continues to rise.
    Then our international folks play a huge role here, because 
the majority of heroin that is hitting your streets is coming 
from Mexico and is being trafficked by those same organizations 
that are bringing coke, meth, marijuana, you name it, to your 
communities.
    These are the same organizations. They are polydrug 
organizations. And we have partnered with our counterparts in 
Mexico, who now, over the last year, have really taken a look 
at the heroin problem. They see the role that they play, and we 
have actually done some very good work together with them to 
focus on the problem.
    Senator Shelby. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    I'd just like to follow on some of the questions you have 
been fielding, Administrator, and say how grateful I am for 
your focus.
    Highly potent, inexpensive, widely available heroin is now 
killing many people in my hometown of Wilmington, Delaware, and 
across my State. We have 15 deaths per month from overdoses. It 
is touching all backgrounds, all income levels, all 
communities.
    We are eager to work in partnership with you and all of 
Federal law enforcement in finding more effective models for 
diversion, for treatment, for interdiction, and for the 
prosecution of the related crimes. It is something that is a 
significant challenge for our community, as it is from 
Baltimore to Miami to Wisconsin, all over our country. We 
really are seeing a significant shift from the prescription 
drug epidemic into heroin.

                       VIOLENCE REDUCTION NETWORK

    Let me turn, if I might, to a program that has been 
mentioned before by Senator Boozman, the Violence Reduction 
Network. The five cities that are participating in the first 
round are Oakland, Chicago, Detroit, Camden, and Wilmington, 
Delaware.
    I am grateful for the opportunity to talk with you about 
it, the Office of National Drug Control Policy, which is under 
the Financial Services Subcommittee and their HIDTA program is 
also newly engaged in the work Wilmington, Delaware.
    Despite our very small size, relative to Detroit or 
Chicago, Wilmington has one of the highest rates of violent 
crime and murder in the last few years. And a newly energized 
and engaged mayor, police chief, State-wide elected officials, 
and community leaders are tackling this challenge effectively.
    But I would love to hear from each of you, and I will 
invite you to start, Director Jones, if you might, what you are 
hearing about progress in Wilmington, what you think are the 
resource challenges that might remain, and if you have any 
input for me on what is going to be critical to turning the 
corner.
    The reports I am hearing so far about the Federal role is 
very positive, and so my simple input is to say thank you for 
the resources being delivered, the advice, the mentorship, and 
the guidance to my hometown. But if there are other things that 
I need to hear or things we can do to strengthen this network, 
I would really appreciate hearing it.
    Director.
    Mr. Jones. Well, one of the exciting things about the VRN, 
the Violence Reduction Network, is it will give us an 
opportunity to enhance the collaborative effort. I think in 
Wilmington, Delaware, and I have been up there, I have met with 
our resident agent. We are having some enhancements in terms of 
permanent personnel, which is a big part of our request in this 
budget, to get us healthy in terms of our special agent cadre.
    We are starting to see results when we have groups like the 
one in Wilmington that have been working for a long time in 
single digits, and we enhance it with task force officers, who 
in the past were barely holding it together, and we actually 
get new ATF agents up there.
    Our focus in Wilmington is really twofold. One is 
partnering with the police department to make sure that when 
there are shooting incidents, that we are on them very fast and 
following leads to identify the trigger-pullers.
    The other aspect where we have had some success, not only 
in Wilmington, but up and down the Eastern seaboard, are with 
the traffickers and the Iron Pipeline up I-95, where there are 
guns that are available in some, quote, unquote, ``source 
States'' that travel up--and Wilmington is along the pipeline--
to do what we can to disrupt the firearm trafficking networks.
    We have had some success recently in Wilmington with people 
who are essentially unlicensed dealers, for lack of a better 
term. So that effort, focusing on crime guns, draining the 
crime gun pool, helping the local police department identify 
trigger-pullers through leveraging technology like NIBIN, and 
training folks so it's sustainable, really is the short-term 
focus of our efforts.
    Senator Coons. Thank you, better ballistics training, use 
of gun stats, better use of data analysis, regional 
partnerships, I hear that all of those have been making a 
difference, and I am grateful for your personal engagement.
    I have relatively little time left, if any of the three of 
you would like to contribute to it, I would really appreciate 
it.
    Mr. Comey. Senators, I hope you know, in our Wilmington 
office, we have a 22-member Violent Gang Safe Streets Task 
Force that is part of the Violence Reduction Network effort.
    As Director Jones said, we are trying to focus on the 
trigger-pullers who are part of these neighborhood-based gangs, 
might not be big, fancy national gangs, but thugs who are a set 
or crew in a particular neighborhood. We are trying to be 
strategic, work with the intelligence that the locals are 
generating, focus on those, and rip them out of the community, 
with the hope that the good people will fill in the space and 
make that community safer.
    So I have 22 folks focused on it. It is too early for me to 
be able to tell you what success we have had, but it's 
something we will watch closely.
    Senator Coons. And the CDC has recently completed a fairly 
thorough review of the dataset from a public health 
perspective, as well as from a criminal justice perspective, of 
who is the universe of folks who are actually committing the 
violent crimes, where are they coming from, what is their 
background, what interactions do they have with education, with 
health care, and with law enforcement.
    It has been fascinating dataset that the Governor and his 
cabinet and I sat down and went through the other day.
    Do I have time Mr. Chairman, if the director wants to offer 
one more answer?
    Director.
    Ms. Hylton. Thank you very much. I would like to, as it 
relates to the VRN, the Violence Reduction Network, we have an 
operation ongoing now that is borne out of that effort.
    We are particularly focused on the larger cities or tri-
city areas, and we are operating out of Camden, Philadelphia, 
and Wilmington, trying to assist you with that.
    I am pleased to report, after 1 week of this operation, we 
have over 684 violent criminals arrested, particularly, 89 of 
them are gang members, 134 of them are sex offenders. There has 
been 48 of them that are related to homicides.
    So we work with the States and locals to bring those 
warrants in, and then, of course, we are able to share fugitive 
information across other investigative agencies.
    So I think the earlier questions of how we interface with 
each other, that is the work that we push out back and forth to 
each other.
    Twenty-seven firearms were seized, 1.86 kilograms of 
narcotics were seized, and over $47,000 currency. That is all a 
part of dismantling some of these organized criminals, 
opportunists, that are seeking to push drugs out.
    So I think that collective work is really starting to prove 
beneficial in the violent reduction across the cities.
    We are focused, as Director Comey says, all of us, on 
attacking the corridors that run. So it's not only just the 
major cities. Camden can put out 400 officers, but at the end 
of the day, all it does is push it out to Wilmington.
    The Marshals Service is particularly focused on those 
smaller law enforcement agencies to get in there and bolster 
them on removing the fugitives, at least, so they can put their 
efforts greater into the investigation piece to dismantle.
    Thank you.
    Senator Coons. Well, we are grateful for your partnership 
and support.
    Senator Shelby. Thank you, Senator Coons.
    I have a couple of questions that I want to submit for the 
record. One deals with Adam Walsh Act funding and the other is 
the DEA international drug enforcement priorities. I would 
submit them for the record, and ask you to hopefully get them 
back to us within 30 days.
    Senator Shelby. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    I know we are now moved to the classified hearing. I, too, 
have questions for the record.
    I just want to say again to the men and women who work at 
these wonderful agencies, we want to thank them not only for 
the service they do, but we want to thank them that there are 
people in the United States of America who want to do this 
work, who really want to do this work. And we owe them a debt 
of gratitude, and, therefore, my comments about lifting 
domestic budget caps was not political grandstanding, that if 
we are going to lift the caps in defense to defend America, 
there is a lot of defense right here in our country for our 
communities.
    The second thing is, the issues of the Appropriations 
Committee, related to hiring and then sustaining the people we 
hire.
    And my point last point is technology. I am really proud of 
the labs and other technology uses we make in our agencies. I 
think really about 9/11, in that the Maryland State troopers 
stopped one of the terrorists. But at that time, the databases 
were so skimpy, you knew more about a deadbeat dad than 
somebody who was planning this horrific attack on the United 
States. That has changed.
    And when we looked at the sniper, the Beltway snipers, when 
this whole community came to a standstill, when somebody who 
worked at the FBI in the supportive service was killed coming 
of Home Depot, this community, I mean we are all victims of 
crime. This whole area stopped.
    We didn't know, was this terrorism? We didn't know if these 
were multiple killers. But thanks to this lab, and the way we 
could work with the FBI, we were able to have local law 
enforcement in charge, and we were able to catch the people of 
these terrible acts.
    So what you do, and I could through each and every one, is 
just amazing. We really need to support you, and I look forward 
to doing it.
    Senator Shelby. Senator Shaheen, you have another question?
    Senator Shaheen. Actually, I have a comment that I would 
like to make to follow up on something that Administrator 
Leonhart said, because I was just in a hearing in the Armed 
Services Committee with the general who is the head of Southern 
Command.
    One of the things she was talking about was the their work 
to interdict drugs coming into Central America and Mexico, and 
the impact that additional sequestration cuts are going to have 
on their ability to continue with that interdiction and support 
those countries in Central America that are trying to, and 
Mexico, that are trying to address this effort.
    I just think it's important for us to recognize that that 
is going to have a huge impact on the efforts, if those cuts go 
forward, the impact on the national security side, because of 
the drugs coming in. But that will then have an impact on the 
work that you are trying to do, that all of you are trying to 
do, if we can't address and roll back those cuts from 
sequestration.
    So I thought it was important, Mr. Chairman, to point out 
that this has huge domestic potential impact.
    Thank you.
    Senator Shelby. Thank you.
    I thank the witnesses, but we will now temporarily recess 
and reconvene in closed session, as soon as we can get back 
over to the Capitol.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. James B. Comey
                    FEDERAL BUREAU OF INVESTIGATION
           Questions Submitted by Senator Barbara A. Mikulski
               stopping human trafficking and pedophiles
    Question. What is the FBI doing to stop human and sex trafficking 
in the United States? What additional resources are needed by the FBI 
to put traffickers out of business?
    Answer. The FBI takes a victim-centered approach in conducting its 
human trafficking investigations. All efforts are taken to ensure 
victims are identified and provided necessary services. Through 
approximately 70 FBI-led Child Exploitation Task Forces (CETF), the FBI 
collaborates with nearly 400 State, local, and Federal law enforcement 
partners to identify and prosecute those individuals, enterprises, and 
businesses that exploit children, including those who facilitate the 
domestic sex trafficking of children. As of April 2015, the joint 
efforts of these groups have resulted in approximately 4,550 child 
recoveries and the conviction in State and Federal courts of nearly 
2,000 child sex traffickers.
    The FBI also takes part in over 120 Human Trafficking Task Forces 
and Working Groups to rescue adult victims of trafficking in persons. 
In these task forces and working groups, the FBI partners with other 
Federal, tribal, State and local law enforcement agencies, and their 
respective victim services components. These efforts often require 
working with various non-governmental organizations to ensure the 
rescued individuals are provided with whatever is necessary to restore 
their human dignity, irrespective of their willingness to cooperate in 
prosecution efforts.
    Recognizing the complexity of many human trafficking 
investigations, the FBI--in coordination with its Federal, tribal, 
State and local partners--routinely uses myriad investigative 
techniques to dismantle human trafficking organizations. Intelligence 
collection is a large aspect of human trafficking investigations. 
Intelligence Analysts assess human trafficking data enabling analysis 
of current and past trafficking data.
    Question. What assistance does the FBI provide to the victims of 
sex trafficking after an event like Operation Cross Country? What is 
being done to ensure these women and children are treated like victims, 
not criminals, by law enforcement?
    Answer. In Federal cases where a victim has been identified, crisis 
support is provided and medical treatment is offered. Once a victim is 
recovered, an FBI Victim Specialist (VS) is introduced and provides 
food, hygiene items, and clothing for the victim, in an effort to 
preserve the victim's dignity and offer comfort during interactions 
with law enforcement.
    FBI Victim Specialists (VS) possess specialized knowledge and 
skills on helping both adults and minors victims of sex trafficking. 
From providing on-scene crisis intervention to assisting families or 
guardians in considering specialized treatment options, a VS assesses 
the needs of the individual and works with local, State and Federal 
agencies to provide resources and opportunities to the victim. For 
example, if a minor is placed in residential treatment, the VS stays in 
contact with providers and guardians to keep communication open with 
the victim and to work within the team to coordinate any future 
investigative needs that does not jeopardize the victim's mental 
health. The VS also works with the U.S. Attorney's Office to facilitate 
support throughout the court process.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                       combating terrorist groups
    Question. What is the FBI doing to ensure we have Arabic speaking 
FBI staff located at high-threat locations, like Chicago?
    Lead-in information from original document.--
          Recently, social media accounts claiming to be associated 
        with the terror group ISIS posted threats against targeted 
        locations in Chicago, including the Old Republic Building at 
        307 N. Michigan Avenue.

    Answer. The FBI's Foreign Language Program works closely with the 
FBI's operational divisions to prioritize workload across divisions and 
intelligence domains as a reflection of those priorities. With a 
centralized management structure and a decentralized Arabic linguist 
workforce, the FBI directs Arabic language processing efforts across 
the Nation, focusing on operations in priority order as identified by 
the FBI's operational divisions, irrespective of geography. In 
addition, the FBI works to identify Field Offices, including Chicago, 
where there is an ongoing requirement for special agents with Arabic 
language skills. The FBI considers these unique language needs as a 
factor when assigning special agents to these offices. As a matter of 
policy, all counterterrorism materials must be reviewed regardless of 
tier, and the highest priority materials must be reviewed within 
specified timeframes, depending on the availability of linguists 
proficient in the languages required.
    Question. Is the FBI working to recruit additional Arabic speakers?
    Lead-in information from original document.--
          Recently, social media accounts claiming to be associated 
        with the terror group ISIS posted threats against targeted 
        locations in Chicago, including the Old Republic Building at 
        307 N. Michigan Avenue.

    Answer. In an effort to address the Arabic language needs of the 
FBI, the Bureau's Foreign Language Program pursues a number of 
initiatives to recruit from ethnic Arabic and heritage speaker 
communities. The FBI continues to provide training for special agents 
in Arabic and has recently renewed an incentive program for foreign 
language use to develop in-house capacity.
    The FBI has been and continues to be successful in hiring new 
linguists in most languages, including Arabic. The FBI devised and 
implemented a workforce planning model with recruitment efforts 
targeted toward languages where there is a shortfall, particularly in 
those languages and dialects needed for higher priority investigations. 
The FBI also harnesses the flexibility of a mixed labor force of 
linguists consisting of full-time Government employees and contract 
linguists. Challenges to hiring Arabic linguists with specialized 
dialects or skills include competition between multiple Government 
agencies and private companies for the limited pool of such qualified 
linguist applicants.
    Question. How is the FBI currently monitoring social media to 
ensure high-profile target cities like Chicago are safe?
    Lead-in information from original document.--
          Recently, social media accounts claiming to be associated 
        with the terror group ISIS posted threats against targeted 
        locations in Chicago, including the Old Republic Building at 
        307 N. Michigan Avenue.

    Answer. The FBI uses many avenues to ensure the safety of 
communities nationwide; however, the FBI is bound by guidelines issued 
by the Attorney General that establish a consistent policy on when an 
investigation may be initiated. Through these guidelines, the FBI 
obtains authorization to collect information. The facts are analyzed 
and then used to prevent criminal or terrorist activity and, whenever 
possible, to aid in the arrest and prosecution of persons or groups who 
have violated the law.
                national gang intelligence center (ngic)
    Question. When will the NGIC produce another reliable assessment 
with data on gangs of national significance?
    Lead-in information from original document.--
          The National Gang Intelligence Center (NGIC) has received 
        bipartisan and bicameral Congressional support despite being 
        recommended for closure in the President's budget. The NGIC is 
        not only a tool for law enforcement, but also the Gang Threat 
        Assessments the NGIC produces help Congress identify threats 
        and build coalitions around fighting gangs of national 
        significance. The NGIC has not released an assessment since 
        2013, and has not released reliable gang member location data 
        since 2010.

    Answer. The NGIC produces the National Gang Report bi-annually. The 
most recent National Gang Report was published in 2013. The NGIC is now 
conducting analysis on survey data and other sources to produce the 
2015 National Gang Report. The anticipated release date is Fall/Winter 
2015.
    Question. Going forward, how will the FBI utilize the NGIC in its 
overall strategy to fight gangs of national significance?
    Lead-in information from original document.--
          The National Gang Intelligence Center (NGIC) has received 
        bipartisan and bicameral congressional support despite being 
        recommended for closure in the President's budget. The NGIC is 
        not only a tool for law enforcement, but also the Gang Threat 
        Assessments the NGIC produces help Congress identify threats 
        and build coalitions around fighting gangs of national 
        significance. The NGIC has not released an assessment since 
        2013, and has not released reliable gang member location data 
        since 2010.

    Answer. The FBI utilizes the NGIC as an integrated intelligence 
resource for identifying the growth, migration and criminal networks of 
gangs that pose a significant threat to communities throughout the 
United States. The NGIC supports participating agencies' gang 
investigations by providing remote and on-site analytical support to 
drive investigations. The FBI also utilizes the NGIC to conduct gang-
related training to Field Office personnel and local law enforcement.
    NGIC is a multi-agency gang ``fusion center'' and assists local, 
State and Federal agencies in coordinating and analyzing gang 
intelligence and serves as a focal point in obtaining gang-related 
intelligence information. NGIC plays a critical role in supporting the 
164 Safe Streets Violent Gang Task Forces across the country. NGIC 
analysts assist in providing both strategic and tactical intelligence 
products on gang activity throughout the Nation. NGIC plays a critical 
coordination role in obtaining and disseminating Bureau of Prison and 
Correctional Intelligence through its Correctional Intelligence Task 
Force.
                         online sex trafficking
    Question. During what span of years and how many times has the FBI 
raided and closed sex trafficking Web sites?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The FBI continuously assesses various online platforms/Web 
sites for their involvement with child sex trafficking and works with 
Federal prosecutors to bring cases against those who violate relevant 
Federal statutes. In 2014, the FBI seized myredbook.com and 
sfredbook.com. The seizure of these sites was the culmination of 
several years of investigative work and complex legal analysis. Eric 
Omuro, the owner of the sites pleaded guilty to using a facility of 
interstate commerce with the intent to facilitate prostitution. On May 
21, 2015, Omuro was sentenced to 13 months in prison. As part of his 
plea agreement, Omuro agreed to forfeit more than $1.28 million in cash 
and property as well as the sfRedBook.com and myRedBook.com domain 
names. According to an affidavit submitted in connection with the 
sentencing hearing, the FBI identified more than 50 juveniles who were 
also advertised on myRedBook for the purpose of prostitution. 
Furthermore, despite being contacted by NCMEC in 2010, myRedBook never 
registered to participate in the center's CyberTipline, which receives 
leads and tips regarding suspected crimes of sexual exploitation 
committed against children, and never communicated with NCMEC.
    Question. How does the FBI use Backpage.com as a tool to 
investigate sex trafficking?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The FBI reviews open source data for information that might 
be of evidentiary value to existing cases and/or justify the initiation 
of new cases.
    Question. Has the FBI subpoenaed Backpage.com regarding sex 
trafficking?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Yes. In investigations relating to Federal child sexual 
exploitation offenses, the FBI has the authority to issue and serve 
administrative subpoenas to seek information specified in 18 U.S.C. 
Section 2703(c)(2); that is: the name; address; local and long distance 
telephone connection records, or records of session times and 
durations; length of service (including start date) and types of 
service utilized; telephone or instrument number or other subscriber 
number or identity, including any temporarily assigned network address; 
and means and source of payment for such service (including any credit 
card or bank account number), of a subscriber to or customer of such 
service. The FBI has used this valuable investigative tool to obtain 
such information from Backpage.
    Question. Please describe the FBI's assessment of Backpage's level 
of cooperation that Backpage provides to the FBI.
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Backpage.com has been served with legal process in various 
investigations of individuals involved with ads on that Web site, and 
they have responded to these legal orders.
    Question. How many FBI agents has the FBI assigned to combat sex 
trafficking?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. In fiscal year 2015, the FBI has approximately 90 agents 
dedicated to the investigation of human trafficking offenses, including 
approximately 10 agents dedicated to investigating child sex tourism 
offenses.
    Question. In the FBI's analysis, is the FBI better able to combat 
sex trafficking with Backpage operating in its current form or with the 
FBI raising and closing Backpage?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The question assumes that there is currently sufficient 
evidence of criminal conduct to support a search and seizure of 
Backpage. The FBI cannot comment on this assumption. In general, the 
FBI does not confirm or deny the existence of any pending investigation 
nor does it comment on hypotheticals.
    Question. Over the last 3 years, how many sex trafficking victims 
has the FBI been involved with rescuing per year?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Due to the nature of adult sex trafficking cases, the fine 
line which can often be blurred between trafficking and prostitution 
for the worker, and the difficulty in bringing these cases to 
prosecution, generating an accurate number of adult victims rescued 
during any given year would not be representative of the FBI's work to 
combat this threat. However, between fiscal year 2012 and fiscal year 
2014 the FBI has opened over 1,000 human trafficking cases, in which 
approximately 70 percent of these opened cases have a sex trafficking 
nexus (250 cases in 2012, 248 cases in 2013, 308 cases in 2014 and 239 
in 2015 as of August 13, 2015). Additionally, from fiscal year 2012 
through fiscal year 2014, the FBI averaged more than 750 child rescues 
per year (approximately 600 in fiscal year 2012, approximately 850 in 
fiscal year 2013, and approximately 900 in fiscal year 2014).
    Question. What are the top five Federal districts with the greatest 
number of sex trafficking investigations?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Human trafficking efforts are encompassed in several 
different units at the FBI. The Civil Rights Unit is responsible for 
human and sex trafficking of adults, whereas the Innocence Lost 
National Initiative (within the Violent Crimes Against Children 
program) is responsible for trafficking of minors. The FBI tracks case 
statistics based on FBI Field Office jurisdictions, rather than Federal 
districts, and therefore cannot provide the top five Federal districts. 
However, in total, from fiscal year 2004 through fiscal year 2014, the 
FBI initiated more than 1,600 investigations and more than 650 
individuals were convicted of human trafficking violations.
    Question. In the Northern District of Illinois during 2009-2014, 
the FBI has conducted how many sex trafficking investigations?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The FBI does not track cases by judicial district. However, 
between fiscal year 2009 and fiscal year 2014 the FBI Chicago field 
division has conducted 199 sex trafficking investigations. This 
encompasses both child and adult victims.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                           isis cyber hacking
    Question. How is the FBI handling our Nation's cyber security 
breaches, especially the cyber hacking led by ISIS?
    Answer. Based on the results of the FBI's investigations and 
collaboration with our U.S. Government and international partners, the 
FBI assesses, as of April 2015, the Islamic State of Iraq and the 
Levant (ISIL) has a low capability to conduct offensive cyber 
operations with the potential to affect U.S. networks and damage 
critical U.S. infrastructure. An ``Islamic State Hacking Division'' 
claimed to have hacked ``U.S. military databases'' and released the 
names and addresses of 100 U.S. military members on various social 
media and file sharing sites on 20 March 2015. However, actual 
compromise of U.S. networks has not been confirmed; the material 
appears to have originated from open sources.
    Over the past 6 months, the FBI has observed an increase in pro-
ISIL extremist hackers carrying out nuisance attacks against vulnerable 
public websites and social media accounts, disrupting those sites for 
short periods of time and/or using the access to those accounts to post 
pro-ISIL imagery and propaganda. These hackers, while espousing views 
in support of ISIL, are not believed to have connections with, or 
receive any direction from, ISIL leadership.
                     fbi whistleblowers gao report
    Question. According to GAO, compared with other Federal agencies, 
FBI whistleblowers have less protection against retaliation by 
management, the GAO and current procedures could discourage 
whistleblowing.'' Is the FBI moving forward and reforming this policy?
    Answer. The FBI has two policies related to whistleblower 
protections. Among other things, our policy entitled ``FBI 
Whistleblower Policy'' (policy directive 0272D) identifies the types of 
protected disclosures (reports of mismanagement, gross waste of funds, 
abuse of authority, substantial and specific danger to public health or 
safety, and violation of any law, rule, or regulation), the authorities 
to whom protected disclosures are made, and the responsibility of FBI 
managers to ensure that whistleblowers are not subject to reprisal.
    A more recent policy provides additional protections. The purpose 
of the 2014 policy entitled ``Non-Retaliation for Reporting Compliance 
Risks'' (policy directive 0727D) ``is to provide an effective process 
for all Federal Bureau of Investigation (FBI) personnel to express 
concerns or report potential violations regarding the FBI's legal and 
regulatory compliance, without retaliation, and to encourage the 
reporting of any such concerns.'' This policy emphasizes that ``[t]he 
FBI is committed to creating and sustaining a culture of compliance 
that promotes open communication, including open and candid discussion 
of concerns about compliance with applicable laws, regulations, and 
Department of Justice (DOJ) and FBI policies'' (Section 8.1.1) and 
makes clear that ``FBI personnel are strictly prohibited from 
retaliating against anyone for reporting a compliance concern'' 
(Section 8.1.2). Protected compliance concerns may be reported to: the 
FBI Office of Integrity and Compliance (OIC), the OIC Helpline (which 
accepts anonymous calls), division compliance officers, the Division 
Compliance Council, or any supervisor in the reporting employee's chain 
of command. This policy explicitly provides that it ``does not add to, 
or subtract from, the whistleblower protections provided to FBI 
personnel under 5 U.S.C. Sec. 2303, the DOJ regulations set forth in 28 
CFR Part 27, Intelligence Community Directive (ICD) 120, or Policy 
Directive (PD) 0272D, FBI Whistleblower Policy.'' (Section 8.5.1.)
    The FBI believes that whistleblowers play an important role in 
discovering and preventing waste, fraud, and abuse in the Government. 
The FBI is working with the Department to improve the process for 
adjudicating claims of retaliation. These changes will ensure that the 
Department has a fair and efficient process for adjudicating these 
claims, and include expanding the list of persons to whom a protected 
disclosure may be made.
                     human trafficking legislation
    Question. As you may know, the Senate is currently considering 
human trafficking legislation. I don't think many people realize the 
scope of this issue in our own country. Can you discuss FBI initiatives 
to combat human trafficking? What can Congress do to help?
    Answer. In 2003, the FBI, in conjunction with the Department of 
Justice Child Exploitation and Obscenity Section and the National 
Center for Missing and Exploited Children (NCMEC), launched the 
Innocence Lost National Initiative (ILNI). Through approximately 70 
FBI-led Child Exploitation Task Forces (CETF), the FBI collaborates 
with nearly 400 local, State, and Federal law enforcement partners to 
identify and prosecute those individuals, enterprises, and businesses 
that exploit children, including those who facilitate the domestic sex 
trafficking of children. As of April 2015, the joint efforts of these 
groups have resulted in approximately 4,550 child recoveries and the 
conviction in State and Federal courts of nearly 2,000 child sex 
traffickers. In support of the ILNI, the FBI is currently engaged in a 
significant project to improve its technical capabilities in 
identifying online indicators of child sex trafficking. This tool will 
more effectively compare open source data with existing law enforcement 
and non-governmental organizations (NGO) databases.
    The FBI participates in over 120 Human Trafficking Task Forces and 
Working Groups to address sex and labor trafficking of adults in the 
United States and abroad, where appropriate, such as a link to 
victimization of individuals in the United States. These task forces 
and working groups partner with Federal, tribal, State and local law 
enforcement entities, as well as NGOs to assist investigations, 
prosecutions and with providing victim services. Each FBI Field Office 
has personnel assigned to investigate human trafficking cases. 
Additionally, Field Office and headquarters personnel regularly conduct 
training on human trafficking awareness and investigation. Audiences of 
such training include Federal, tribal, State and local law enforcement 
officers, government personnel, NGOs, victim service providers, 
community leaders, immigration aid workers, medical personnel, 
hospitality industry workers, faith-based organizations and students at 
the high school and collegiate level.
    The FBI is currently engaged in numerous national initiatives 
designed to address sex trafficking in the U.S. associated with massage 
parlors, and trafficking from abroad, particularly via Transnational 
Organized Crime organizations. Additionally, in partnership with the 
Departments of State and Homeland Security, the FBI is part of an 
initiative to train personnel in various embassies and diplomatic posts 
around the world in an effort to address potential human trafficking 
before potential victims travel to the U.S. This initiative will also 
enhance cooperation between U.S. law enforcement personnel abroad and 
their host-nation law enforcement and NGO partners.
    The FBI will continue to update Congress on the status of ongoing 
programs and looks forward to working together to address Human 
Trafficking issues.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      fbi surveillance technology
    Question. Under the FBI's current policies relating to the use of 
cell-site simulators, how many times has the FBI employed such a device 
without prior court approval, and what were the reasons for doing so? 
What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. On September 3, 2015, the Department of Justice announced a 
new policy for its use of cell-site simulators that will enhance 
transparency and accountability, improve training and supervision, 
establish a higher and more consistent legal standard and increase 
privacy protections in relation to law enforcement's use of this 
critical technology.
    The policy, which applies Department-wide, will provide Department 
components with standard guidance for the use of cell-site simulators 
in the Department's domestic criminal investigations and will establish 
new management controls for the use of the technology. Cell-site 
simulator technology has been instrumental in aiding law enforcement in 
a broad array of investigations, including kidnappings, fugitive 
investigations and complicated narcotics cases. This new policy ensures 
the Department's protocols for this technology are consistent, well-
managed and respectful of individuals' privacy and civil liberties.
    To enhance privacy protections, the new policy establishes a set of 
required practices with respect to the treatment of information 
collected through the use of cell-site simulators. This includes data 
handling requirements and an agency-level implementation of an auditing 
program to ensure that data is deleted consistent with this policy. For 
example, when the equipment is used to locate a known cellular device, 
all data must be deleted as soon as that device is located, and no less 
than once daily. Additionally, the policy makes clear that cell-site 
simulators may not be used to collect the contents of any communication 
in the course of criminal investigations. This means data contained on 
the phone itself, such as emails, texts, contact lists and images, may 
not be collected using this technology.
    While the Department has, in the past, obtained appropriate legal 
authorizations to use cell-site simulators, law enforcement agents must 
now obtain a search warrant supported by probable cause before using a 
cell-site simulator. There are limited exceptions in the policy for 
exigent circumstances or exceptional circumstances where the law does 
not require a search warrant and circumstances make obtaining a search 
warrant impracticable. Department components will be required to track 
and report the number of times the technology is deployed under these 
exceptions. To ensure that the use of the technology is well managed 
and consistent across the Department, the policy requires appropriate 
supervision and approval.
    Question. Since 2001, how many cell-site simulators has the FBI 
purchased or obtained from another Government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
FBI's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. On September 3, 2015, the Department of Justice announced a 
new policy for its use of cell-site simulators that will enhance 
transparency and accountability, improve training and supervision, 
establish a higher and more consistent legal standard and increase 
privacy protections in relation to law enforcement's use of this 
critical technology.
    The policy, which applies Department-wide, will provide Department 
components with standard guidance for the use of cell-site simulators 
in the Department's domestic criminal investigations and will establish 
new management controls for the use of the technology. Cell-site 
simulator technology has been instrumental in aiding law enforcement in 
a broad array of investigations, including kidnappings, fugitive 
investigations and complicated narcotics cases. This new policy ensures 
the Department's protocols for this technology are consistent, well-
managed and respectful of individuals' privacy and civil liberties.
    To enhance privacy protections, the new policy establishes a set of 
required practices with respect to the treatment of information 
collected through the use of cell-site simulators. This includes data 
handling requirements and an agency-level implementation of an auditing 
program to ensure that data is deleted consistent with this policy. For 
example, when the equipment is used to locate a known cellular device, 
all data must be deleted as soon as that device is located, and no less 
than once daily. Additionally, the policy makes clear that cell-site 
simulators may not be used to collect the contents of any communication 
in the course of criminal investigations. This means data contained on 
the phone itself, such as emails, texts, contact lists and images, may 
not be collected using this technology.
    While the Department has, in the past, obtained appropriate legal 
authorizations to use cell-site simulators, law enforcement agents must 
now obtain a search warrant supported by probable cause before using a 
cell-site simulator. There are limited exceptions in the policy for 
exigent circumstances or exceptional circumstances where the law does 
not require a search warrant and circumstances make obtaining a search 
warrant impracticable. Department components will be required to track 
and report the number of times the technology is deployed under these 
exceptions. To ensure that the use of the technology is well managed 
and consistent across the Department, the policy requires appropriate 
supervision and approval.
    Question. Does the FBI maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The FBI uses its license plate readers (LPR) as an 
investigative technique. FBI LPR systems may only be deployed in 
support of predicated investigations, and there must be a reasonable 
belief that LPR will aid that investigation. Deployment must be 
approved by the investigating Field Office's Chief Division Counsel and 
a Supervisory Special Agent.
    By default, records are retained for 90 days. Records deemed as 
pertinent to the investigation may be retained for up to 25 years, or 
as needed by the investigation. All other records are permanently 
discarded after the 90 day retention period has expired.
    Currently, the FBI has approximately 140 LPR cameras throughout the 
U.S. which are deployed as required to support specific investigations. 
No external agency currently has access to the FBI's LPR database.
                       privacy impact assessment
    Question. Has the FBI conducted a PIA of its domestic drone use?
    Lead-in information from original document.--
          Under the E-Government Act of 2002 and Justice Department 
        guidelines, the FBI is required to conduct and release a 
        Privacy Impact Assessment (PIA) prior to deploying new 
        technologies that collect, maintain, or disseminate personal 
        information. While an interim DOJ OIG report in 2013 indicated 
        that the FBI has been deploying drones to support its mission 
        since 2006, the FBI has either not developed, or failed to 
        release a PIA. By comparison, the Department of Homeland 
        Security has publicly released two PIA's of its drone 
        operations.

    Answer. No, the FBI continues to work with the DOJ Office of 
Privacy and Civil Liberties to evaluate the privacy implications of its 
investigative techniques to determine when or if a PIA is required.
    Question. If so, please provide copies of all PIA's and if not, 
please explain why a PIA has not been conducted.
    Lead-in information from original document.--
          Under the E-Government Act of 2002 and Justice Department 
        guidelines, the FBI is required to conduct and release a 
        Privacy Impact Assessment (PIA) prior to deploying new 
        technologies that collect, maintain, or disseminate personal 
        information. While an interim DOJ OIG report in 2013 indicated 
        that the FBI has been deploying drones to support its mission 
        since 2006, the FBI has either not developed, or failed to 
        release a PIA. By comparison, the Department of Homeland 
        Security has publicly released two PIA's of its drone 
        operations.

    Answer. The FBI is fully committed to transparency while protecting 
information whose release could compromise law enforcement efforts or 
national security, as indicated in President Obama's Memorandum. 
Currently, UAS are used in a way such that they provide the same 
information that was available through the use of manned aircraft. Were 
this to change, a legal review would be conducted first, in order to 
ensure compliance with relevant statutes, regulations, the President's 
memorandum, and FBI policies. The FBI continues to work with the DOJ 
UAS working group, which includes the DOJ Office of Privacy and Civil 
Liberties, to identify UAS issues and develop all appropriate 
guidelines. A PIA exists for the Sentinel system, which is the only 
system which retains UAS information, as does a System of Records 
Notice (SORN) for the Central Records System. Both of these are 
publicly available and speak to the FBI's treatment and storage of its 
investigative records. The FBI continually evaluates the privacy 
implications of its investigative techniques.
    Question. Will you commit to making any past and all future PIA's 
publicly available?
    Lead-in information from original document.--
          Under the E-Government Act of 2002 and Justice Department 
        guidelines, the FBI is required to conduct and release a 
        Privacy Impact Assessment (PIA) prior to deploying new 
        technologies that collect, maintain, or disseminate personal 
        information. While an interim DOJ OIG report in 2013 indicated 
        that the FBI has been deploying drones to support its mission 
        since 2006, the FBI has either not developed, or failed to 
        release a PIA. By comparison, the Department of Homeland 
        Security has publicly released two PIA's of its drone 
        operations.

    Answer. The FBI is committed to making PIAs available as required 
by law. Any PIAs released by the FBI will be available on both the 
FBI's and DOJ's public Web site.
          senate judiciary questions for the record from 2014
    Question. Please provide answers to those questions as soon as 
possible.
    Lead-in information from original document.--
          On May 21, 2014, you appeared before the Senate Judiciary 
        Committee to testify for the first time as Director of the FBI. 
        I submitted several questions for the record, stemming from 
        testimony by former Director Mueller on the FBI's use of 
        drones, inquiring about measures the FBI was taking to protect 
        Americans' privacy rights. To date, I have yet to receive a 
        response to those questions.

    Answer. The FBI's responses to the May 21, 2014 Questions for the 
Record were provided to the Senate Judiciary Committee by DOJ on July 
2, 2015.
                memorandum on unmanned aircraft systems
    Question. As the FBI works to implement these measures, please 
provide clarification on the Bureau's interpretation of this 
memorandum.
    Lead-in information from original document.--
          On February 15, 2015, President Obama signed a Memorandum on 
        Unmanned Aircraft Systems, establishing principles to oversee 
        the Government's use of domestic drones. The guidelines include 
        important transparency measures and rules to ensure that 
        privacy protections keep pace with new technologies. However, 
        the transparency provision contains an exception for law 
        enforcement and the privacy protections section fails to define 
        what constitutes new drone technology.

    Answer. The FBI is fully committed to transparency while protecting 
information whose release could compromise law enforcement efforts or 
national security, as indicated in President Obama's Memorandum and the 
Department of Justice's Policy Guidance. Currently, UAS are used in a 
way such that they provide the same information that was available 
through the use of manned aircraft. Were this to change, a legal review 
would be conducted first, in order to ensure compliance with relevant 
statutes, regulations, the President's memorandum, and FBI policies.
    As with any investigative technique, the use of UAS must balance 
the intrusiveness of the technique against investigative needs. 
Additionally, the use of UAS must be approved by an Assistant Special 
Agent in Charge or someone with equivalent (or greater) seniority, and 
the FBI's Senior Component Official for Privacy must conduct an annual 
review of the FBI's use of UAS.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
            president's task force on 21st century policing
    Question. Please describe how the FBI will incorporate the 
recommendations of the President's Task Force on 21st Century Policing 
into its existing training programs for State and local law 
enforcements, in particular those recommendations related to improving 
community relations, developing appropriate use of force standards, 
encouraging the adoption of ``least harm'' preferences and the use of 
less than lethal technology, and addressing racial and other profiling 
and bias in policing.
    Lead-in information from original document.--
          The interim report of the President's Task Force on 21st 
        Century Policing provides numerous recommendations to Federal 
        law enforcement and other agencies, including the FBI, to help 
        change law enforcement culture, increase community 
        collaboration and engagement, develop new technology, support 
        training, and promote officer safety and wellness. As trusted 
        partners to State and local law enforcement, FBI and the 
        Justice Department have a unique opportunity to leverage their 
        expertise and resources to help drive change in law enforcement 
        at all levels and throughout country.

    Answer. The FBI will continue to work with DOJ and the 
administration to implement the recommendations of the President's Task 
Force on 21st Century Policing report. The FBI will focus on 
partnership engagement and the reports key topics: building law 
enforcement trust and legitimacy, potential policy changes, technology 
and social media enhancements, community policing and crime reduction 
practices, training and educational opportunities, and officer wellness 
and safety. To date the FBI National Academy Advisory Board has met on 
multiple occasions to discuss the final report as well as how the 
National Academy Training program can incorporate recommendations into 
its curriculum. The FBI continues to coordinate efforts with the 
International Association of Chiefs of Police (IACP), the National 
Sheriffs' Association, and other law enforcement associations to build 
additional support for increased participation among local, State, and 
tribal partners. Also, the FBI understands the importance of uniformed 
crime reporting and will continue to work to increase implementation of 
the National Incident-Based Reporting System (NIBRS). Overall the FBI 
will continue to engage its partners in the law enforcement community 
on these issues and will continue to strive to lead by example.
    Question. Please describe how the FBI and the Department of Justice 
will continue to engage members of law enforcement, community leaders 
and others in implementing the recommendations of the President's Task 
Force and identifying additional areas for potential improvements in 
police practices.
    Lead-in information from original document.--
          The interim report of the President's Task Force on 21st 
        Century Policing provides numerous recommendations to Federal 
        law enforcement and other agencies, including the FBI, to help 
        change law enforcement culture, increase community 
        collaboration and engagement, develop new technology, support 
        training, and promote officer safety and wellness. As trusted 
        partners to State and local law enforcement, FBI and the 
        Justice Department have a unique opportunity to leverage their 
        expertise and resources to help drive change in law enforcement 
        at all levels and throughout country.

    Answer. The FBI will continue to work with DOJ and the 
administration to implement the recommendations of the President's Task 
Force on 21st Century Policing report. The FBI will focus on 
partnership engagement and the reports key topics: building law 
enforcement trust and legitimacy, potential policy changes, technology 
and social media enhancements, community policing and crime reduction 
practices, training and educational opportunities, and officer wellness 
and safety. To date the FBI National Academy Advisory Board has met on 
multiple occasions to discuss the final report as well as how the 
National Academy Training program can incorporate some of the 
recommendations into its curriculum. The FBI continues to coordinate 
efforts with the International Association of Chiefs of Police (IACP), 
the National Sheriffs' Association, and other law enforcement 
associations to build additional support for increased participation 
among local, State, and tribal partners. Also, the FBI understands the 
importance of uniformed crime reporting and will continue to work to 
increase implementation of the National Incident-Based Reporting System 
(NIBRS). Overall the FBI will continue to engage its partners in the 
law enforcement community on these issues and will continue to strive 
to lead by example.
    Question. Please describe how the FBI or other Department of 
Justice components will use current grant programs to incentivize the 
adoption of the Task Force's recommendations by State and local law 
enforcement agency grantees, and what additional funding, either for 
existing grants or new programs, would support the implementation of 
the recommendations.
    Lead-in information from original document.--
          The interim report of the President's Task Force on 21st 
        Century Policing provides numerous recommendations to Federal 
        law enforcement and other agencies, including the FBI, to help 
        change law enforcement culture, increase community 
        collaboration and engagement, develop new technology, support 
        training, and promote officer safety and wellness. As trusted 
        partners to State and local law enforcement, FBI and the 
        Justice Department have a unique opportunity to leverage their 
        expertise and resources to help drive change in law enforcement 
        at all levels and throughout country.

    Answer. The FBI will continue to work with DOJ and the 
administration to implement the recommendations of the President's Task 
Force on 21st Century Policing report. The FBI will focus on 
partnership engagement and the reports key topics: building law 
enforcement trust and legitimacy, potential policy changes, technology 
and social media enhancements, community policing and crime reduction 
practices, training and educational opportunities, and officer wellness 
and safety. To date the FBI National Academy Advisory Board has met on 
multiple occasions to discuss the final report as well as how the 
National Academy Training program can incorporate some of the 
recommendations into its curriculum. The FBI continues to coordinate 
efforts with the International Association of Chiefs of Police (IACP), 
the National Sheriffs' Association, and other law enforcement 
associations to build additional support for increased participation 
among local, State, and tribal partners. Also, the FBI understands the 
importance of uniformed crime reporting and will continue to work to 
increase implementation of the National Incident-Based Reporting System 
(NIBRS). The FBI is working with DOJ on a funding strategy for States 
to implement NIBRS. Overall the FBI will continue to engage its 
partners in the law enforcement community on these issues and will 
continue to strive to lead by example.
                                 ______
                                 
              Questions Submitted to Hon. Stacia A. Hylton
                     UNITED STATES MARSHALS SERVICE
            Questions Submitted by Senator Richard C. Shelby
                         adam walsh act funding
    Question. How successful has the Marshals Service been in recent 
years in apprehending fugitive sex offenders?
    Lead-in information from original document.--
          The Adam Walsh Child Protection and Safety Act tasks the 
        Marshals Service with apprehending fugitive sex offenders--
        convicted criminals who have committed heinous acts and are 
        required to maintain updated registration records about 
        themselves. The 2016 budget requests $61 million for the 
        Marshals Service Sex Offender investigators, which includes 
        additional funds for training, operations, software licensing, 
        and computer database fees to help agents do their jobs more 
        effectively.

    Answer. In fiscal year 2014, USMS arrested 11,206 fugitive sex 
offenders, which resulted in the clearance of 13,345 warrants. As of 
the second quarter of fiscal year 2015, USMS has arrested 3,836 
fugitive sex offenders and cleared 5,448 outstanding warrants.
    In addition, the USMS Sex Offender Investigations Branch has 
obtained 4,130 warrants for Federal prosecution of AWA-related 
offenses, and has cleared 3,362 (81 percent) of those warrants by USMS 
arrest since fiscal year 2006.
    Question. How would this increased funding in 2016 help to catch 
more fugitive sex offenders?
    Lead-in information from original document.--
          The Adam Walsh Child Protection and Safety Act tasks the 
        Marshals Service with apprehending fugitive sex offenders--
        convicted criminals who have committed heinous acts and are 
        required to maintain updated registration records about 
        themselves. The 2016 budget requests $61 million for the 
        Marshals Service Sex Offender investigators, which includes 
        additional funds for training, operations, software licensing, 
        and computer database fees to help agents do their jobs more 
        effectively.

    Answer. The program increase of $4.7 million for fiscal year 2016 
will provide:
  --Operational support for costs associated with investigative 
        coordination among the USMS and participating State and local 
        law enforcement agencies.
  --Funding for basic and advanced sex offender investigative 
        coordinators training and other courses necessary to provide 
        continuing education to the USMS Sex Offender Investigators.
  --Funding for technology development required by investigators to 
        fulfill the AWA mission.
    The additional funding would help increase fugitive sex offender 
arrests and result in more Federal cases presented to the U.S. 
Attorneys' Offices for prosecution of 18 U.S.C. Sec. 2250. As part of 
the USMS AWA mission, the USMS works with its State, local, tribal, and 
territorial counterparts to carry out operations to identify non-
compliant sex offenders.
    In addition, increased funding would allow the USMS to expand its 
outreach to more tribal territories and further assist them in 
strengthening their compliance efforts on tribal lands.
    Without this increase, static operational funds will limit 
increased collaboration with partners and restrict travel for 
interviews and evidence, which may impact successful prosecutions.
    Question. How does the Marshals Service staff coordinate with State 
and local law enforcement agencies to achieve better results in the 
apprehension of these fugitives?
    Lead-in information from original document.--
          The Adam Walsh Child Protection and Safety Act tasks the 
        Marshals Service with apprehending fugitive sex offenders--
        convicted criminals who have committed heinous acts and are 
        required to maintain updated registration records about 
        themselves. The 2016 budget requests $61 million for the 
        Marshals Service Sex Offender investigators, which includes 
        additional funds for training, operations, software licensing, 
        and computer database fees to help agents do their jobs more 
        effectively.
    Answer. The AWA mandates that the USMS assist State, local, tribal, 
and territorial agencies in locating and apprehending sex offenders who 
violate their sex offender registration requirements. To accomplish 
this mission, the USMS has more than 100 deputies who are assigned to 
investigate non-compliant sex offenders on a full-time basis. These 
deputies are in regular contact with their State, local, tribal, and 
territorial counterparts who administer their respective sex offender 
registries.
    In fiscal year 2015, the USMS, in a coordinated effort with its 
National Sex Offender Targeting Center (NSOTC), will be conducting two 
separate three-day training sessions devoted solely to State and local 
sex offender investigators. This training will help familiarize 
personnel with the USMS AWA mission and encourage them to utilize the 
resources of the USMS in their sex offender compliance mission. 
Additionally, the USMS and NSOTC plan to coordinate at least two 
separate tribal working groups, which will bring together USMS, State, 
local, and tribal officials to discuss differences in sex offender 
compliance efforts and ways to better coordinate them. The NSOTC is 
also working with the Department of Defense (DOD), to share its 
institutional knowledge to properly implement the Sex Offender 
Registration and Notification Act (SORNA). The NSOTC has initially 
selected seven major installations to facilitate the transition and 
implementation of the SORNA. To date, the USMS has helped conduct two 
military outreach sessions at Ft. Hood, Texas, and Joint Base McChord, 
Washington.
    In fiscal year 2014, the USMS assisted in 355 compliance and 
enforcement operations, including 26 operations on tribal lands. To 
date, in fiscal year 2015, the USMS has assisted in 155 compliance and 
enforcement operations, including five on tribal lands. Since the 
inception of the AWA in 2006, the USMS has assisted with the execution 
of 1,775 compliance and enforcement operations resulting in compliance 
checks of more than 253,000 sex offenders. These operations are 
conducted not only to locate and apprehend non-compliant sex offenders, 
but are also designed to assist the State, local, and tribal agencies 
maintain a more accurate and current sex offender registry. To 
accomplish this, the USMS has partnered with more than 31,000 law 
enforcement officers from over 8,100 State, local, tribal, and 
territorial agencies.
                                 ______
                                 
           Question Submitted by Senator Barbara A. Mikulski
               stopping human trafficking and pedophiles
    Question. How many Deputy U.S. Marshals are currently dedicated to 
full-time Adam Walsh Act enforcement? What additional resources or 
authorities are needed to track and arrest the over 100,000 non-
compliant sex offenders in the United States?
    Answer. In fiscal year 2015, the USMS has 150 fully dedicated 
personnel working on Adam Walsh Act enforcement activities, including 
132 Deputy U.S. Marshals covering each judicial district in the United 
States. The support staff involved in everyday operations of the AWA 
mission is equally as vital. Analysts and administrative employees 
assist those investigators in the field and provide critical support in 
order to achieve this enforcement mission. The USMS believes that the 
current staffing level provides adequate coverage to go after the 
``worst of the worst'' offenders. Subsequent budget requests will re-
examine staffing levels based on workload, change in business 
practices, recent statutes and mandates, and audit findings, to ensure 
that resources are necessary to track and arrest an estimated 100,000 
non-compliant sex offenders of the approximately 819,218 sex offenders 
living in the United States.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                           counter gang units
    Question. How are the Marshals prepared and planning to continue 
this program and what resources are required to maintain these units 
dedicated to gang enforcement?
    Lead-in information from original document.--
          I commend the Marshals Service for having a Counter Gang Unit 
        up and running in the Great Lakes Regional Task Force that 
        serves Chicago. In fiscal year 2015, Congress appropriated $7.5 
        million to the Marshals Service to form Counter Gang Units in 
        each of the seven regional task forces to combat gangs; 
        however, your fiscal year 2016 budget request does not 
        specifically set aside funds for counter gang units.

    Answer. The USMS has taken proactive measures to continue running 
its Gang Enforcement Program. These measures have been built upon the 
initial $7.5 million from USMS base resources in fiscal year 2014. In 
the 2015 Senate Appropriations Committee Report (H.R. 113-181), the 
subcommittee directed that with the amount provided in the budget 
request, the USMS shall dedicate no less than $5 million to operate 
anti-gang investigative units within the RFTFs, including supporting 
the supervisory, operational, equipment, and training needs of these 
units, in order to target gangs of national significance.
    Currently, each of the seven USMS Counter Gang Units (CGUs) is 
operating on a daily basis to identify, target, disrupt or dismantle 
violent street gangs. The CGUs were established within the existing 
infrastructure of each of the USMS Regional Fugitive Task Forces 
(RFTFs). These highly unique and specialized units operate efficiently 
and effectively with long standing partnerships with Federal, State, 
and local law enforcement agencies. Expenses, such as overtime, vehicle 
and equipment purchases, and training, incurred by the USMS's State and 
local partners are primarily funded by the Asset Forfeiture Program's 
Joint Law Enforcement Operations (JLEO).
    Question. Can you elaborate upon the successes of your counter gang 
program over the last fiscal year?
    Lead-in information from original document.--
          I commend the Marshals Service for having a Counter Gang Unit 
        up and running in the Great Lakes Regional Task Force that 
        serves Chicago. In fiscal year 2015, Congress appropriated $7.5 
        million to the Marshals Service to form Counter Gang Units in 
        each of the seven regional task forces to combat gangs; 
        however, your fiscal year 2016 budget request does not 
        specifically set aside funds for counter gang units.

    Answer. Since establishing the seven CGUs in fiscal year 2014, 
these units have been responsible for the arrest of more than 1,500 
gang members, as well as the seizure of more than $830,000 in U. S. 
currency, 16 kilograms of illegal narcotics, and more than 170 illegal 
firearms. Additionally, the Technical Operations Group (TOG) assigned 
to the CGUs has been responsible for more than 400 additional arrests 
of violent offenders.
    The success of the CGUs is built on the ability to target the most 
violent and dangerous offenders and by continuing to disrupt and 
dismantle the prevalent gangs that are causing the conflicts within 
local communities. By going after and weeding out the most pernicious 
gang members, the USMS and its law enforcement partners are able to 
make a positive difference in the affected communities. The CGUs, 
combined with resources from a variety of law enforcement agencies, 
operate as a cohesive powerhouse of intellect, knowledge, and 
investigative expertise.
    Question. Going forward how can this subcommittee further assist 
the Marshals Service in the apprehension of not just gang members, but 
human traffickers, cyber criminals, and other fugitives?
    Lead-in information from original document.--
          I commend the Marshals Service for having a Counter Gang Unit 
        up and running in the Great Lakes Regional Task Force that 
        serves Chicago. In fiscal year 2015, Congress appropriated $7.5 
        million to the Marshals Service to form Counter Gang Units in 
        each of the seven regional task forces to combat gangs; 
        however, your fiscal year 2016 budget request does not 
        specifically set aside funds for counter gang units.

    Answer. The USMS appreciates the subcommittee's continued support 
to its enforcement missions. The USMS will continue its Counter Gang 
Unit operations within the Regional Fugitive Task Forces in fiscal year 
2016. The subcommittee can further assist the Marshals Service 
apprehend human traffickers, cyber criminals, and other fugitives by 
supporting the President's budget request.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
 assets forfeiture fund vs federal prisoner detention funds to sustain 
                                 costs
    Question. Will the U.S. Marshals be able to sustain their costs by 
continuing to use the Asset Forfeiture Funds as opposed to the Federal 
Prisoner Detention (FPD) funds?
    Answer. In fiscal year 2014, the Assets Forfeiture Fund received a 
one-time deposit of $1.2 billion related to a civil forfeiture action 
against Toyota Motor Corporation, resulting in excess unobligated 
balances in the account. In fiscal year 2015, those excess balances 
will be depleted because they are being used for Federal Prisoner 
Detention related expenses, pursuant to The Consolidated and Further 
Continuing Appropriations Act, 2015. The Assets Forfeiture Program does 
not currently project any excess unobligated balances in fiscal year 
2016. Although excess forfeiture funds are not available in fiscal year 
2016, the USMS would be able to sustain its projected detention costs 
for fiscal year 2016 if the USMS is provided FPD funding at the 
President's Budget level of $1.4 billion.
             u.s. marshals service special operations group
    Question. Can you discuss your Special Operations Group and their 
support to domestic and international missions?
    Answer. The U.S. Marshals Service Special Operations Group (SOG) is 
a flexible, modernized unit with a diverse skill set that conducts 
specialty operations in any environment both within and outside the 
United States. The SOG comprises competitively selected Deputy U.S. 
Marshals that receive specialized training used to enhance the tactical 
capabilities of the Marshals Service both domestically and 
internationally. The SOG is often requested by other law enforcement 
agencies and the Marshals Service to bring its distinctive skills to 
support special missions. Modern law enforcement must have the 
capability to defend against dangerous criminals that often have 
considerable weaponry, tactical advantage and intent to use these 
weapons against law enforcement and the public. The SOG has the 
capacity to strengthen and reinforce standard law enforcement against 
these dangerous criminals. The SOG is different from a standard Special 
Weapons and Tactics (SWAT) unit. A SWAT unit operates in a singular 
environment with a limited scope of authority in support of local law 
enforcement whereas the SOG is a national support unit capable of 
responding anywhere in the United States and abroad in support of 
enforcement operations as well as humanitarian relief and national 
crises.
Notable Domestic Operations:
  --Capture of Eric Frein.--The SOG personnel were involved in the 
        manhunt and capture of Eric Frein in Pennsylvania. Frein is 
        accused of assassinating Pennsylvania State Trooper Jamie 
        Dickson and wounding another Trooper before his capture.
  --Ferguson, Missouri.--The SOG deployed to support Ferguson, MO 
        during the civil unrest. The mission was to protect the Federal 
        courthouse and DOJ attorneys who met with Ferguson city 
        officials and the Michael Brown family when the verdict was 
        delivered.
  --Boston Marathon Bomber.--The SOG has sole responsibility for the 
        transport and custody of Dzhokhar Tsarnaev. SOG is currently 
        providing a quick reaction force and overall security to the 
        ongoing trial in the Federal District of Massachusetts.
  --Libyan Terrorist Abu Khatallah.--The SOG is providing security and 
        trial transportation for this high risk prisoner who is accused 
        of murdering U.S. Ambassador Christopher Stevens and three 
        American security officers in Benghazi, Libya in 2012.
  --Gang Enforcement.--Conducted multiple rotations to assist in the 
        national gang enforcement operation known as VR-7 (violence 
        reduction--7 cities) at multiple locations throughout the 
        United States.
  --Heroin.--In the Federal District of Arizona, the SOG members 
        executed search and arrest warrants against high value Mexican 
        Cartel members involved in smuggling weapons, cocaine, heroin, 
        and methamphetamines.
Notable International Operations:
  --Iraq.--From 2003 to 2009, the SOG was responsible for establishing 
        judicial security throughout Iraq. During this timeframe, this 
        unit coordinated all security for the prosecution of Saddam 
        Hussein. The SOG deputies protected international attorneys, 
        Iraqi trial judges, and U.S. Department of Justice personnel 
        assigned to assist in the trial.
  --Afghanistan.--From 2007 until 2014, the SOG was tasked with 
        creating and sustaining the judicial security unit of the 
        Afghan National Police. This unit started with 6 officers and 
        by the end of SOG's withdrawal from Afghanistan in 2014, the 
        unit was fully staffed with 1,063 fully equipped personnel 
        trained in current methods and procedures for judicial 
        security.
  --The SOG was called on to provide additional protection for the U.S. 
        Drug Czar during his trips to Afghanistan.
  --The SOG supported the Office of National Drug Control Policy 
        (ONDCP) with tactical personnel while the Director of ONDCP 
        traveled to the opium poppy fields in the Helmand Province.
  --Kenya.--The SOG conducted a high risk extradition from Nairobi, 
        Kenya to the United States which required a level of 
        sophisticated medical knowledge that is a part of the unit's 
        training.
  --Mexico.--The SOG assisted USMS Investigative Operations Division, 
        International Investigations Branch with the Merida Training 
        program in Mexico. This unit provided instruction to the 
        Mexican Federal Police Advanced Special Response Teams (SRT). 
        Classes included driving, dignitary protection, tactical 
        shooting, building entry and tactical trauma medicine.
  --Colombia.--In fiscal year 2014, the SOG began its assistance to the 
        USMS Training Division with Operation Plan Colombia. The SOG 
        provided instructors and subject matter experts to assist with 
        the dignitary and witness protection training.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      usms surveillance technology
    Question. Under the USMS's current policies relating to the use of 
cell-site simulators, how many times has the USMS employed such a 
device without prior court approval, and what were the reasons for 
doing so? What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Since 2001, how many cell-site simulators has the USMS 
purchased or obtained from another Government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
USMS's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Does the USMS maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The USMS deploys the License Plate Reader (LPR) system in 
support of its fugitive and Adam Walsh Act investigations. The LPR 
assists in locating vehicle tags associated with fugitives or in 
locating sex offenders who are in violation of the registry status in 
order to affect an arrest. This system is only operational on one 
computer in one vehicle that is operationally used in West Virginia by 
the USMS.
    The LPR, when operating, enables the uploading of photographic 
image of the license plate. This data is stored on a laptop hard drive 
and is not accessible on the laptop after 30 days from the date the tag 
is identified. The license plate photograph is uploaded through a 
secure server to a database managed by the West Virginia State Police 
(WVSP) which may be queried by specifically authorized law enforcement 
personnel.
    LPR data query in the WVSP system is available to law enforcement 
agencies for criminal investigation purposes only. Member agency users 
in the WVSP LPR system also have access to query LPR data in accordance 
with WVSP policy governing the statewide LPR system. The USMS is 
dedicated to ensuring the data is managed in such a way as to meet 
public safety needs while protecting individuals' privacy interests.
                                 ______
                                 
            Questions Submitted to Hon. Michele M. Leonhart
                    DRUG ENFORCEMENT ADMINISTRATION
            Questions Submitted by Senator Richard C. Shelby
               international drug enforcement priorities
    Question. How would this new capacity target the financial 
infrastructure of drug trafficking organizations abroad?
    Lead-in information from original document.--
          The Drug Enforcement Administration has agents in 86 
        countries with resident offices located in 67 countries. DEA's 
        2016 budget includes a $12 million increase to enhance 
        financial investigations within the Special Operations Division 
        and the Sensitive Investigative Units.

    Answer. DEA's Bilateral Investigations Unit (BIU) is organized into 
four Regional Groups and a Financial Investigative Team to focus on the 
financial aspects of the BIU investigations. The BIUs use investigative 
tools and techniques to disrupt key financial command and control 
nodes. These tools include reverse money laundering operations; 
Attorney General Exempted Operations (AGEOs); undercover shelf 
accounts; moving and monitoring Trafficker Directed Funds; and asset 
identification/seizure. The BIU is staffed and supported by existing 
SOD personnel and resources. These extra-territorial enforcement groups 
play a vital role to investigate, indict, capture, and convict the most 
significant foreign-based narco-terrorists, drug traffickers, 
terrorists and transnational criminals that threaten U.S. National 
Security interests and impact the world's drug supply.
    The BIU's four Regional Groups are organized geographically as 
follows: OSNA (Africa); OSNB (Asia); OSNC (Latin America/Central 
America/Caribbean); OSNE (Europe). Each Group is comprised of senior 
Special Agents and Analysts who deploy to foreign locations and conduct 
highly sensitive proactive criminal investigations. These DEA BIU 
Groups have produced impressive case results, including the arrests of 
arms trafficker Viktor Bout and arms trafficker and terrorist Monzer Al 
Kassar.
    Attacking the financial infrastructure of these criminals and their 
organizations is key to enhancing the BIUs' effectiveness. While the 
BIUs' efforts to enlist various financial investigative techniques as a 
means to disrupt key financial command and control nodes have been 
successful, these efforts have been ad hoc. To increase the BIU's 
effectiveness, DEA is seeking to establish a Financial Investigative 
Team (OSNF) comprised of 5 Special Agents, 2 Intelligence Analysts, 1 
Program Analyst, and administrative support personnel, to complement 
the investigations of the BIU Regional Groups. The Financial 
Investigative Team investigations would be proactive and would enhance 
current investigations of BIU Regional Groups. The intent is that the 
Special Agents in the new Financial Investigative Team will support the 
financial angle of the investigations conducted by the Regional Groups 
with financial expertise. The Team will focus primarily on the 
financial networks of investigative targets of a particular regional 
Regional Group.
    Question. How would additional funding for Sensitive Investigative 
Units be used to build upon the current framework of almost 900 
participating local law enforcement officers in 13 countries?
    Lead-in information from original document.--
          The Drug Enforcement Administration has agents in 86 
        countries with resident offices located in 67 countries. DEA's 
        2016 budget includes a $12 million increase to enhance 
        financial investigations within the Special Operations Division 
        and the Sensitive Investigative Units.

    Answer. The Sensitive Investigative Unit (SIU) Program is a 
comprehensive international drug enforcement initiative involving 13 
countries and over 40 SIU enforcement groups staffed by over 900 host 
nation local law enforcement officers. SIU participants are able to 
remain in the program for up to 5 years.
    Since the program's inception in four countries in 1996, the SIU 
has had the same baseline budget of approximately $20 million per year. 
DEA's program has become the model for other U.S. law enforcement 
agencies and ally countries (U.K., France, Germany) operating overseas 
and has led to expansion into additional countries.
    Additional funding will be used to maintain the current framework 
and capabilities of the 13 Sensitive Investigative Units (SIUs) and 
participating local law enforcement officers. Specifically, this 
funding will support the following SIU requirements:
  --Recurring maintenance costs: projected inflationary increases will 
        impact rental payments, building maintenance requirements, and 
        furniture purchases for SIU facilities and safe houses. These 
        facilities are critical for ongoing operations in SIU overseas 
        locations. Additional funding will cover these escalating 
        overhead costs and provide the necessary operational resources 
        for local law enforcement officers assigned to all 13 SIUs.
  --Training: SIU Basic and Advanced training courses are required for 
        all SIU local law enforcement officers. Currently, the average 
        wait time for an SIU Basic Training course is 18-24 months. 
        Additional funding would alleviate a significant backlog of SIU 
        members waiting to complete the required operational and 
        technical training, which would result in the wait time being 
        reduced to approximately 12 months.
  --Vetting and program reviews: all SIU members are required to 
        undergo periodic re-vetting; therefore, additional resources 
        will allow for polygraph testing of these members every 2 
        years. Additional funding will also support cyclical program 
        reviews necessary to evaluate and monitor SIU facilities, 
        financial management processes, personnel records, physical 
        security, vetting processes, and other administrative 
        procedures.
  --Foreign judicial wire intercept maintenance/upgrades: the SIU 
        Program utilizes foreign judicial wire intercept systems to 
        investigate high-level international criminal and drug 
        trafficking organizations. Additional funding would support 
        essential hardware refreshes for the judicial wire intercept 
        systems located in Colombia, Paraguay, the Dominican Republic, 
        and Panama. Additional funding will also support the 
        enhancement of the judicial wire intercept system in Honduras 
        and the establishment of a new system in Nigeria.
  --SIU Net database upgrade: SIU Net is an automated database/
        repository used to collect SIU member biographical information, 
        training requirements, significant investigative 
        accomplishments, equipment, and vetting results (polygraph, 
        drug testing, and human rights checks). Additional funding 
        would be used for upgrading the inventory tracking element of 
        the SIU database.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
  dea organized crime gang unit within the special operations division
    Question. How does the DEA ensure that resources are directed at 
this unit?
    Lead-in information from original document.--
          I appreciate the DEA's mission to enforce our Nation's drug 
        laws and fighting gangs of national significance who deal in 
        illegal narcotics is key to that mission. It is my 
        understanding that the Organized Crime: Gangs section within 
        the Special Operations Division (SOD) is the only unit within 
        SOD to concentrate on domestic enforcement.

    Answer. SOD as a whole supports domestic field enforcement by 
providing vital information for investigative and enforcement 
activities directed against major national and transnational 
trafficking organizations, not just its gang section. SOD's mission is 
to establish seamless law enforcement strategies and operations aimed 
at dismantling national and international trafficking organizations by 
attacking their command and control communications. SOD is able to 
facilitate coordination and communication among DEA divisions and 
participating agencies with overlapping investigations and ensure 
tactical and strategic intelligence is shared between DEA and SOD's 
participating agencies.
    Prior to the merger with SOD in fiscal year 2010, the National Gang 
Targeting, Enforcement, & Coordination Center (GangTECC) had no 
dedicated operating budget with which to provide any type of support to 
investigations. Since coming under the operational direction of SOD, 
GangTECC has been able to provide increased support to these violent 
urban organized crime investigations based on SOD's overall funding for 
operations.
    Prior to the merger, GangTECC supported only 100 cases in the three 
preceding fiscal years combined. Since then, under the operational 
direction of SOD, it has successfully coordinated several high impact 
gang operations. In fiscal year 2011, GangTECC supported 102 cases that 
resulted in 853 gang arrests. Furthermore, in fiscal year 2012, with a 
broad objective to increase gang arrests by 2 percent over the fiscal 
year 2011 baseline, GangTECC supported 154 cases that accounted for 891 
gang arrests, which represented a 4.4 percent increase in arrests. In 
fiscal year 2013 with the objective increased to 5 percent, GangTECC 
supported 187 gang-related investigations that have resulted in 937 
arrests; respectively 121 and 105 percent increases over fiscal year 
2012 actuals. In fiscal year 2014, GangTECC supported 207 gang-related 
cases that have yielded 803 arrests.
    GangTECC/Operational Section: Gangs (OSG) is working closely with 
the field offices, including State and local law enforcement, in order 
to identify the complete structure of gang networks. The goal of this 
strategy is to be able to fully identify the complete picture of the 
organization and their affiliates--cartel leadership, plaza bosses, the 
U.S. gatekeeper or ``chokepoint'' through which the cartels funnel the 
drugs to the the street-level urban crime distribution networks which 
directly impact local neighborhoods. Specifically, SOD/OSG is focusing 
its efforts on the most violent of these urban organized crime networks 
for maximum local impact to the communities; however, as these 
investigations are multi-pronged and span multiple jurisdictions and 
countries, OSG conducts these investigations in coordination with 
multiple sections at SOD and all the domestic field divisions, as well 
as several foreign offices.
                       controlled substances act
    Question. Why has the DEA and the Department of Justice not 
complied with provisions in the Controlled Substances Act, 
specifically, ``The recommendations of the Secretary to the Attorney 
General shall be binding on the Attorney General as to such scientific 
and medical matters, and if the Secretary recommends that a drug or 
other substance not be controlled, the Attorney General shall not 
control the drug or other substance'' (21 U.S.C.A. ss 811 (West))?
    Lead-in information from original document.--
          In January 2011, the Food and Drug Administration (FDA) 
        approved and recommended for decontrol, the imaging agent 
        DaTscan to be used in the medical community to differentiate 
        between essential tremor and Parkinson's disease. DaTscan 
        inherited its Schedule II controlled status because it contains 
        trace amounts of lofupane, a cocaine derivative. The DEA has 
        refused to decontrol DaTscan despite the FDA's recommendation.

    Answer. In November, 2010, the Department of Health and Human 
Services (HHS) sent to DEA a scheduling recommendation accompanied by a 
scientific and medical evaluation. HHS recommended that Food and Drug 
Administration-approved products containing [\123\I]ioflupane 
(currently, only DaTscan) be removed from schedule II of the Controlled 
Substances Act (CSA). The facts in support of the HHS recommendation 
and evaluation required DEA and HHS to collaborate before DEA could 
move forward with the recommendation. In the interim, DEA published an 
interim final rule to provide an exemption from registration to persons 
administering the drug product DaTscan if they are authorized under 
U.S. Nuclear Regulatory Commission or Agreement State medical use 
licenses or permits. 79 FR 70085. This rule was intended to alleviate 
the regulatory burdens on those administering the drug product DaTscan, 
which means that patients have a greater chance of receiving important 
diagnostic testing.
    After consultations with the HHS regarding its recommendation and 
evaluation, DEA published on June 3, 2015, a notice of proposed 
rulemaking in the Federal Register, which proposes to remove 
[\123\I]ioflupane from schedule II of the CSA. The public comment 
period for this notice ended on July 6, 2015. In keeping with our 
commitment to making diagnostic agents available to as many patients as 
possible, DEA will diligently work towards responding to the comments 
received in response to the notice and in finalizing the scheduling 
action.
                   controlled substances act--datscan
    Question. When does the DEA expect to comply with the law and 
decontrol DaTscan?
    Lead-in information from original document.--
          In January 2011, the Food and Drug Administration (FDA) 
        approved and recommended for decontrol, the imaging agent 
        DaTscan to be used in the medical community to differentiate 
        between essential tremor and Parkinson's disease. DaTscan 
        inherited its Schedule II controlled status because it contains 
        trace amounts of lofupane, a cocaine derivative. The DEA has 
        refused to decontrol DaTscan despite the FDA's recommendation.

    Answer. In November, 2010, the Department of Health and Human 
Services (HHS) sent to DEA a scheduling recommendation accompanied by a 
scientific and medical evaluation. HHS recommended that Food and Drug 
Administration-approved products containing [\123\I]ioflupane 
(currently, only DaTscan) be removed from schedule II of the Controlled 
Substances Act (CSA). The facts in support of the HHS recommendation 
and evaluation required DEA and HHS to collaborate before DEA could 
move forward with the recommendation. In the interim, DEA published an 
interim final rule to provide an exemption from registration to persons 
administering the drug product DaTscan if they are authorized under 
U.S. Nuclear Regulatory Commission or Agreement State medical use 
licenses or permits. 79 FR 70085. This rule was intended to alleviate 
the regulatory burdens on those administering the drug product DaTscan, 
which means that patients have a greater chance of receiving important 
diagnostic testing.
    After consultations with the HHS regarding its recommendation and 
evaluation, DEA published on June 3, 2015, a notice of proposed 
rulemaking in the Federal Register, which proposes to remove 
[\123\I]ioflupane from schedule II of the CSA. The public comment 
period for this notice ended on July 6, 2015. In keeping with our 
commitment to making diagnostic agents available to as many patients as 
possible, DEA will diligently work towards responding to the comments 
received in response to the notice and in finalizing the scheduling 
action.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                 prescription and synthetic drug abuse
    Question. How is DEA combatting the prescription drug epidemic as 
well as the domestic distribution of synthetic designer drugs? What 
trends do you see rising on this front and how are you preparing to 
deal with them?
    Answer. According to the 2014 National Drug Threat Assessment 
(NDTA), the threat from prescription drug abuse is persistent, and 
deaths involving prescription drug abuse outnumber those involving 
heroin and cocaine combined. The economic cost of nonmedical use of 
prescription opioids alone in the United States totals more than $53 
billion annually. Trafficking organizations, street gangs, and other 
criminal groups, seeing the enormous profit potential, have become 
increasingly involved in transporting and distributing prescription 
drugs. The number of drug overdose deaths, particularly from 
prescription drugs, has grown exponentially in the past decade and has 
surpassed motor vehicle crashes as the leading cause of injury death in 
the United States. Rogue pain management clinics (commonly referred to 
as pill mills) also contribute to the extensive availability of illicit 
pharmaceuticals in the United States. To combat pill mills and stem the 
flow of illicit substances, many States are establishing new pill mill 
legislation.
    The Office of National Drug Control Policy's (ONDCP) Prescription 
Drug Abuse Prevention Plan expands upon the current administration's 
National Drug Control Strategy and includes action in four major areas 
to reduce prescription drug abuse: education, monitoring, proper 
medication disposal, and enforcement. DEA plays an important role in 
all four of these areas.
Education
    The Department of Justice (DOJ) focuses on education as a crucial 
first step in preventing prescription drug abuse. Through its Demand 
Reduction Program, DEA delivers educational content via its Web sites 
www.GetSmartAboutDrugs.com and www.JustThinkTwice.com. These Web sites 
serve as resources to parents, caregivers, educators, professionals, 
and teens. DEA also focuses on reducing the demand for illicit drugs, 
including the abuse of prescription drugs, through its Red Ribbon Week 
programming, partnerships with other Federal, State, local and non-
profit organizations, and numerous publications made available to the 
general public.
    DEA also provides education and guidance to industry professionals 
such as pharmacists, distributors, and manufacturers by delivering 
information to registrants, professional associations, and industry 
organizations on current diversion and abuse trends of pharmaceutical 
drugs and listed chemicals. DEA also provides information and guidance 
concerning new and existing programs, policies, legislation, and 
regulations. DEA's Diversion Control Program establishes and maintains 
liaison and working relationships with other Federal agencies, State 
and local governments, regulated industries, industry organizations, 
professionals, professional associations, and regulatory boards that 
interface with DEA regarding diversion matters. In fiscal year 2014, 
DEA conducted more than 75 public education and outreach events 
regarding prescription drug abuse. Because of the importance of these 
activities in addressing prescription drug abuse, DOJ has included an 
Education and Outreach component to DEA's performance measures.
    The following reflect the kinds of outreach initiatives undertaken 
by DEA's Diversion Control Program:
    DEA, along with State regulatory and law enforcement officials, and 
in conjunction with the National Association of Boards of Pharmacy, 
hosts Pharmacy Diversion Awareness Conferences (PDACs) throughout the 
country. Each PDAC is held on Saturday or Sunday for the convenience of 
the pharmacy community. The conferences are developed and designed to 
address the growing problem of diversion of pharmaceutical controlled 
substances at the retail level. Topics addressed include pharmacy 
robberies and thefts, forged prescriptions, doctor shoppers, and 
illegitimate prescriptions from rogue practitioners, with the objective 
of educating pharmacists, pharmacy technicians, and pharmacy loss 
prevention personnel on methods to prevent and respond to potential 
diversion activity.
    During fiscal year 2013, DEA hosted 18 PDACs in eight States. 
Further, DEA hosted 16 PDACs in eight States during fiscal year 2014. 
Since DEA began hosting PDACs in 2011, more than 7,648 pharmacy 
professionals have attended these educational conferences. At this 
time, there are 16 proposed PDACs in eight States for fiscal year 2015.
    The Manufacturers/Importers/Exporters Conference held on June 18-
19, 2013, provided a forum to present Federal laws and regulations that 
affect the pharmaceutical and chemical manufacturing, importing, and 
exporting industry and to discuss practices to prevent and detect 
diversion. In addition, topics such as quotas, year-end reporting, 
Automation of Reports and Consolidated Orders System (ARCOS) reporting, 
import/export permits and import/export declarations were discussed. 
Approximately 370 people attended, representing more than 200 
registrants. There is a Manufacturers/Importers/Exporters Conference 
tentatively scheduled for September 2015.
    DEA has also held two Distributor Conferences, most recently on 
April 15-16, 2015, and previously on October 22, 2013. These 
conferences provided an overview of Federal laws and regulations that 
affect pharmaceutical and chemical distributors, such as recordkeeping, 
ARCOS, and suspicious order monitoring.
    The National Conference on Pharmaceutical and Chemical Diversion, 
held September 30 through October 1, 2014, facilitated the exchange of 
information between DEA and their State and local counterparts who 
focus on combating the diversion of pharmaceutical controlled 
substances and regulated chemicals. Over 70 people attended, including 
individuals from State and local agencies who are responsible for 
regulatory drug or chemical control as well as operational personnel 
whose investigations target the diversion of licitly manufactured 
controlled substances and regulated chemicals.
    To better assist DEA registrants with their understanding of the 
Controlled Substances Act (CSA) and implementing regulations, manuals 
are drafted and made available to the public. The manuals are not 
considered legal documents. Readers are instructed to refer to the most 
current copy of the CSA, the Narcotic Addict Treatment Act of 1974, the 
Drug Addiction Treatment Act of 2000, the Code of Federal Regulations 
(C.F.R.), and Federal Register Notices to obtain complete and accurate 
information. The Chemical Handler's Manual, Pharmacist's Manual, and 
Practitioner's Manual are available via DEA's Web site.
Monitoring
    One of the best ways to combat the rising tide of prescription drug 
abuse is through the implementation and use of Prescription Drug 
Monitoring Programs (PDMPs). PDMPs are typically State-run electronic 
database systems used by practitioners, pharmacists, medical and 
pharmacy boards, and law enforcement. These programs are established 
through State legislation and are tailored to the specific needs of a 
particular State. PDMPs help prevent and detect the diversion and abuse 
of pharmaceutical controlled substances, particularly at the retail 
level where no other automated information collection system exists. 
However, in many States with operational PDMPs, participation by 
prescribers and dispensers is voluntary, with utilization rates well 
below 50 percent.\1\ The Brandeis University Center of Excellence 
developed a PDMP Management Tool, which recommends calculating the 
number of in-State prescribers with PDMP accounts as a percentage of 
the number of in-State prescribers who issued controlled substance 
prescriptions during the prior year. Based on this calculation, for 
example, in Florida just 18 percent of the in-State prescribers who 
issued more than one controlled substance prescription have registered 
to use the database (11,408 in-State prescribers signed up for PDMP 
accounts, out of the 62,238 in-State prescribers who issued controlled 
substance prescriptions during the prior year).
---------------------------------------------------------------------------
    \1\ The Brandeis University PDMP Center of Excellence, retrieved 
12/18/14 http://www.pdmpexcellence.org/content/mandating-medical-
provider-participation-pdmps.
---------------------------------------------------------------------------
    While PDMPs are valuable tools for prescribers, pharmacists, and 
law enforcement agencies to identify, detect, and prevent prescription 
drug abuse and diversion, PDMPs do have some limits in their use for 
detecting diversion at the retail level. For example, the use of PDMPs 
is limited across State lines because interconnectivity remains a 
challenge; at the same time, as many drug traffickers and other drug 
seekers willingly travel hundreds of miles to gain easy access to 
unscrupulous prescribers and dispensers.
Proper Medication Disposal
    Prior to the passage of the Secure and Responsible Drug Disposal 
Act of 2010, enacted in October 2010 (Public Law 111-273) (Disposal 
Act), the CSA provided no legal means for ultimate users to transfer 
possession of controlled substance medications to other individuals for 
disposal. The Disposal Act amends the CSA to authorize ultimate users 
and Long Term Care Facilities (LTCFs) to deliver controlled substances 
to another authorized person for the purpose of disposal in accordance 
with regulations promulgated by DEA.
    On September 9, 2014, DEA published in the Federal Register the 
final rule on the Disposal of Controlled Substances. The final rule 
became effective on October 9, 2014, and it implements the Disposal Act 
by establishing requirements that allow authorized registrants to 
develop secure, ongoing, and responsible methods for ultimate users and 
LTCFs to dispose of pharmaceutical controlled substances. The final 
rule expands the options available to collect controlled substances 
from ultimate users for the purpose of disposal, including (1) take-
back events; (2) mail-back programs; and (3) collection receptacle 
locations. These regulations contain specific provisions that:
    Recognize the continuing authority of law enforcement agencies to 
voluntarily conduct take-back events, administer mail-back programs, 
and maintain collection receptacles; Allow authorized manufacturers, 
distributors, reverse distributors, narcotic treatment programs, 
hospitals/clinics with an on-site pharmacy, and retail pharmacies to 
voluntarily administer mail-back programs and maintain collection 
receptacles; and Allow authorized retail pharmacies and hospitals/
clinics with an on-site pharmacy to voluntarily maintain collection 
receptacles at LTCFs.
    In addition, DEA conducted nine Prescription Drug Take-Back Days 
from September 2010 to September 2014. Each take-back day provided the 
public with thousands of sites nationwide to turn in their unwanted or 
expired prescription drugs safely and securely. On September 26, 2014, 
the most recent National Prescription Drug Take-Back Day, 617,150 
pounds (309 tons) of prescription medications were collected from 
members of the public. As a result of all nine National Prescription 
Drug Take-Back Days, DEA, in conjunction with its State, local, and 
tribal law enforcement partners, removed a total of just under 4.9 
million pounds (2,411 tons) of medications from circulation. Although 
law enforcement continues to have discretion with respect to take-back 
events, DEA intends to conduct another nationwide take-back event 
during September 2015 to provide additional options for the safe and 
responsible disposal of unused medications. The new final rule on the 
Disposal of Controlled Substances provides the public with expanded 
options to safely and responsibly dispose of their unused and unwanted, 
lawfully-possessed pharmaceutical controlled substances through 
collection receptacles and mail-back packages. This rule allows for 
ongoing medication disposal, thereby ridding the home of unused or 
unwanted drugs that pose a poisoning hazard or can be diverted.
Enforcement
    DEA's Diversion Control Program is using all criminal and 
regulatory tools possible to identify, target, disrupt, and dismantle 
individuals and organizations responsible for the illicit manufacture 
and distribution of pharmaceutical controlled substances in violation 
of the CSA. The deployment of Tactical Diversion Squads (TDS) is DEA's 
primary method of criminal law enforcement in the Diversion Control 
Program. The recent expansion of the TDS program has resulted in 66 
operational TDSs throughout the United States, covering 41 States, 
Puerto Rico and the District of Columbia. These TDSs incorporate the 
enforcement, investigative, and regulatory skill sets of DEA Special 
Agents, Diversion Investigators, other Federal law enforcement, and 
State and local Task Force Officers. In fiscal years 2013 and 2014, the 
TDS Groups collectively seized $60.7 million and $51.4 million in 
assets, respectively.
    The expansion of the TDSs has enabled the Diversion Groups to 
concentrate on the regulatory aspects of the Diversion Control Program. 
DEA has increased the frequency of compliance inspections of specific 
registrant categories such as manufacturers, distributors, importers, 
exporters, narcotic treatment programs, DATA-waived practitioners, 
researchers, and chemical handlers. In fiscal year 2014, DEA entered 
into several civil settlement agreements with registrants totaling over 
$13.5 million. The various regulatory investigations involved 
distributors, pharmacies, and practitioners who were found to be in 
violation of the CSA and its implementing regulations.
Synthetic Drugs
    DEA continues to issue permanent and temporary scheduling orders to 
place emerging synthetic drugs that pose a threat under Schedule I 
control. DEA has also dedicated significant resources to support 
prosecution at the Federal level for the manufacturing and trafficking 
of synthetic drugs and controlled substance analogs, by providing 
scientific and legal support to U.S. Attorneys throughout the United 
States.
    The two most common categories of these synthetic drugs are 
synthetic cannabinoids and synthetic cathinones.
    Synthetic cannabinoids (sometimes sold under brand names such as K2 
or Spice) continue to be drugs of considerable concern. These 
depressant/hallucinogenic drugs are primarily sourced from China. 
Synthetic cannabinoid substances are typically packaged in the U.S., 
and marketed over the Internet, or supplied to retail distributors 
before being sold to the public at retail stores (e.g., ``head shops,'' 
convenience stores, gas stations, and liquor stores). Laws governing 
the legality of the substances vary widely between States and the 
chemical components are frequently altered, making it difficult for DEA 
to schedule the substances.
    Synthetic cathinone substances fall under the phenethylamine class 
of stimulant/hallucinogenic drugs, and are marketed as ``bath salts'' 
or ``glass cleaner,'' among other street names. These substances are 
often labeled ``not intended for human consumption'' as a false means 
to defend against the Government's utilization of the Federal 
Controlled Substance Analogue Enforcement Act.
    The DEA Office of Diversion Control continuously evaluates non-
controlled synthetic designer drugs for scheduling. Since 2009, more 
than 300 new synthetic compounds from 8 classes of drugs have been 
encountered in the United States.
    Internationally, DEA engages the countries where synthetic designer 
drugs are being produced at a bilateral level through DEA's Country 
Attaches. The DEA is also an active and leading participant in the 
United Nations' Office on Drugs and Crime, International Narcotics 
Control Board (INCB). The INCB recently created the Project 
International Operations on New Psychoactive Substances (NPS) Task 
Force which targets New Psychoactive Substances. At the first 
operational meeting, members from 16 different countries participated, 
including China, which provided over 2,000 investigative leads to the 
participants of this meeting as well as 40 other countries where 
synthetic designer drugs were sent.
    DEA is actively engaged through the Department of State in the 
annual meeting at the United Nations' Commission on Narcotic Drugs. At 
the 2014 meeting, the U.S. Government sponsored a resolution titled 
``Enhancing international cooperation in the identification and 
reporting of new psychoactive substances and incidents involving such 
substances.'' This resolution will assist U.N. member states to address 
the issue of synthetic designer drugs.
                               meth labs
    Question. I understand that meth labs play a significant role in 
crime in Arkansas and there has been a substantial increase in the 
number of them in the United States. What are the trends you are seeing 
in domestic meth lab cases and how is that affecting your budget 
requirements?
    Answer. Overall, most of the methamphetamine available in the 
United States is clandestinely produced in Mexico and smuggled across 
the Southwest Border, where methamphetamine seizures continue to 
increase. The Combat Methamphetamine Epidemic Act succeeded in reducing 
``super labs'' (those that produced 10 pounds or more). Currently, most 
methamphetamine labs found in the U.S. are small ``one pot'' labs that 
produce less than 2 ounces. However, it has been difficult to easily 
identify and stop those individuals who purchase the legal limit of 
pseudoephedrine combination products and sell it to domestic 
clandestine ``one pot'' meth manufacturers, a practice known as 
``smurfing.''
    Arkansas has passed laws, the most recent in 2012, controlling the 
sales of ephedrine and pseudoephedrine within the State. In order to 
purchase these precursors in the State, an Arkansas license or Military 
identification is required. This requirement is expected to ensure that 
border State ``smurfers'' and methamphetamine manufacturers will be 
unable to travel to Arkansas to purchase precursors. Additionally, it 
eliminates some problems from the use of false identification for 
pseudoephedrine purchases. This law also requires pharmacists to 
exercise professional judgment in dispensing pseudoephedrine and 
establishes a searchable database of purchase records.
    Another trend involves Mexico-based methamphetamine trafficking 
organizations smuggling liquid methamphetamine into the United States. 
The term ``liquid methamphetamine'' refers to finished methamphetamine 
that has been dissolved in a liquid solvent or methamphetamine-in-
suspension. The smuggling methods include concealing the solution in 
vehicle batteries, gasoline tanks, windshield wiper reservoirs, liquor 
bottles, laundry and antifreeze containers, and flavored water bottles. 
Once inside the U.S., the liquid is transferred to ``processing 
personnel'' who initiate the recrystallization process by mixing it 
with a solvent such as acetone and exposing the liquid methamphetamine 
to air for a prescribed period of time. Approximately four pounds of 
crystalized methamphetamine can be obtained from one gallon of liquid 
methamphetamine. The laboratories are often located in single-family 
residences and used solely for the recovery process. Due to the 
flammability of the fumes emitted by the solvent, the recovery 
personnel cover outlets and light switches with tape to avoid sparks 
that could ignite the fumes and cause an explosion. The conversion 
process can take approximately 2 days for completion. These conversion 
labs are more difficult to identify than typical methamphetamine labs 
because the same characteristic odors are not emitted. Conversion labs 
use acetone, a common solvent easily available for purchase at most 
home improvement stores.
    The annual operating cost for meth lab cleanup has been reduced by 
51 percent since fiscal year 2010 due to the fact that 18 States have 
begun using the Authorized Central Storage Container (ACSC) program. 
Through the ACSC program, State and local authorities remove the 
hazardous waste from the clan lab sites and transport it to an ACSC 
location. The waste is then safely stored in the containers until it 
can be removed by an authorized DEA vendor for ultimate destruction. In 
fiscal year 2014, DEA reduced the annualized cost of the nationwide 
hazardous waste cleanup program by $2.0 million through continued 
expansion of the Container Program.
       asset forfeiture fund funding to dea and state and locals
    Question. How important is the Asset Forfeiture Fund to DEA as well 
as to State and local law enforcement?
    Answer. The Assets Forfeiture Fund (AFF) is a vital resource to 
DEA, both as a law enforcement tool and a funding resource. As a law 
enforcement tool, the AFF enhances public safety and allows DEA and our 
State and local counterparts to disrupt and dismantle criminal 
enterprises by removing the proceeds of crime. Without the removal of 
these assets, criminal enterprises would continue to grow and flourish, 
even if the perpetrators are convicted and imprisoned.
    From a resource perspective, the AFF provides DEA with funding 
authority to maintain its Asset Forfeiture Program, and to enhance 
DEA's most vital investigative competencies. DEA's wire intercept 
(Title III) and State and Local Task Force (S&L TF) Overtime programs 
are examples that are largely or wholly funded by the AFF. Any 
reductions to the DEA AFF budget will diminish funding for mission 
critical programs and operations and will reduce DEA's ability to 
weaken criminal organizations.
    Drug trafficking organizations skillfully use advanced 
communications technology to plan, coordinate, and execute criminal 
activities. Wire intercepts have proven to be one of law enforcement's 
best tools to disrupt and dismantle criminal entities and pursue the 
forfeiture of assets. Wire intercepts are also a valuable tool in 
criminal and civil court proceedings. Wire intercepts often provide the 
quality of evidence that is necessary for presentation in court 
proceedings. Further, once a defendant learns that DEA used wire 
intercepts in an investigation, the defendant usually agrees to a plea 
deal. The financial operations of a criminal organization are 
increasingly used in affidavits as part of the probable cause for 
initiating a wire intercept. As a result, the wire intercept plays an 
integral role in the process of targeting the financial infrastructure 
of sophisticated, highly organized drug trafficking groups.
    The State and Local Task Force Overtime program is also vital to 
DEA's overall law enforcement efforts and is paid for by the AFF. S&L 
Task Force Officers (TFOs) constitute approximately 30 percent of the 
DEA workforce and are essential to the mission of the agency. DEA task 
forces were responsible for 21 percent of all DEA cases in fiscal year 
2014, 33 percent of all arrests, and 21 percent of all disruptions and 
dismantlements. At times, these cases provide leads to many of our 
biggest national and international Priority Target Organization (PTO) 
and Consolidated Priority Organization Targets (CPOT) linked 
investigations, many of which focus on crippling the Mexican drug 
cartels. Additionally, these cases can develop into major Southwest 
Border and the Organized Crime Drug Enforcement Task Forces (OCDETF) 
cases that are the Department's highest priorities. Further, losing the 
contribution of these TFOs would equate to an estimated $162.5 million 
less in revenue denied and $102.5 million less in contributions to the 
AFF.
    DEA's El Paso Intelligence Center (EPIC) Financial Intelligence 
Group includes a Bulk Currency Team that supports active investigations 
to locate assets (bulk drug currency, other illicit currency, vehicles, 
real property, etc.) owned or controlled by traffickers and other 
criminal elements for possible seizure and forfeiture. Without the 
support and funding of the AFF, EPIC would need to reduce support for 
these investigations, many of which involve State and local law 
enforcement working with DEA.
    Without the AFF, DEA would need to significantly reduce its support 
of programs such as Title III and State and Local Overtime. These 
programs directly impact DEA's ability to disrupt and dismantle major 
drug trafficking supply organizations and their networks. The AFF also 
allows DEA to strengthen partnerships with DEA's domestic law 
enforcement counterparts to maximize the impact of its operations.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      dea surveillance technology
    Question. Under the DEA's current policies relating to the use of 
cell-site simulators, how many times has the DEA employed such a device 
without prior court approval, and what were the reasons for doing so? 
What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff, and would be 
willing to provide additional briefings as requested. The briefings 
from earlier were held to provide the requested information about 
certain sensitive law enforcement tools and techniques while avoiding 
making public the use of any specific, sensitive equipment and 
techniques that may be deployed in furtherance of law enforcement 
missions. Doing so could expose our capabilities and limitations in 
this area to criminal targets. Although we cannot discuss here the 
specific equipment and techniques that we may use, we can assure you 
that to the extent the Department's law enforcement components deploy 
certain technologies in investigations, we are committed to using them 
consistent the Constitution and with Federal law. Finally, the 
Department is in the process of examining its policies to ensure that 
they reflect our continuing commitment to conducting its vital missions 
while according appropriate respect for privacy and civil liberties.
    Question. Since 2001, how many cell-site simulators has the DEA 
purchased or obtained from another government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
DEA's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff, and would be 
willing to provide additional briefings as requested. The briefings 
from earlier were held to provide the requested information about 
certain sensitive law enforcement tools and techniques while avoiding 
making public the use of any specific, sensitive equipment and 
techniques that may be deployed in furtherance of law enforcement 
missions. Doing so could expose our capabilities and limitations in 
this area to criminal targets. Although we cannot discuss here the 
specific equipment and techniques that we may use, we can assure you 
that to the extent the Department's law enforcement components deploy 
certain technologies in investigations, we are committed to using them 
consistent the Constitution and with Federal law. Finally, the 
Department is in the process of examining its policies to ensure that 
they reflect our continuing commitment to conducting its vital missions 
while according appropriate respect for privacy and civil liberties.
    Question. Does the DEA maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. DEA's National License Plate Reader Program (NLPRP) is a 
law enforcement system designed to enhance the ability of law 
enforcement agencies to interdict drug traffickers, money launderers, 
and other criminal activities in high drug and money trafficking 
corridors and on other public roadways throughout the United States. 
The NLPRP was first deployed by DEA in 2008 as an additional tool to 
help counter drug and money laundering threats prevalent on the 
Southwest border. It is designed to support the investigation and 
prosecution of drug trafficking organizations who covertly transport 
controlled substances and cash over land routes. NLPRP information can 
only be accessed in conjunction with authorized law enforcement 
investigative activity. LPRs have been used to successfully capture 
fugitives, seize proceeds of crime, and intercept and seize large 
shipments of illegal narcotics such as marijuana and cocaine.
    As discussed in a February 13, 2015, briefing with Senate Judiciary 
Committee staff, the information collected with a LPR is limited to 
photographic imagery obtained in a non-invasive, public manner along 
public roadways. The images capture only information that individuals 
present to the public. It is important to note that the system does not 
track people, personally identifiable information, or vehicles. The 
NLPRP is designed to contain transactional data only, which consists of 
the license plate number, State, location, date, time, and direction of 
travel. The information collected is intentionally stored in a manner 
to prevent it from being used for data mining or pattern analysis. The 
data remains available in the system for 90 days, after which time it 
is automatically purged from the system.
    As noted above, NLPRP information can only be accessed in 
conjunction with an authorized law enforcement investigative activity. 
Requests to access NLPRP collected information can only be made by 
vetted Federal, State, or local law enforcement personnel. Vetted 
personnel require supervisory approval prior to being given access to 
the system, and those making an inquiry must provide a law enforcement 
nexus to support their inquiry.
    Approved law enforcement personnel with access to the NLPRP also 
have the ability to put a tactical alert on a license plate related to 
a vehicle suspected to be involved with criminal activity. Tactical 
alerts permit users to enter a license plate and receive notification 
within 30 seconds of that plate recording a transaction on LPRs within 
the system. This near real-time capability provides an opportunity for 
a tactical law enforcement response to specific investigative or 
operational situations. The alert notification also promotes data 
sharing within the law enforcement community and serves as a de-
confliction tool. As with other NLPRP queries, a law enforcement nexus 
must be provided prior to the tactical alert being placed on a license 
plate. Over the last year, approximately 5,400 tactical alerts have 
been placed in the NLPRP.
    As discussed with your staff, the NLPRP has a variety of technical 
security measures in place such as firewalls, trusted network 
architecture, Security Technical Implementation Guidelines, and 
safeguards against cyber-attacks. Furthermore, the NLPRP has a variety 
of procedural and policy measures in place for users, including: 
account inactivity expiration at 90 days; failed access attempt count 
lockout; legal policy acceptance; required use of case numbers and/or 
reason for query; user activity logging and auditing; and controlled 
access offered only to vetted law enforcement. Finally, the NLPRP's 
design provides data protection measures to minimize the risk that any 
abuse or misuse of the system takes place, to include no support for 
searches other than on specific law enforcement targets, no support for 
data mining or pattern matching, and mandatory information collection 
such as reasons for queries and/or case numbers.
                                 ______
                                 
               Questions Submitted to Hon. B. Todd Jones
          BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES
            Questions Submitted by Senator Richard C. Shelby
   fertilizer distribution facility fire and explosion investigation
    Question. As we approach the 2-year anniversary of this tragic 
event, please estimate when the investigation will be complete and when 
findings and recommendations may be released.
    Lead-in information from original document.--
          ATF testified about the on-going investigation into the fire 
        and explosion that occurred at a fertilizer distribution 
        facility in West, Texas, on April 17, 2013.

    Answer. The investigation of the West, Texas fertilizer facility 
fire and explosion remains ongoing. ATF is working closely with the 
Texas State Fire Marshal, the agency with primary jurisdiction over the 
incident, to identify the cause and origin of the fire and explosion, 
and to make overall findings and recommendations. ATF's role includes 
providing technical analysis and expertise through the ATF Fire 
Research Laboratory (FRL) in Ammendale, Maryland, and jointly reviewing 
documentary evidence with the Fire Marshal's office in Texas. ATF, the 
Texas State Fire Marshal and other participants are working diligently 
to complete the investigation as soon as practicable. Due, however, to 
the complexity of the required technical analysis and the volume of 
records under review, it is highly unlikely that final findings and 
recommendations will be completed before the end of fiscal year 2015.
    Question. If ATF does not anticipate completing the investigation 
and releasing the findings this fiscal year, please provide the reasons 
for the delay.
    Lead-in information from original document.--
          ATF testified about the on-going investigation into the fire 
        and explosion that occurred at a fertilizer distribution 
        facility in West, Texas, on April 17, 2013.

    Answer. As noted, the complexities of the investigation are the 
primary variable impacting the timeline for its completion. In light of 
the massive devastation of the facility that resulted from the 
explosion, recreation of scene characteristics for testing has been 
time consuming. At the end of February, ATF completed large-scale tests 
that involved recreating the walls and ceilings in a possible area of 
origin for the fire. These large-scale tests enhanced the understanding 
of expert analysts regarding the potential for flame spread from this 
area to other areas in the building. The flame spread and heat release 
rates measured from these tests are being used as input for computer 
models that predict the spread of smoke and heat from the fires into 
the rest of the structure. Testing is also being conducted to measure 
the flammability properties of the materials in the fires. These 
materials tests are used as input to the computer models. The testing 
and modeling that has been completed to date has provided the 
information necessary to conduct a final phase of testing aimed at 
identification of the causation of the original fire. This final phase 
of testing will involve computer modeling and multiple experiments in a 
full scale re-creation of the seed room (the area of origin). 
Construction for these full scale tests started at the end of February. 
Our final analysis will combine the results of the fire tests with 
computer modeling to develop a comprehensive understanding of the fire 
event. The results of this testing and modeling will be crucial to 
obtaining accurate and complete findings and recommendations. ATF 
anticipates completing this final phase of testing by August 2015. Once 
the final testing takes place, the data will be analyzed over the next 
several months. With respect to investigation other than the testing 
and analysis at the FRL, ATF and the Texas State Fire Marshal are 
currently reviewing thousands of pages of documents that have become 
available as the result of ongoing civil court cases related to the 
fire. These documents include reports generated by private sector fire 
science experts and depositions of West Fertilizer employees and other 
witnesses, the information gleaned from these documents may also 
provide information essential to reaching complete and thorough final 
findings and recommendations.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
           national integrated ballistic information network
    Question. How does ATF plan to disrupt violent crime using NIBIN 
into areas of the country that have minimal resources but high levels 
of gang members and gun crime?
    Lead-in information from original document.--
          This subcommittee has highlighted and prioritized the 
        expansion and use of the National Integrated Ballistics 
        Information Network (NIBIN) in order to enhance the ATF's 
        ability to collect, report, and share ballistics intelligence 
        with Federal, State, and local law enforcement partners to 
        disrupt violent criminal activity. Last year, I toured the 
        impressive Crime Gun Center in Chicago that utilizes NIBIN 
        technology.

    Answer. As part of its implementation of regionalized Crime Gun 
Intelligence Centers (CGIC), ATF has integrated NIBIN into a 
comprehensive strategy to combat violent crime. CGICs synthesize all 
available intelligence related to crime guns in the serviced area 
(e.g., NIBIN, crime gun trace data, suspect information, cooperating 
source information, and acoustic location data), thus allowing ATF and 
its partners to target deployment of resources in the community where 
they are most needed and effective in combatting firearm violence.
    In instances where access to NIBIN is not readily available in 
individual communities, ATF provides access to NIBIN through its three 
ATF laboratories. Mechanisms to provide regional NIBIN access include 
providing funding or other resources for transportation of evidence to 
the laboratory for entry and analysis. These efforts are aimed at 
providing broad, cost-effective access to communities currently without 
NIBIN equipment while ATF pursues options for funding direct access for 
additional communities.
    Question. Can the ATF highlight the success of NIBIN in getting 
shooters out of our neighborhoods?
    Lead-in information from original document.--
          This subcommittee has highlighted and prioritized the 
        expansion and use of the National Integrated Ballistics 
        Information Network (NIBIN) in order to enhance the ATF's 
        ability to collect, report, and share ballistics intelligence 
        with Federal, State, and local law enforcement partners to 
        disrupt violent criminal activity. Last year, I toured the 
        impressive Crime Gun Center in Chicago that utilizes NIBIN 
        technology.

    Answer. Many cases highlight how NIBIN has been utilized to 
identify shooters who terrorize communities. In Denver, Colorado, for 
example, shell casings matched through NIBIN have helped lead to at 
least 35 arrests in more than 50 shootings in the last 2 years. Federal 
firearms offenses have been filed against 13 of these individuals, and 
five others have had their parole revoked.
    One of the Denver investigations demonstrates how NIBIN assists law 
enforcement in linking and solving seemingly unrelated shootings. In 
that case, police were investigating three separate shootings. The 
first shooting occurred when a woman encountered a burglar attempting 
to break into her home and threatened to call police. The perpetrator 
then fired a shot through the woman's dining room window. A short time 
later, during another home invasion, a perpetrator fired another shot 
while breaking into the home. Officers collected the spent shell 
casings from both scenes and entered them in NIBIN. Two days later, 
during the investigation of a street fight in which several shots were 
fired in the altercation, investigating officers recovered six expended 
shell casings. The NIBIN analysis of the shell casings recovered in all 
three of the shootings revealed that the same gun had been used in each 
crime. This information allowed investigators to identify and arrest a 
suspect who is now pending trial.
    A second recent example involved the shooting investigation of two 
Police Officers in Ferguson, Missouri. NIBIN played a crucial role in 
the investigation by linking the firearm used in the shooting with the 
suspect. This individual has now been charged with the attempted murder 
of two police officers. These examples illustrate the value of NIBIN in 
identifying, apprehending and prosecuting criminals involved in 
firearms violence in communities across our Nation.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                       violence reduction network
    Question. As a response to the violent crime in Little Rock and 
West Memphis, Arkansas, and I understand that both are potentially to 
be named a VRN (Violence Reduction Network) site. Would you support 
that initiative? Would there be enough agents in Arkansas to support 
this initiative and maintain the daily operational mission?
    Answer. The Department of Justice's Office of Justice Programs, 
Bureau of Justice Assistance (BJA) makes final determinations as to 
sites included in the Violence Reduction Network (VRN). The new sites 
will be announced on September 29, 2015 at the VRN Summit in Detroit, 
Michigan. ATF closely coordinates with BJA and other VRN partners in 
evaluation of potential sites, which includes an assessment of 
available resources from participating agencies. ATF believes the VRN 
is a valuable asset to combat and reduce violent crime and is 
supportive of expanding VRN sites. With respect to the potential 
expansion of the VRN to Little Rock and West Memphis, ATF defers to 
BJA's overall assessment. ATF notes that expansion of VRN locations 
does not necessarily entail redeployment of agent resources, as the VRN 
focuses on identifying creative solutions that support local law 
enforcement efforts to reduce violent crime without straining existing 
Federal capacity. That said, ATF agent resources within the Little Rock 
Field Office that also supports the West Memphis area are currently 
operating at full capacity.
           national integrated ballistic information network
    Question. What are the benefits of NIBIN (National Integrated 
Ballistic Information Network)? Is NIBIN effective in Arkansas and how? 
Is NIBIN owned by ATF and where do you see the future of this 
technology going?
    Answer. What are the benefits of NIBIN?--NIBIN is a system of 
computer hardware and software coupled with a database which is 
employed to acquire, transmit, store, compare, and retrieve digitized 
images of firearms evidence (shell casings and projectiles). It is the 
only interstate, automated ballistic imaging network in the United 
States, and is available through more than 150 sites around the country 
to most major population centers. ATF's NIBIN program integrates the 
technological capabilities of the system with other investigative tools 
to expand its use beyond forensic comparison and matching. NIBIN is a 
key component of ATF's Crime Gun Intelligence Centers, which integrate 
NIBIN, crime gun tracing and other investigative tools to identify, 
target, and prosecute shooters and their sources of crime guns. NIBIN 
allows participating partners to conduct local, regional and national 
searches of recovered firearms evidence to quickly establish links 
between violent crimes --including links that would have never been 
identified without this technology.
    A NIBIN hit report provides law enforcement with immediate tactical 
leads and longer term strategic intelligence to assess gun crime 
patterns. Tactical leads include matching ``hits'' to link separate 
incidents to the same crime gun, often allowing investigators to 
quickly identify suspects and undertake immediate enforcement action--
preventing additional firearm violence by ``trigger-pullers.''
    Longer term strategic analysis of NIBIN data allows an 
understanding of patterns underlying firearm violence such as gun 
sharing within and among criminal groups and sources of illegally 
trafficked firearms.
    Is NIBIN effective in Arkansas and how?--In 2013, ATF provided a 
number of resources (both in personnel and training) to the Arkansas 
State Crime Lab and Little Rock Police Department. ATF's objective was 
to ensure that both the crime lab and police department could fully 
take advantage of NIBIN and Firearms trace data to better serve the 
citizens of Arkansas.
    Specifically, ATF sent
  --One specialist from the Atlanta Laboratory Center to train the 
        Little Rock P.D. as well as several other local police 
        departments and Arkansas Crime Lab personnel on the new ATF-
        funded, state-of-the-art Brasstrax unit.
  --One specialist to perform the evidence entries at the Little Rock 
        Police Department in order to alleviate a massive backlog of 
        evidence.
  --Several Special Agents to conduct test firing of crime guns at the 
        Little Rock P.D. evidence vault.
  --Several special agents from the Firearms Trafficking Branch to 
        Little Rock P.D. to facilitate comprehensive crime gun tracing 
        of all firearms recovered by the Little Rock P.D.
    Is NIBIN owned by ATF and where do you see the future of this 
technology going?--ATF is the sole owner of the NIBIN digital image 
database.
    ATF is continuously seeking new and innovative ways to both capture 
crime gun intelligence and better analyze this data to the benefit of 
law enforcement--including a means for portable acquisitions via 
smaller and lighter Brasstrax hardware, and an algorithm that further 
narrows down the correlation times on crime gun comparison.
                        atf fire investigations
    Question. I understand ATF worked the tragic Annapolis fire scene 
earlier this year. Can you discuss ATF's role in fire investigations, 
and how can our local fire investigators in Arkansas utilize your 
expertise?
    Answer. ATF Certified Fire Investigators (CFI) are highly trained 
special agents who provide technical support, analysis, and assistance 
to ATF and its State and local partners in fire origin and cause 
determination, forensic fire scene reconstruction, and arson 
investigation. CFI's complete a 2-year training program that includes 
fire origin and cause determination, fire dynamics, fire modeling, 
building construction, electricity and fire causation, health and 
safety, scene reconstruction and evidence collection. The program 
relies on rigorous training, education, and experience to qualify 
agents to testify as expert witnesses in the field of fire origin and 
cause. ATF CFI's are the only Federal law enforcement officers within 
the Department of Justice who are qualified to render opinion testimony 
as to fire origin and cause.
    CFIs investigate fires with a Federal nexus, and as seen in 
Annapolis, Maryland, assist State and local partners in the 
investigation of large scale incidents. ATF routinely deploys CFIs and 
veteran special agents, certified explosives specialists, forensic 
mapping specialists, accelerant and explosives detection canine teams, 
explosives enforcement officers, fire protection engineers, electrical 
engineers, and forensic chemists to assist state and local departments 
with large scale fire scenes that exceed the scope of what the local 
authorities can manage with their available resources.
    Through its CFI program, ATF has a long-standing, very close 
working relationship with fire departments across Arkansas. ATF 
currently has one special agent/CFI stationed in Little Rock. This CFI 
is fully engaged with numerous fire departments and law enforcement 
agencies across the State. In addition, ATF is in the process of 
providing the Arkansas State Police with an ATF-trained Accelerant 
Detection K-9 team to support the State's fire investigative resources. 
ATF also routinely deploys, as needed, CFIs from contiguous States into 
Arkansas to support investigations and provide training.
    ATF has deployed additional resources into Arkansas to support 
large scale incidents and fires on numerous occasions over the past 
several years. Notable investigations include:
  --2013.--During a rash of incendiary fires, ATF formed an Arson Task 
        Force with Little Rock Fire Investigators to investigate a 
        serial arsonist. The suspect was arrested by ATF and plead 
        guilty to violations of Title 18, U.S.C. 844, and received a 10 
        year Federal sentence.
  --2013.--ATF's National Response Team (NRT) assisted in the 
        investigation of the First Baptist Church in Highland Park. The 
        fire was ruled undetermined.
  --2010.--An ATF CFI assisted the Bella Vista Fire Department in the 
        investigation of a fire that claimed the lives of all five 
        members of a family. The cause of the fire was determined to be 
        accidental.
  --2008.--An ATF CFI assisted the Bentonville Fire Department in the 
        investigation of a fire that claimed the lives of five children 
        ranging in age from 5-13 years old. The fire was ruled 
        undetermined.
               local participation in the etrace program
    Question. How do you promote local participation in the eTrace 
program?
    Answer. ATF's primary method of promoting the use of eTrace occurs 
on a local level in each ATF Field Division, particularly during the 
course of joint investigations ATF understands that the best way to 
educate law enforcement agencies about the benefits of eTrace and 
firearms tracing is to have those agencies see successful results from 
use of the system in their own investigations. Promoting universal 
tracing through eTrace is also a cornerstone of ATF's Frontline 
business model. Use of eTrace is an essential component of the enhanced 
enforcement operations (also known as ``surges'') that ATF conducts 
annually under Frontline. As part of each enhanced enforcement 
operation, ATF ensures that participating local law enforcement 
agencies have entered an eTrace system Memorandum of Understanding 
(MOU), and have been adequately trained in the use of eTrace. 
Additionally, the National Tracing Center (NTC) dispatches a team to 
each enhanced operation site to conduct refresher training and to 
assist law enforcement agencies in the entry of any backlog of untraced 
recovered crime guns into the eTrace system; entry of all recovered 
crime guns provides ATF and local partners with a baseline to help 
define the local crime gun problem, including the identification of 
illegal sources of firearms and the identity of illegal traffickers.
    ATF also promotes eTrace through technological enhancements to the 
system, For example, in fiscal year 2014, ATF added a collective data 
sharing capability to the eTrace system; this improvement allows 
agencies within the same State to share trace data. Throughout fiscal 
year 2014, ATF deployed NTC personnel to conduct briefings and training 
about this new eTrace capability. The enhanced capability yielded 
immediate benefits; in fiscal year 2014 the NTC received the highest 
number of trace requests ever, 364,441, an increase of more than 22,000 
requests from fiscal year 2013.
          federal firearms licensees (ffl) inspection protocol
    Question. There is this implied philosophy among ATF Investigators 
where they have this ``gotcha'' attitude toward FFL inspections. Is 
this agency protocol?
    Answer. ATF investigators, managers and executives strive to 
promote compliance rather than adverse findings during inspections, and 
often work with industry members when possible to encourage dialogue 
and seek reasonable remedies where appropriate. ATF industry operations 
investigators (IOIs) conduct inspections of FFLs to ensure compliance 
with the law and regulations and to educate licensees on the specific 
requirements of those laws and regulations. If violations are 
discovered during the course of an FFL inspection, the tools that ATF 
has available to guide the FFL into correction of such violations and 
to ensure future compliance include issuing a report of violations, 
sending a warning letter, and holding a warning conference with the 
industry member. Despite these actions, on rare occasions ATF 
encounters a licensee who fails to comply with the laws and regulations 
and demonstrates a lack of commitment to improving his or her business 
practices. In such cases where willfulness is demonstrated, ATF's 
obligation to protect public safety may require revocation of the FFL.
    IOIs are trained to provide fair and consistent treatment to 
industry members. Performance ratings, awards, or other incentives are 
not based on numbers of violations cited or inspections recommended for 
administrative action. In fiscal year 2014, ATF conducted 10,429 
firearms compliance inspections. Of these inspections:
  --48 percent resulted in no violations cited.
  --Less than 1 percent were revoked.
  --Less than 1 percent surrendered their license in lieu of 
        revocation.
  --13 percent were issued a Report of Violations.
  --13 percent received a warning letter.
  --6 percent resulted in a warning conference.
  --19 percent were found to be out-of-business, etc.
                           atf modernization
    Question. What does your modernization philosophy entail? What 
techniques or technology are you exploring?
    Answer. What does your modernization philosophy entail?--ATF's 
modernization philosophy entails implementing a Business Process 
Management System (BPMS), which involves replacing ATF's aging case 
management system and streamlining other information systems. BPMS 
technology will better support ATF's mission by implementing paperless 
workflows, increasing accountability, and providing more timely and 
complete performance feedback to ATF Leadership, thus allowing ATF to 
better to gauge the results of its regulatory and criminal enforcement 
efforts.
    What techniques or technology are you exploring?--ATF is exploring 
a variety of BPMS tools, which are commercial-off-the-shelf (COTS) 
software products. BMPS tools will provide ATF with the ability to more 
quickly adapt to new laws, regulations, and DOJ/ATF policies, while 
creating efficiencies in workflow, mission objectives and performance 
accountability.
       martinsburg facility and the national firearms act backlog
    Question. I see that you are requesting $8 million to expand the 
Martinsburg Facility. How will this be utilized and will it reduce the 
National Firearms Act backlog?
    Answer. $8.1 M will expand capacity for the Martinsburg Facility 
through investment in the following additional resources:
  --The hiring of an additional ten (10) Legal Instrument Examiners 
        (FTEs). These examiners will support the analysis and 
        processing of applications for registration of weapons as 
        required by the National Firearms Act (NFA).--Total investment: 
        $635,000.
  --NFA Processing support (FTE overtime and an additional 20-30 
        contract research assistants).--Total investment: $2.5 million.
  --Equipment, IT Support and contract staff.--Total investment: $5 
        million.
  --Specific includes:
    --$2.0 million.--Digital Imaging scanner, software and hardware 
            (primarily storage) to improve ATFs capacity to digitally 
            image and store Out-of-Business Records (OBR). This 
            includes conversion and storage of electronic OBR in 
            accordance with policy and law.
    --$750,000.--eTrace. Ongoing maintenance and development 
            enhancements to sustain and improve the systems 
            performance.
    --$2.25 million.--Current Imaging software (Captiva) upgrades for 
            two high speed scanners. ATF receives an average of 1.2 
            million OBR per month. ATF currently uses two high speed 
            scanners to digitally image those records. The Captiva 
            upgrades will replace out of date software used by the 
            scanners that has not been supported for over 6 years.
    In fiscal year 2014 the National Firearms Act Branch (NFA) received 
over 221,000 new applications, reaching a peak of 81,000 pending 
applications in February 2014. In addition, the NFA processed about 
236,000 applications in total utilizing current staffing and 
significant overtime. In fiscal year 2015, it is anticipated that NFA 
will receive over 276,000 new applications, and that existing staffing 
and similar overtime allocations will permit the processing of 
approximately 292,000 applications. In fiscal year 2016, it is 
estimated that the NFA Branch will receive approximately 346,000 
applications. Therefore, additional staffing is needed to ensure that 
ATF does not further delay processing times. The ten positions 
requested in the fiscal year 2016 budget, comprised of eight Legal 
Instrument Examiners, one supervisory Legal Instrument Examiner, and 
one Assistant Branch Chief, will enable ATF to establish a fourth 
examiner processing section within the NFA. The additional Legal 
Instrument Examiners are projected to be able to process an estimated 
96,000 applications in a 1 year period, following the initial 9-12 
month training period. ATF estimates that the current 6 month time 
period for processing Tax Paid Applications (ATF Forms 1 and 4) can be 
reduced to 90 days after new personnel are fully actualized.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      atf surveillance technology
    Question. Under the BATFE's current policies relating to the use of 
cell-site simulators, how many times has the BATFE employed such a 
device without prior court approval, and what were the reasons for 
doing so? What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Since 2001, how many cell-site simulators has the BATFE 
purchased or obtained from another government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
BATFE's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Does the BATFE maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. Although ATF has equipment capable of capturing license 
plate images, ATF does not have any database that contains license 
plate reader (LPR) data. In addition, ATF does not forward license 
plate images obtained with this equipment to any other government 
databases. ATF's equipment consists of the following:
  --Approximately 30 hi-definition LPR systems. These systems capture 
        LPR images but do not transmit any data.
  --6 older LPR systems. These were initially purchased to support 
        church fire investigations. These systems capture LPR images 
        but do not transmit any data.
                               atf drones
    Question. Since that report, has the ATF employed drones in support 
of its mission?
    Lead-in information from original document.--
          In 2013, the Department of Justice Office of the Inspector 
        General released an interim report on DOJ's use of domestic 
        drones. The report noted that although the FBI was the only DOJ 
        component to have operated drones at the time, ATF reported 
        that it planned to deploy drones in future operations.

    Answer. Yes. ATF's National Response Team (NRT) purchased five 
small, commercially available Unmanned Aircraft Systems (UAS) to help 
document fire and explosion crime scenes (not for conducting law 
enforcement surveillance). The NRT used one of these units to conduct 
one brief UAS flight in July 2014 to document the aftermath of a 
Louisiana apartment fire that resulted in the deaths of three 
residents. ATF has temporarily grounded these UAS platforms pending 
further ATF policy guidance on deployment requirements. The Department 
of Justice has recently issued policy guidance for the use of UASs. ATF 
is in the process of incorporating this DOJ guidance into its policy on 
the use of its' UAS. In addition to the single use of the NRT UAS, ATF 
has received UAS support from the U.S. Customs and Border Protection 
(CBP) on four occasions for purposes of conducting surveillance and 
planning search warrants.
    Question. If not, please provide an update on ATF's plans on using 
drones in the future and if so, please provide a fulsome description of 
the instances in which ATF has deployed drones and what measures are 
being taken to ensure that Americans' privacy rights are being 
protected.
    Lead-in information from original document.--
          In 2013, the Department of Justice Office of the Inspector 
        General released an interim report on DOJ's use of domestic 
        drones. The report noted that although the FBI was the only DOJ 
        component to have operated drones at the time, ATF reported 
        that it planned to deploy drones in future operations.

    Answer. ATF has no immediate plans to purchase UAS systems. ATF has 
received the Presidential Memorandum: Promoting Economic 
Competitiveness and Innovation While Safeguarding Privacy, Civil 
Rights, and Civil Liberties in the Domestic Use of Unmanned Aircraft 
Systems, dated February 15, 2015 (Presidential Memorandum). ATF 
continues to work with the Department's Office of Privacy and Civil 
Liberties, through the DOJ UAS working group, to ensure appropriate use 
of UAS. Future ATF Directives on the use or deployment of UAS in 
support of ATF missions will be in compliance with the Presidential 
Memorandum and all DOJ guidelines, including the recently released DOJ 
policy. Additionally, to track any potential, future use of UAS's and 
in compliance with this policy, the ATF case management system has been 
updated with mandatory entry fields to capture deployment, 
authorization, and operating agencies.
                                 ______
                                 
Questions Submitted to the Department of Justice--Joint Law Enforcement 
                              Task Forces
           Questions Submitted by Senator Barbara A. Mikulski
                     federal task force operations
    Question. How does the Department of Justice ensure that the 
thousands of State and local officers on your task forces have received 
proper training in areas like use of force or avoiding racial bias?
    Answer. On December 8, 2014, DOJ issued new guidance for Federal 
Law Enforcement Agencies Regarding the Use of Race, Ethnicity, Gender, 
National Origin, Religion, Sexual Orientation or Gender Identity. It 
builds upon and expands the framework of the 2003 Guidance, and it 
reaffirms the Federal Government's deep commitment to ensuring that its 
law enforcement agencies conduct their activities in an unbiased 
manner. The guidance applies to Federal, State, and local law 
enforcement officers in all enforcement areas. It further defines the 
circumstances in which Federal law enforcement officers may take into 
account a person's race and ethnicity, including gender, national 
origin, religion, sexual orientation, or gender identity. The guidance 
promotes training and accountability to ensure that its contents are 
understood and implemented appropriately.
    In addition, steps taken to provide proper training by each law 
enforcement component are detailed below:
FBI:
    Pursuant to executed Memoranda of Understanding, within the Safe 
Streets Program (Violent Crime, Violent Gang and Safe Trails Task 
Forces) and the Joint Terrorism Task Force (JTTF), each task force 
participant is subject to their respective agency's policy on use of 
force. Each Task Force Officer (TFO) must maintain his or her own 
firearm and non-lethal weapon qualification standards in order to 
continue to serve on the task force. TFOs are further instructed on 
Federal policies and guidelines associated with prohibitions on racial 
profiling and attend mandatory FBI training events. Additionally, the 
FBI Field Offices host quarterly deadly force policy training sessions 
for agents.
    Under the FBI's Less Lethal Devices Policy (0517PG), dated November 
2012, a TFO may also carry a less lethal device issued by his or her 
home agency only if that agency has provided the FBI with written 
confirmation that:
  --The agency will ensure that while the individual is participating 
        in FBI-led task force operations, the TFO will not carry lethal 
        devices and will carry only less lethal devices that have been 
        issued to the individual and that the individual has been 
        trained in accordance with the agency's policies and 
        procedures.
  --The agency's policies and procedures for less lethal devices are 
        consistent with the DOJ policy statement on the use these 
        devices.
  --FBI Supervisory Special Agents (SSA) also have the discretion to 
        prohibit TFOs from carrying particular less lethal devices on 
        any FBI-led operation if they believe that the use of such a 
        device may pose hazards or risks to the operation's 
        participants due to environmental, tactical, or other relevant 
        factors.
    In 2013, FBI hosted a mandatory training for all JTTF personnel 
(FBI and TFOs) on the DOJ Less-Than-Lethal Devices Policy.
ATF:
    ATF highly values its TFOs and strives to provide them with the 
training necessary to maximize officer and public safety:
  --TFO Orientation: ATF provides orientation training for new TFOs in 
        their assigned field division. An ATF supervisor covers 22 ATF 
        policies and provides a reference guide to these policies. 
        These policies specifically include ATF's Use of Force policy, 
        ATF Order 3020.2A. The TFO and supervisor complete an 
        Orientation Checklist, including a written certification by the 
        TFO that it discussed these policies with ATF.
  --New Employee Training: ATF provides training on policies and 
        procedures, applicable Federal laws, criminal procedure, and 
        investigative techniques. One block of this training ATF and 
        DOJ Use of Force policies. Another block includes a review of 
        Federal case law regarding race and ethnicity in criminal 
        enforcement operations.
  --Firearms Training: ATF requires each TFO to complete a quarterly 
        firearms training and tactical operations training, both of 
        which include specific review and discussion of ATF's Use of 
        Force policy.
  --Operational Plans and Briefs: TFOs participating in ATF enforcement 
        operations are also required to review operational plans and/or 
        attend pre-operational briefs, both of which include a review 
        of Use of Force policies.
    Finally, pursuant to the December 2014 DOJ guidance, ATF developed 
a mandatory training module for all agents and TFOs, and began training 
in May 2015. ATF will periodically update the training and regularly 
present it to agents and TFOs nationwide.
DEA:
    DEA does not tolerate racial profiling or the use of excessive 
force, nor does it target individuals or groups based on race, 
ethnicity, gender, national origin, religion, cultural differences, 
linguistic capability, sexual orientation, or gender identity. As a 
part of its policy and practice, DEA safeguards against racial 
profiling by ensuring thorough training and oversight, and when 
appropriate effective discipline.
    Prior to assigning a State or local officer to a task force, State 
and local law departments (Chief of Police, Internal Affairs, Personnel 
Office, and immediate supervisor), the Division Special Agent in Charge 
(SAC), and DEA Headquarters (HQ) must approve the assignment. DEA may 
reject any nominee based on the officer's training, attitude, past 
performance, or other factors bearing on suitability. Officers should 
have at least 2 years of police experience.
    Traditionally, DEA field offices conduct the TFO Certification 
Training program on an ``as-needed'' basis within the offices' 
geographic jurisdiction. The Divisional Training Coordinators (DTC) are 
responsible for providing and coordinating training to newly selected 
Task Force members. Each new TFO receives 39 hours in official training 
and each division can offer additional training to their staff 
pertinent to their mission.
    When DEA deputizes State and local law enforcement officer as a 
TFO, he or she is granted certain Federal law enforcement powers and 
becomes subject to the same Federal laws and standards addressing 
employee suitability as a normal DEA Special Agent. DEA requires all 
deputized TFOs to follow all DEA policies and procedures, which are 
explained during the official training.
USMS:
    USMS requires State and local officers on fugitive task forces to 
meet certain criteria to join the task force. The requirements include 
basic law enforcement training and use of force policy training. 
Additionally, within the Memorandum of Understanding process for an 
agency to place an officer on a USMS task force, the sponsoring agency 
must provide USMS with a copy of its use of force policy to ensure that 
it does not conflict with DOJ use of force policy. The officer must 
also acknowledge understanding of the Department's use of force policy 
during the Special Deputation process.
    Question. Do police departments have to submit any kind of training 
certification to the FBI, DEA, ATF or Marshals Service before their 
officers can join Federal task forces?
    Answer.--
FBI:
    FBI Task Force Officers assigned to the Safe Streets Initiative 
obtain Title 18 deputization through the USMS. TFOs must qualify with a 
firearm before being deputized. In addition to Title 18 deputization, 
all violent gang and Safe Trails TFOs obtain Title 21 deputization. All 
TFOs, including Safe streets and JTTF, are vetted with their respective 
agencies to ensure compliance with their internal policies and to 
ensure there are no outstanding or excessive internal affair matters. 
TFO must have Top Secret security clearance and all TFOs must maintain 
their firearm and non-lethal weapon qualifications.
ATF:
    TFOs must complete basic law enforcement training and firearm 
qualifications. Officers, whose service lapsed for at least 5 years, 
are required to take a refresher law enforcement training course. These 
certifications are required to deputize all ATF TFOs. The specific 
training certification questions on this form are:
  --Question #15: ``I have successfully completed the following basic 
        law enforcement training program or military equivalent.'' This 
        question requires that applicants list the academy they 
        attended, course name, location and completion date.
  --Question #16 (if necessary): ``I had a 5-year break in law 
        enforcement and have completed a law enforcement refresher 
        course within a year of signing this application.'' This 
        question also requires that the applicant list the agency that 
        has provided refresher training, course name, location, and 
        completion date.
  --Question #19: ``I have qualified with my primary authorized 
        firearm.'' This question requires the applicant to describe the 
        firearm and qualification date.
DEA:
    DEA does not require proof of certification for new TFO's. Instead, 
DEA requests that the parent agency provide a Letter of Good Standing 
from an official at the rank of Lieutenant or above. The letter 
certifies TFO compliance with DEA's drug use policy and that he or she 
has no pending internal affairs investigations. DEA also conducts 
criminal history checks using Narcotics and Dangerous Drug Information 
System (NADDIS), National Law Enforcement Telecommunications System 
(NLETS), and National Crime Information Center (NCIC).
    DEA TFOs can only remain as a full time TFO for four consecutive 
years; however, at the SAC's discretion, he/she can extend the 
agreement for another 4 years. This is done by request from the SAC via 
a DEA memorandum along with a current background check using NADDIS, 
NLETS and NCIC. If a TFO returns to his parent agency prior to the 4 
years for whatever reason, he or she will be cancelled as a full-time 
TFO via a SAC's memorandum to DEA HQ. In addition, if a TFO changes 
agencies while currently assigned to a DEA Task Force, the division 
will be required to submit a new package, i.e. SAC's memo, Letter of 
Good Standing from the new agency or department, current background 
checks, and a Task Force Agreement between DEA and the new agency or 
department.
USMS:
    USMS does not require that State and local officers submit training 
certifications to the USMS; however, officers must receive Special 
Deputization from the USMS prior to joining a task force. There are 
several requirements detailed in the USMS policy for a State or local 
officer to receive Special Deputation from the USMS. These requirements 
include that the candidate meet the following requirements:
  --Be a full time, sworn law enforcement officer and complete a basic 
        law enforcement training course.
  --Have at least 1 year of law enforcement experience with arrest 
        authority (USMS Enforcement Standard Operating Procedures 
        suggest a minimum of 5 years of experience).
  --Qualify on their parent agency or USMS course of fire.
  --Certify that they have reviewed and agreed to comply with the use 
        of force policy of their employing agency or the Department of 
        Justice.
    The senior management official with the agency sponsoring the 
prospective TFO must complete and submit the USMS paperwork requesting 
acceptance to the task force and Special Deputation for the officer. In 
that paperwork, the official also certifies that the officer meets all 
of the training and experience requirements and that the officer is not 
under any type of investigation for misconduct.
    Question. What types of training do your agents and deputy marshals 
receive before hitting the streets? What kinds of procedures do you 
have in place to ensure misconduct does not happen?
    Answer.--
FBI:
    The FBI's New Agent Training Program (NATP) provides 20 weeks of 
training for New Agent Trainees (NAT). Misconduct is not tolerated at 
the FBI Academy and is addressed by monitoring and measuring trainees 
against suitability standards: conscientiousness, cooperativeness, 
emotional maturity, initiative, integrity, and judgment. A NAT can be 
dismissed if they do not meet one or more of the suitability standards. 
When NATs enter training, they read and sign the rules, regulations, 
and requirements at the FBI Academy for New Agent Trainees, which 
outlines these standards and requirements for graduation. FBI prepares 
documentation when NATs violate standards; thereafter, the trainee is 
noticed, and the documentation is forwarded to executive management to 
conduct a New Agent Review Board (NARB) to determine an appropriate 
action: remediation or dismissal. NATs remain in a probationary status 
during the first 18 months of their FBI employment, during which they 
are subject to dismissal for suitability standards. This process is 
designed to employ only those who are most suitable for a law 
enforcement career with the FBI.
    FBI NATs receive over 80 hours of legal training to ensure that 
their actions do not infringe upon the rights of individuals, 
particularly the first and fourth amendments to the Constitution. They 
are trained to protect an individual's civil liberties in accordance 
with the Attorney General Guidelines (AGG), the Domestic Investigations 
and Operations Guide (DIOG), and the Privacy Act. They are trained to 
understand the fourth amendment requirement of ``reasonableness'' as it 
relates to a search. They learn about the FBI's history related to some 
specific investigations that infringed upon constitutionally protected 
rights, and they are trained to balance the need for effective law 
enforcement and intelligence gathering against the rights secured by 
the First Amendment. NATs are trained to use the ``least intrusive'' 
investigative techniques with corresponding approval documentation 
appropriate to an investigation. They also receive 8 hours of training 
in the proper level of force to use in accordance with FBI's Deadly 
Force Policy.
    Diversity, ethics, and leadership training are also emphasized in 
the NATP. NATs are trained in Decision Making, Core Values, and 
Leadership while focusing on a Civil Rights Case Study. Trainees 
explore key concepts bearing upon the development of personal and 
professional judgment, ethical decisionmaking, and leadership in the 
context of the Civil Rights Movement, the example of Dr. Martin Luther 
King Jr., and the complex nature of the FBI's response to the non-
violent political action of the era. Trips to the Martin Luther King 
memorial and the Holocaust Museum emphasize the practical application 
of ethical and moral conduct, in particular, character and courage.
    NATs receive rigorous training in physical fitness, tactics, 
firearms proficiency, and defensive tactics to ensure that they can 
properly handle encounters with the public. They receive 25 hours of 
training, for example, in how to perform compliant handcuffing and 
search techniques. They receive 16 hours of training in how to perform 
the necessary defensive tactics, skills, and techniques to resolve a 
confrontation (e.g., proper restraint techniques). With over 180 hours 
of practical application exercises, oftentimes interacting with role-
players depicting realistic situations they might encounter, graduates 
of the NATP are well equipped to interact with the public in a safe and 
lawful manner.
    Additionally, a review of the FBI's `deadly force' policy is a 
required part of the operational briefing before any FBI search or 
arrest is executed.
ATF:
    All newly-hired ATF Special Agents must complete a rigorous 6-month 
curriculum and a formal on-the-job training program. ATF conducts basic 
training at the ATF National Academy at Federal Law Enforcement 
Training Center (FLETC) in Glynco, Georgia. It consists of the FLETC 
Criminal Investigator Training Program followed by the ATF-specific 
Special Agent Basic Training program. Agents receive training in the 
full spectrum of the ATF mission, including firearms, explosives, 
arson, and alcohol/tobacco diversion. In addition, ATF trains on 
investigative procedures, legal requirements, operational processes, 
tactics, and investigative systems.
    The curriculum also includes modules related to conduct and 
accountability. The topics cover Ethics, Standards of Performance and 
Code of Conduct, and Integrity. The training addresses the use of 
alcohol, off-duty conduct, use of controlled substances, and 
notoriously disgraceful conduct.
DEA:
    DEA requires that all Basic Agent Trainees (BATs) successfully 
complete a 950 hour in-residence program. DEA provides additional 
training at the new agent's assignment using the 800-hour Field 
Training Assessment program (FTA). The BAT program includes instruction 
in the following topics: Standards of Conduct, Ethics, and Legal topics 
pertinent to a DEA Agent. Additionally, each BAT receives instruction 
in the functions and purpose of the Office of Professional Review and 
Office of the Inspector General.
USMS:
    Before candidates become Deputy United States Marshals (DUSM) and 
conduct fugitive investigations, they must complete basic training at 
FLETC in Brunswick, Georgia. Basic training for the USMS consists of 
the following:
  --FLETC's Criminal Investigator Training Program, a 12-week basic law 
        enforcement criminal investigation course.
  --The Basic DUSM Training Program, a 4-week course focusing on USMS-
        specific duties, such as fugitive investigations and officer 
        safety.
  --Deputies are also qualified and certified on the use of pistols, 
        shotguns, rifles, and less-lethal devices during basic 
        training.
    Once basic training has been successfully completed, deputies 
report to their assigned districts and undertake the duties and 
responsibilities of a DUSM, which includes conducting fugitive 
investigations.
    The USMS also requires advanced continuing education and training. 
The DUSMs are required to attend the Advanced Deputy U.S. Marshal 
(ADUSM) Training Program within 7 years of completing the basic 
training and again within 7 years of completing the first ADUSM course. 
The ADUSM training is used as a refresher course to reinforce what the 
deputy has learned in basic training, as well as a venue to teach 
advanced skills and train deputies in new policies and procedures.
    The USMS has made a concentrated effort to send as many operational 
personnel as possible to High Risk Fugitive Apprehension training. This 
course provides advanced standardized, tactical-based training, with 
the goal of enhancing arrest procedures and mitigating risk.
    Regarding misconduct, the integrity of the USMS is dependent upon 
the conduct of its individual employees. Each day the employees of the 
USMS demonstrate the highest standards of integrity, character, public 
trust, and professional responsibility. The USMS seeks to maintain 
these standards and improve all aspects of professional responsibility 
among its employees.
    The USMS policy contains a Code of Professional Responsibility, 
which sets forth 38 standards to govern employees' on and off duty 
conduct. The USMS employees are required to read the Code of 
Professional Responsibility each year and acknowledge their 
understanding all 38 standards. The USMS also uses in-service and 
online training to keep employees up-to-date on expected operating 
procedures and responsibilities. Finally, the USMS makes available all 
policies and standard operating procedures to all employees to clearly 
convey expectations regarding conduct and behavior. Within the USMS, 
policies define the discipline management procedures and penalties for 
employee misconduct.

                          SUBCOMMITTEE RECESS

    The subcommittee is in recess.
    [Whereupon, at 11:45 a.m., Thursday, March 12, the 
subcommittee was recessed, to reconvene in closed session.]
</pre></body></html>
